<html>
<title> - OVERSIGHT HEARING ON MANAGEMENT OF WEST COAST SALMON FISHERIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




               MANAGEMENT OF WEST COAST SALMON FISHERIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, May 15, 2008

                               __________

                           Serial No. 110-70

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov








                   U.S. GOVERNMENT PRINTING OFFICE
42-410 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001














                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                











                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 15, 2008...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     2
        Prepared statement of....................................     3
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     4
    Eshoo, Hon. Anna G., a Representative in Congress from the 
      State of California, Statement submitted for the record....   121
    McDermott, Hon. Jim, a Representative in Congress from the 
      State of Washington, Statement submitted for the record....   129
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington...............................     5
    Petri, Hon. Thomas E., a Representative in Congress from the 
      State of Wisconsin, Statement submitted for the record.....   133
    Sali, Hon. Bill, a Representative in Congress from the State 
      of Idaho...................................................     6
    Wu, Hon. David, a Representative in Congress from the State 
      of Oregon, Statement submitted for the record..............   134

Statement of Witnesses:
    Anderson, Laura, Owner/Operator, Local Ocean Seafoods........    69
        Prepared statement of....................................    71
    Kawahara, Joel, Board Member, Washington Trollers Association    83
        Prepared statement of....................................    85
    Litchfield, James, Northwest RiverPartners...................    35
        Prepared statement of....................................    36
    McInnis, Rodney R., Southwest Regional Administrator, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....     7
        Prepared statement of....................................     8
    Peltier, Jason, Director, San Luis and Delta-Mendota Water 
      Authority..................................................    98
        Prepared statement of....................................   100
    Pool, Richard, Owner, Pro-Troll Fishing Products.............    89
        Prepared statement of....................................    91
    Rode, Michael, Senior Fishery Biologist/Staff Environmental 
      Scientist (Retired), California Department of Fish and Game    13
        Prepared statement of....................................    15
    Thomas, Roger, President, Golden Gate Fishermen's Association    77
        Prepared statement of....................................    79
    Williams, Jack E., Ph.D., Senior Scientist, Trout Unlimited..    28
        Prepared statement of....................................    30

Additional materials supplied:
    Marshall, Clifford Lyle, Chairman, Hoopa Valley Indian Tribe, 
      Statement submitted for the record.........................   122
    Moyle, Peter B., Center for Watershed Sciences and Department 
      of Wildlife, Fish & Conservation Biology, University of 
      California, Davis, California, Statement submitted for the 
      record.....................................................   130

 
     OVERSIGHT HEARING ON MANAGEMENT OF WEST COAST SALMON FISHERIES

                              ----------                              


                         Thursday, May 15, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:07 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Ortiz, Capps, 
McMorris Rodgers, Sali, Costa, Napolitano, DeFazio, McDermott, 
Inslee, Hooley, Eshoo, Miller, Farr, Baird, Thompson, and Wu.
    Ms. Bordallo. Good morning, everyone. The legislative 
hearing by the Subcommittee on Fisheries, Wildlife and Oceans 
will now come to order.
    This morning, I have some very special guests in the 
audience. I would like to introduce them. It was a coincidence 
that we would have this hearing of the Fisheries Subcommittee 
that has to do with salmon because these people are from 
Yakutat, Alaska, along the southern shore. Mr. Frank Reiman and 
Rose Marie Bamba Reiman, would you stand, please, so we can see 
you?
    Mr. Brown. They are standing over there.
    [Applause.]
    Ms. Bordallo. Mrs. Reiman is from Guam, but she has lived 
33 years in Alaska. She went from the tropics to the snow land.
    I would like to ask everyone standing there, you can take 
the chairs up around here, please, if you would like to. This 
is going to be a pretty long hearing. Please just feel free to 
be seated.
    The Subcommittee is meeting today to hear testimony on the 
management of West Coast salmon fisheries. Before we commence 
with opening statements, I would like to ask unanimous consent 
that the following Members be allowed to join the Subcommittee 
Members on the dais and participate with the Subcommittee for 
the hearing: Mr. Miller, the gentleman from California, Mr. 
McDermott from the State of Washington, Mr. Sam Farr, from the 
State of California, and Mr. Costa from California.
    Hearing no objection, so ordered.
    Pursuant to Committee Rule 4[g], the Chairman and the 
Ranking Minority Member will make opening statements, and if 
any other Subcommittee Members have statements, I will offer 
them the opportunity to speak, and other Members are invited to 
submit any statement that they may have for the record.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. The Subcommittee on Fisheries, Wildlife and 
Oceans meets this morning to hear testimony regarding the 
National Marine Fisheries Service's failed leadership in the 
management and conservation of West Coast salmon fisheries. 
Sadly, this is not a failure that can be made up in summer 
school like calculus class. Instead, it is one that could take 
years, if not decades, to overcome and one that will have 
profound impact for communities up and down the coast.
    Salmon stocks listed on the Endangered Species list and the 
shutdown of fishing seasons have become all too commonplace. 
Last fall, it was Klamath-Chinook. This year, it is the 
Sacramento fall-run Chinook.
    Salmon is the backbone of the ocean fishery. Commercial and 
recreational fishermen, equipment suppliers, and restauranteurs 
all depend on these fish for their livelihoods.
    Last month, when the Pacific Council voted to close the 
2008 Chinook salmon fishing season, the closure was 
unprecedented in its magnitude. Fishing businesses all along 
the West Coast are shut down. The States of California, Oregon, 
and Washington requested $274 million in disaster assistance, 
and Secretary Gutierrez declared a commercial fishery failure. 
Many fear that the season will need to be closed for at least 
two more years.
    Agency scientists have pointed to unfavorable ocean 
conditions in 2005 as a determining factor. While this may be, 
ocean conditions are largely beyond our control, and salmon 
stocks have been declining for years due to many human impacts. 
It is NOAA Fisheries' responsibility to address these human-
caused impacts and ensure that salmon stocks are healthy and 
resilient enough to sustain the natural disturbances that they 
will inevitably encounter.
    Yet, in the case of salmon stocks that are in the greatest 
need of protection, those listed under the ESA, NOAA Fisheries 
seem unable to produce a scientifically based, legally 
defensible, biological opinion in the Sacramento, the Klamath, 
or the Columbia, the three major salmon-producing rivers of the 
West.
    Time and again, across these rivers, the courts have 
consistently found that NOAA Fisheries has developed biological 
opinions that fail to use the best available science, are based 
on conclusions that do not match their scientific findings, and 
fail to account for the changes in the environment that the 
agency knows are coming.
    Why has this agency failed to issue biological opinions 
that will protect endangered salmon stocks and will bolster 
other declining stocks in the process? I am sure this is a 
question that many coastal communities have asked themselves 
repeatedly over the past several years, and I am not sure there 
is a good answer.
    To the credit of the fishing community, many supported this 
year's closure at their own expense for the sake of the 
resource. NOAA Fisheries owes them an answer. It also needs to 
demonstrate the leadership needed to improve salmon management 
and conservation up and down the coast and rebuild healthy 
salmon stocks that will sustain the occasional changes in ocean 
conditions, as well as the long-term changes in the climate 
that are both inevitable.
    So I look forward, this morning, to hearing from our 
witnesses on the first panel on how biological opinions can be 
strengthened and how we can move toward ecosystem management of 
all salmon stocks.
    The stories we will hear from the witnesses on the second 
panel should not be repeated.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    The Subcommittee on Fisheries, Wildlife and Oceans meets this 
morning to hear testimony regarding the National Marine Fisheries 
Service's failed leadership in the management and conservation of West 
Coast salmon fisheries. Sadly, this is not a failure that can be made 
up in summer school like calculus class. Instead, it is one that could 
take years--if not decades--to overcome and one that will have profound 
impacts for communities up and down the coast.
    Salmon stocks listed on the Endangered Species list and the shut 
down of fishing seasons have become all too common place. Last year, it 
was Klamath Chinook. This year, it's the Sacramento fall-run Chinook 
salmon--the backbone of the ocean fishery. Commercial and recreational 
fishermen, equipment suppliers, and restaurateurs all depend on these 
fish for their livelihoods.
    Last month, when the Pacific Council voted to close the 2008 
Chinook salmon fishing season, the closure was unprecedented in its 
magnitude. Fishing businesses all along the west coast are shut down. 
The States of California, Oregon, and Washington requested $274 million 
dollars in disaster assistance, and Secretary Gutierrez declared a 
commercial fishery failure. Many fear that the season will need to be 
closed for at least two more years.
    Agency scientists have pointed to unfavorable ocean conditions in 
2005 as a determining factor. While this may be, ocean conditions are 
largely beyond our control, and salmon stocks have been declining for 
years due to many human impacts. It is NOAA Fisheries' responsibility 
to address these human caused impacts and ensure that salmon stocks are 
healthy and resilient enough to sustain the natural disturbances they 
will inevitably encounter.
    Yet, in the case of salmon stocks that are in the greatest need of 
protection--those listed under the ESA--NOAA Fisheries seems unable to 
produce a scientifically based, legally defensible Biological Opinions 
in the Sacramento, the Klamath, or the Columbia, the three major 
salmon-producing rivers of the West.
    Time and again across these rivers, the courts have consistently 
found that NOAA Fisheries has developed BiOps that fail to use the best 
available science, are based on conclusions that do not match their 
scientific findings, and fail to account for the changes in the 
environment that the Agency knows are coming.
    Why has the Agency failed to issue BiOps that will protect 
endangered salmon stocks and will bolster other declining stocks in the 
process? I am sure this is a question that many coastal communities 
have asked themselves repeatedly over the past several years, and I am 
not sure there is a good answer.
    To the credit of the fishing community, many supported this year's 
closure at their own expense for the sake of the resource. NOAA 
Fisheries owes them an answer. It also needs to demonstrate the 
leadership needed to improve salmon management and conservation up and 
down the coast and rebuild healthy salmon stocks that will sustain the 
occasional changes in ocean conditions as well as the long term changes 
in the climate that are both inevitable.
    I look forward to hearing from our witnesses on the first panel on 
how Biological Opinions can be strengthened, and how we can move toward 
ecosystem management of all salmon stocks. The stories we will hear 
from the witnesses on the second panel should not be repeated.
                                 ______
                                 
    Ms. Bordallo. I would like now to recognize the Ranking 
Member of our Subcommittee, The Honorable gentleman from South 
Carolina, Mr. Brown.

       STATEMENT OF THE HONORABLE HENRY E. BROWN, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Good morning and thank you, Madam Chair. While 
the official notice for this hearing states that this is an 
oversight hearing on the management of West Coast salmon, the 
letter of invitation called this hearing ``A Perfect Storm: How 
Faulty Science, River Management, and Ocean Conditions Are 
Impacting West Coast Salmon Fisheries.''
    That is certainly a provocative title for a hearing and one 
that seems to draw conclusions and point the finger at the 
cause of the West Coast salmon's decline before the hearing 
even starts.
    As you know, this Subcommittee certainly has the authority 
and the ability to discuss the salmon harvest aspect of this 
problem and to examine the activities conducted by the National 
Marine Fisheries Service in their management of fisheries.
    This Subcommittee certainly can look at other aspects of 
the problem. However, the Subcommittee on Water and Power has a 
vast amount of expertise on other aspects of this issue. I 
understand that a request was made by the Ranking Member of 
that Subcommittee to make this hearing a joint hearing because 
of their experience and history of hearings on these issues, 
but that request was denied.
    I think that that is unfortunate because, as a Member from 
South Carolina, I do not have the same experience or background 
on the issues surrounding the fight over water uses on the West 
Coast and in California particularly.
    Madam Chairwoman, I think the deliberations here today 
would have been enhanced if we had included our colleagues on 
the Subcommittee on Water and Power, but, in any case, I am 
glad Mrs. McMorris Rodgers, the Ranking Member of that 
Subcommittee, is also a Member of this Subcommittee, so we will 
each get her input.
    I know Mr. Sali will also bring his knowledge of West Coast 
salmon to this hearing, so I expect to learn a good bit here 
today. I hope that, as our witnesses testify today and other 
Members who will be joining us later add their statements, we 
will try to talk about ways that Congress can provide guidance 
and assistance on this situation.
    I think that pointing the finger at other users groups is 
counterproductive and tends to just alienate some Members of 
Congress who would otherwise be likely to want to help.
    Thank you, Madam Chair, and I look forward to hearing from 
our witnesses. Thank you, gentlemen, for being with us today.
    Ms. Bordallo. I thank the Ranking Member, the gentleman 
from South Carolina, Mr. Brown, for his opening statement, and 
now I ask unanimous consent that Ms. Hooley, Ms. Eshoo, and 
Mrs. Napolitano be allowed to join the Subcommittee on the dais 
to participate in the hearing. Hearing no objection, so 
ordered.
    Are there any other Members that would like to make opening 
statements, Subcommittee Members? Mrs. McMorris Rodgers.

     STATEMENT OF THE HONORABLE CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Thank you, Madam Chairman, and I 
appreciate everyone being here today to discuss the status of 
West Coast salmon fisheries. For those of us from the Pacific 
Northwest, this hearing is a continuation of decades of debate.
    Everyone agrees that we need to protect salmon populations, 
and how are the salmon doing? This year, fish managers have 
predicted that the spring Chinook salmon run will exceed 
269,000, the third-highest run since before fish were listed 
under the Endangered Species Act. Already this year, more 
salmon have passed through the Bonneville Dam than in any other 
year since 2004, a record year.
    The answers to protecting salmon populations can be 
complex, costly, and have unintended impacts. Despite the old 
title of this hearing, I am sure that we will find the answers 
will still be elusive and that there is not a magic wand to 
resolve this immediately.
    In my region of the Pacific Northwest, this issue has been 
on the front page for some time. It has been contentious and 
lawsuit dominated, as a Federal judge has become the de facto 
river master. In addition, almost a third, 30 percent, of our 
electricity rates are related to endangered salmon recovery, 
and these costs are passed directly on to all consumers of 
income and size. Billions of dollars have been dedicated to 
salmon survival, most of it coming from the pockets or 
ratepayers.
    In the past, we have held a hearing in this Committee on 
legislation that I have introduced that I think is important to 
providing transparency on how we are spending for salmon 
recovery efforts and the dollars. Our nation has, 
understandably, made salmon survival a priority. We should 
remember that there are other impacts. Farm families, electric 
ratepayers, and fishermen, whose livelihoods and way of life 
depend on salmon, all need certainty. There are many competing 
needs and interests in this debate.
    It is important that we have a fair, open, and honest 
debate. Everything is on the table, including habitat, 
hatchery, harvest, and even renewable and emissions-free 
hydropower. We should look at other Federal laws, such as the 
Marine Mammal Protection Act, to resolve conflicts between 
species like salmon and sea lions, and as it relates to the 
California Bay Delta, we should also examine whether the 
striped bass sports fisheries are having serious impacts on 
salmon populations.
    The Water and Power Subcommittee, of which I am the Ranking 
Member, has dealt extensively with these issues. We have held 
hearings in Clarkston and Pasco, Washington, and in Vallejo, 
California. We have had numerous hearings inside the beltway on 
California Bay Delta issues, as well as legislation regarding 
Endangered Species Act costs.
    This hearing today focuses on Water and Power's 
infrastructure, which does come under the jurisdiction of the 
Water and Power Subcommittee, and, for this reason, I had asked 
for this to be a joint hearing, and I am responding that the 
request was denied. I have a letter that is stating that 
request that I would like to be a part of the hearing record.
    Ms. Bordallo. Hearing no objection, so ordered.
    [NOTE: The letter submitted for the record has been 
retained in the Committee's official files.]
    Mrs. McMorris Rodgers. We do have two excellent witnesses, 
Mr. Jim Litchfield, representing the Northwest River Partners; 
and Jason Peltier, representing family farmers in the Central 
Valley of California; and I appreciate them being here and for 
the invitation being extended to them to join us on this 
hearing.
    Madam Chairwoman, I hope that this hearing will be a 
productive one. The only way we are going to resolve this is 
through cooperation and collaboration. Instead of engaging in 
finger pointing and singing the same bitter tune against 
agriculture and energy, I really hope the witnesses and the 
Subcommittee will use this opportunity to work together. We owe 
it to the American people, and we owe it to the environment.
    Ms. Bordallo. I thank the gentlelady for her opening 
remarks.
    I would like to recognize Mr. Sali, also a Member of the 
Subcommittee, for any opening remarks he may have.

   STATEMENT OF THE HONORABLE BILL SALI, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Sali. Madam Chair, we found out last night, at about 
10:00, that we were going to be able to have an opening 
statement this morning, and so I did not have time to prepare 
one. I would ask unanimous consent that I be able to submit one 
for the record.
    Ms. Bordallo. Hearing no objection, so ordered.
    [NOTE: The statement submitted for the record by Mr. Sali 
was not available at press time.]
    Ms. Bordallo. We will now introduce the members of the 
first panel: Mr. Rodney McInnis, the southwest regional 
administrator of NOAA Fisheries; Mr. Mike Rode, the former 
California Fish and Game fisheries biologist and environmental 
scientist; Dr. Jack Williams, the senior scientist, Trout 
Unlimited; and Mr. Jim Litchfield, Litchfield Consulting.
    I want to thank all of the witnesses for being here today, 
and I would like to welcome the witnesses to this hearing and 
to note that there are timing lights on the table, and it will 
indicate when your time has concluded, and we would appreciate 
your cooperation in complying with the limits that have been 
set, as we have many witnesses to hear from today, and be 
assured that your full written statement will be submitted for 
the hearing. The time limit is five minutes, so you will see 
the light right there.
    Before we start with our first witness, I ask unanimous 
consent that Mr. Baird be allowed to join the Subcommittee on 
the dais and participate in the hearing today. Hearing no 
objection, so ordered.
    Now I would like to begin with our first witness, Mr. 
McInnis.

STATEMENT OF RODNEY McINNIS, SOUTHWEST REGIONAL ADMINISTRATOR, 
    NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. McInnis. Good morning, Madam Chairwoman and Members of 
the Subcommittee. My name is Rod McInnis, and I am the regional 
administrator for NOAA Fisheries [NMFS] Southwest Region. Thank 
you for the opportunity to testify today and allowing me to 
highlight a few of the points from my written statement.
    The West Coast salmon fishery is regulated according to 
provisions of a fishery management plan which calls for fishing 
seasons and quotas to be set annually based on the availability 
of salmon for harvest. The abundance forecasts for 2008 were 
generally very low along the entire West Coast.
    The most pessimistic forecast was for the Central Valley 
fall Chinook in California. Because of the low abundance of the 
fall Chinook and the great dependence of the ocean fisheries 
off California and Oregon on this run, NMFS implemented a 
complete closure of the commercial salmon fishery and a nearly 
complete closure of the recreational fishery on May 1. The 
Secretary of Commerce declared this a disaster at the same 
time.
    NMFS scientists conducted a preliminary inquiry into the 
potential causes of the sudden low populations on the Central 
Valley fall Chinook. They found that the ocean conditions from 
2003 through 2005 were most likely the immediate cause of the 
rapid decline in abundance. The salmon that would have 
supported this year's fisheries merged into an ocean without 
abundant prey and likely had a low survival rate as a result. 
NMFS scientists are now leading a more in-depth study of the 
factors of the rapid declines specific to the Central Valley 
Chinook.
    Turning our attention to ESA, NMFS has taken strong steps 
to improve its biological opinions in the recent past. NMFS has 
more strictly defined its internal review and clearance 
procedures for biological opinions and has adopted a practice 
of using independent scientific reviews as part of the 
development of some of the complex and controversial biological 
opinions.
    It is important to note that the fall-run Chinook in the 
Central Valley and all of the Chinook in the Klamath River are 
not listed under ESA. Therefore, they are not the focus of 
these biological opinions. Biological opinions for the Klamath, 
Sacramento, and Columbia Rivers are among the most complex and 
far reaching that NMFS has addressed. In each case, NMFS has 
used the best scientific information available at the time of 
the consultation to determine the impact on the listed salmon 
populations and their designated critical habitats.
    The quality and extent of available information has varied 
from project to project and has improved over time. In each 
case, a Federal court has found that the biological opinion did 
not fully meet the requirements of the law or regulations. NMFS 
is committed to expanding the body of science related to salmon 
and has more broadly used independent scientists at various 
stages in consultations. These independent reviews have been 
helpful, and many of the recommendations have been adopted 
immediately.
    Using the authority under ESA, NMFS has required many 
protective actions for listed salmon. In the Central Valley, 
the timing of water temperature and releases flows from Shasta 
Dam and the opening of the Red Bluff Diversion Dam improved 
screening on major diversions, and removal of multiple 
migration barriers on tributaries has substantially improved 
the conditions for winter Chinook and spring Chinook since 
their listings. These populations of salmon have improved from 
the 1990s until 2006. Habitat improvements and favorable ocean 
conditions contributed to the reversal of the declines that 
motivated the ESA listings.
    For salmon populations not listed under ESA, NMFS has 
authority, under the Magnuson-Stevens Act, to define the 
essential habitat for those fish. NMFS reviews Federal projects 
for likely impacts on the essential fish habitat of salmon and 
recommends measures that would provide the needed protection. 
Magnuson-Stevens Act recommendations for protection of 
essential fish habitat are not binding for Federal agencies, 
but the agencies are required to respond within 30 days as to 
whether they accept NMFS' recommendations.
    NMFS views the authorities of the ESA and the Magnuson-
Sevens Act as complementary. Salmon depend upon a broad 
ecosystem, including the ocean, rivers, and watersheds that 
feed the rivers. While NMFS uses authorities under ESA to 
ensure that salmon are protected on a project-by-project basis, 
more comprehensive approaches are needed to reach the most 
effective and enduring solutions to the often complex, 
competing needs of people and fish.
    Finding long-term solutions to these vexing problems will 
require a shared vision among parties with differing views, for 
example, the Klamath Restoration Agreement, and continued 
investment in habitat restoration and long-term conservation 
planning, such as is going on with the Bay Delta Habitat 
Conservation Planning and other conservation programs.
    Thank you again for this opportunity to present NMFS' views 
on these matters, and I would be pleased to answer any 
questions from you or other Members of the Committee. Thank 
you.
    [The prepared statement of Mr. McInnis follows:]

   Statement of Rodney R. McInnis, Southwest Regional Administrator, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Good morning Madam Chairwoman and members of the Subcommittee. My 
name is Rodney McInnis, and I am the Regional Administrator for the 
Southwest Region of the National Marine Fisheries Service (NMFS), 
National Oceanic and Atmospheric Administration. Thank you for the 
opportunity to testify on the West Coast salmon fishery disaster and 
the actions being taken by NMFS to identify and address the causes of 
that disaster, as well as our actions to improve salmon survival in 
their freshwater environment. Your invitation to testify identified 
three major areas of particular interest: (1) the reasons for the 
collapse of the West Coast salmon fishery; (2) the state of science 
behind the court-determined inadequate biological opinions on the 
Sacramento, Klamath, and Columbia/Snake Rivers; and (3) linkages 
between river and fisheries management under the auspices of both the 
Endangered Species Act (ESA) and the Magnuson-Stevens Act. I will 
address each of these areas in turn.
REASONS FOR THE COLLAPSE OF THE WEST COAST SALMON FISHERY
    The West Coast ocean salmon fishery is regulated according to the 
provisions of a fishery management plan (plan) developed by the Pacific 
Fishery Management Council and approved by the Secretary of Commerce. 
The plan calls for fishing seasons and quotas for the ocean salmon 
fisheries to be set annually based on the availability of salmon for 
harvest. To determine the number of salmon available for harvest each 
year, abundance forecasts made in February are compared to the number 
of spawning salmon deemed necessary under the plan to provide for the 
next generation. Abundance forecasts for 2008 were generally very low 
along the entire West Coast.
    The most problematic forecast for the ocean fisheries was for 
California Central Valley fall-run Chinook salmon return in 2008. 
Absent any fishing in the ocean or in the rivers, the number of 
spawners expected to return to the Central Valley is one-third to one-
half the number required to meet the spawning goal. The abundance of 
spawners is forecast to be fewer than 60,000 fish compared with the 
goal range of 122,000 to 180,000 fish. As recently as 2002, nearly 
800,000 fall Chinook returned to the Central Valley. Commercial and 
recreational salmon fisheries in the ocean off Oregon and California 
depend very heavily on the fall run of Central Valley Chinook, as this 
run accounts for as much as 80 to 90 percent of the catch off these two 
states. Because of the low abundance of fall Chinook and the great 
dependence of the ocean fisheries on this run, the Council recommended 
a complete closure of the ocean commercial salmon fisheries from near 
the Columbia River south to the Mexican border to protect spawners for 
future reproduction. The only recreational fishery recommended to be 
open for this area is a small fishery off Oregon targeted on hatchery-
produced coho salmon. On May 1, NMFS approved and implemented these 
recommendations. At the same time, the Secretary of Commerce determined 
that there is a resource disaster and a commercial fishery failure 
under the Magnuson-Stevens and the Interjurisdictional Fisheries Acts 
due to the extremely low abundance of fall Chinook which, even if 
fishing were allowed, would result in severe economic impacts.
    NMFS scientists conducted a preliminary inquiry into the potential 
causes for the sudden low population levels of Central Valley fall 
Chinook. They found that ocean conditions from 2003 through 2005 were 
the most likely immediate cause of the rapid decline in abundance. This 
finding was based on an examination of the factors indicating the 
presence of food for salmon at the time the fish emerged from the 
rivers into the ocean. At this critical time for salmon survival, the 
availability of prey is normally high along the West Coast due to 
upwelling, when nutrient-rich deep waters rise to the surface. The 
salmon that would have supported this year's fisheries emerged into an 
ocean without abundant prey and likely had a low survival rate as a 
result. Survival of salmon from other watersheds was poor during this 
period as well, with the negative effects being strongest in the south 
and lessening to the north.
    This preliminary evaluation does not exclude other contributing 
causes. Many natural and human-caused factors in the freshwater 
environment influence the survival of salmon. The ESA listings of 
winter-run and spring-run Chinook and steelhead in the Central Valley 
identified many freshwater habitat threats that contributed to the 
declines of those populations. NOAA scientists are undertaking a more 
focused investigation of the Central Valley fall Chinook ecology, and 
this new study will be completed within the next few months.
    Some parties have hypothesized that increased pumping of water from 
the Sacramento/San Joaquin Delta and ensuing entrainment mortality at 
the pumps is partially to blame for the decline of salmon. However, 
loss of all juvenile Chinook salmon at the Delta pumps was below 
average in 2004-2005, and below the incidental take limits for listed 
populations. Although NMFS cannot verify the degree Delta pumping rates 
played a part in the decline of salmon in the Central Valley, NMFS 
scientists noted that salmon in other river systems along the coast 
suffered similar declines. Therefore, the cause of the decline is 
likely a survival factor common to salmon runs from different rivers 
and consistent with the poor ocean conditions hypothesis being the 
major causative factor.
THE STATE OF SCIENCE BEHIND THE COURT-DETERMINED INADEQUATE BIOLOGICAL 
        OPINIONS ON THE SACRAMENTO, KLAMATH, AND COLUMBIA/SNAKE RIVERS
    NMFS has taken strong steps to improve its biological opinions in 
the recent past and to clarify review procedures. First, NMFS has more 
strictly defined the internal review and clearance procedures for 
biological opinions. Second, NMFS has adopted a practice of using 
independent scientific reviews as a part of the development of some 
complex and controversial biological opinions, such as those in the 
Klamath, Central Valley, and Columbia/Snake Rivers.
    Section 7 of the ESA provides NMFS tools and a responsibility for 
protecting threatened and endangered species. All federal agencies that 
authorize, fund, or permit activities that ``may affect'' ESA-listed 
species are required to consult with the agency responsible for that 
species. In the case of salmon, NMFS is the responsible agency. The end 
product of the consultation is a biological opinion that provides an 
analysis as to whether the federal action is likely to jeopardize the 
continued existence of listed species or result in the destruction or 
adverse modification of designated critical habitat. Should the impact 
of a project reach the level of jeopardizing the continued existence of 
a listed species or result in adverse modification to the critical 
habitat for that species, the project may be able to proceed with 
modifications by adopting a reasonable and prudent alternative to the 
project as initially proposed. Proposed projects and the ESA 
consultations related to them range from simple and local to very 
complex and far-reaching.
    The biological opinions for the Sacramento, Klamath, and Columbia/
Snake Rivers are among the most complex and far-reaching that NMFS has 
addressed. In each case, NMFS staff has used the best scientific 
information available at the time of the consultation to determine the 
impact of those ongoing activities on the listed salmon populations and 
their designated critical habitats. The quality and extent of available 
information has varied among projects and has improved over time. 
However, in each case, a Federal Court found that the biological 
opinion or the incidental take statement did not fully meet the 
requirements of the law and implementing regulations. NMFS has 
committed to expanding the body of science related to salmon. To aid in 
this improvement, NMFS has more broadly used independent scientists at 
various stages in the consultation and in development of the biological 
opinion. These independent reviews have been helpful, and many of the 
recommendations from the reviews have been adopted immediately. For 
example, NMFS Science Centers and teams convened for the purposes of 
providing recommendations for the conservation of listed salmon have 
developed information NMFS now uses to assess the impacts of all 
proposed federal actions. This analytical framework, built around the 
concepts of long-term, self-sustaining salmon populations--also known 
as viable salmonid populations--provides a solid scientific foundation 
for NMFS' analysis. In addition, this framework allows NMFS to consider 
the role of climate change in the species' conservation, as the long-
term self-sustaining salmon population is also resilient to 
environmental variation. Some independent review recommendations 
require more time to develop and will be incorporated in future 
consultations.
    In the case of the Sacramento River (Central Valley Project) water 
management, the most recent consultation was completed in 2004. The 
biological opinion on this controversial project proposal became 
controversial itself. In April 2008, a Federal Court found that the 
opinion did not use the best science available, did not apply a clear 
analytical framework, and reached conclusions that were not supported 
by the analysis contained in the opinion. NMFS is involved in a new 
consultation with the federal action agency on this project (Bureau of 
Reclamation) and their co-operator, the California State Department of 
Water Resources. NMFS expects to complete this new consultation in 
March 2009. The consultation will incorporate a clear analytical 
framework, more detailed data on flow and temperature management, 
updated modeling, impacts of climate change on future water flow 
levels, and additional current science related to the impact of climate 
change on salmon populations. These are among the many recommendations 
NMFS received from independent scientific reviews of the 2004 
biological opinion before the Court decision.
    The new consultation for the Central Valley Project operations will 
have independent reviews during its preparation. The first review has 
been commissioned by the Bureau of Reclamation for the preparation of 
its biological assessment of the impact of its ongoing operations on 
listed salmon, green sturgeon, and designated critical habitat. Once 
the Bureau of Reclamation completes its assessment including the 
independent review, NMFS will begin its consultation and its own 
assessment of the impact of water management on salmon, sturgeon, and 
their critical habitat. NMFS has scheduled into its consultation 
process an independent scientific review of its draft biological 
opinion before rendering a final biological opinion on the project.
    For the Klamath River, a new consultation is nearing completion and 
a preliminary draft biological opinion is currently undergoing an 
independent scientific review. Previous critical reviews of NMFS 
biological opinions on the Klamath Project of the Bureau of Reclamation 
have provided recommendations for improving the science and the use of 
science that are incorporated into this current consultation. Two 
recent reports have enhanced our understanding of the instream flow 
needs of coho salmon in the Klamath River Basin: (1) the Phase II 
Instream Flow Report and (2) the subsequent review of the Report by the 
National Research Council. These reports highlight the need for a 
basin-wide science plan to support policy and decision-making for the 
basin's hydrological and ecological resources.
    On May 5, 2008, three major biological opinions were issued for the 
Columbia River and its tributaries. They cover the operations of the 14 
major federal hydropower projects on the Columbia and Snake River 
systems, which provide nearly half of the electric power for the 
Northwest, the Bureau of Reclamation dams that provide much of the 
water for irrigated agriculture in Idaho, and the state and tribal 
salmon harvest in the Columbia River and its tributaries.
    All three opinions rely on the same comprehensive scientific 
analysis--the product of more than 25 years of ongoing research on the 
specific factors limiting Columbia River salmon. Much of this research 
has been published in peer-reviewed journals or has been the subject of 
independent scientific review. The analysis examines in great detail 
all of the effects of the proposed actions, both the adverse impacts 
and the proposed improvements. The opinions look at all major factors, 
including the effects of the hydropower system, harvest, hatchery 
operation, and habitat condition, and include significant improvements 
in each of these areas.
    In developing these opinions, NMFS and the federal agencies 
operating the dams were urged by a federal judge to take a 
collaborative approach. The judge had rejected the agency's earlier 
biological opinions for both hydropower operations and the irrigation 
projects. In response, the federal agencies have worked closely with 
states and tribes to develop these opinions, holding over 200 meetings 
and work group sessions over the past two years. The new opinions are 
supported by three of the four northwestern states, and by four of the 
seven Indian tribes involved in the previous litigation.
    The shifting direction provided by the federal court system 
involving regulatory and statutory interpretations of the ESA and its 
implementing regulations has been a significant issue regarding the use 
of science. For example, two significant questions are how to 
accurately characterize environmental baseline conditions and define 
critical habitat. In these instances, even the most well intended 
biologist has difficulty navigating the maze of Circuit Court cases, 
regulatory direction, and agency policy, especially on projects as 
complicated as the Columbia/Snake River, Klamath, and Central Valley. 
How to address the role of millions of ESA-listed hatchery fish in the 
jeopardy analysis is another area with complicated and conflicting 
judicial rulings that make an ESA analysis challenging.
LINKAGE BETWEEN RIVER AND FISHERIES MANAGEMENT UNDER THE AUSPICES OF 
        BOTH THE ENDANGERED SPECIES ACT AND THE MAGNUSON-STEVENS ACT
    Salmon live in both the marine and freshwater environment, and 
therefore depend on the resources and space within both environments to 
persist in the face of changing climatic conditions. The health of 
salmon populations depends on the overall functioning of their 
ecosystem, not simply the resources or conditions provided in one place 
or by one variable. NMFS recognizes this need and considers the health 
and function of these environments when managing both ESA-listed and 
commercially harvested salmon species. At the same time, human use of 
freshwater and marine resources adds an additional level of complexity 
to the task of managing these environments and species. NMFS views the 
authorities related to salmon protection and fisheries management under 
the ESA and the Magnuson-Stevens Act as complementary. The non-listed 
target salmon fishery is allowed an incidental catch of listed salmon 
that commingle in the ocean with the non-listed target populations. 
NMFS is required to examine the probable impact of ocean salmon 
fisheries on the ESA-listed salmon to ensure that the fishing will not 
jeopardize their continued existence.
    Throughout the salmon range on the West Coast, including the 
rivers, NMFS has authority under ESA to require that federally 
conducted, funded, or permitted activities are carried out in a manner 
that does not jeopardize the continued existence of or adversely modify 
the critical habitat of ESA-listed fish. Should NMFS find that a 
project is likely to cause such harm to a species or critical habitat, 
NMFS provides reasonable and prudent alternatives for achieving the 
objectives of the project while protecting salmon. For projects not 
likely to jeopardize the continued existence of listed salmon or result 
in the destruction or adverse modification of critical habitat, NMFS 
also has authority to require additional protective measures for listed 
salmon as terms and conditions of the incidental take permit issued for 
the project.
    Using this authority under ESA, NMFS has required many protective 
actions for listed salmon. NMFS has improved the future outlook for 
salmon by restoring or improving passage for salmon beyond dams, 
mandating minimum river flows below dams, requiring screening of 
diversions, improving water quality, reducing the negative impact of 
land-based activities on the streams, and rebuilding suitable spawning 
and rearing habitat for ESA-listed salmon. In the Central Valley, the 
timing and temperature of water releases from Shasta Dam, the opening 
of the Red Bluff Diversion Dam, improved screening on major diversions, 
and removal of multiple migration barriers on tributaries have 
substantially improved the conditions for winter- and spring-run 
Chinook since their listings. The populations of these salmon improved 
from the 1990s until 2006. Habitat improvement and favorable ocean 
conditions contributed to the reversal of the declines that motivated 
the ESA listings. Unfortunately, the 2007 estimate of winter Chinook 
was far below the estimates of recent years, which hopefully will 
return to increasing trends with improved ocean conditions.
    For salmon populations not listed under ESA, NMFS has authority 
under the Magnuson-Stevens Act to define the essential habitat for 
those fish. NMFS reviews federal projects for their likely impacts on 
the essential habitat of salmon and recommends measures that would 
provide needed protection of the populations of salmon not listed under 
ESA. This review is concurrent with the ESA review if both listed and 
non-listed salmon are present in the area of the project. The Magnuson-
Stevens Act recommendations to protect essential fish habitat are not 
binding on the federal agencies, but other federal agencies are 
required to respond within 30 days as to whether they accept NMFS' 
conservation recommendations.
    Differences in the level of protection among salmon populations in 
the same watershed can pose a challenge. In most situations, both the 
ESA-listed and non-listed salmon populations benefit from the measures 
required by NMFS for protection under ESA. Screening diversions, 
reopening historic habitat lost because of impassible dams, and 
measures that reduce the harm to the streams from activities upslope 
from the river benefit all salmon and other aquatic species in the 
watershed. In circumstances such as those in the Central Valley, the 
more urgent priority for the protection of ESA-listed species takes 
precedence over the protection of the fall Chinook run when the 
question at hand involves the timing of delivery of limited cold water 
to spawning and rearing habitat or the timing of diversions of water 
from the river for other uses. NMFS has examined those circumstances 
carefully and sought to provide for the needs of all salmon. But the 
project modifications NMFS believes are necessary are only 
recommendations with respect to protection of non-listed fish, while 
they are binding requirements for the ESA-listed fish and actions 
necessary to conserve critical habitat.
    NMFS also can improve salmon populations under the authority of the 
Federal Power Act to prescribe mandatory fish passage at dams licensed 
by the Federal Energy Regulatory Commission (FERC). NMFS recently used 
this authority to require the hydroelectric power dams on the Klamath 
River to be retrofitted to provide passage for anadromous fish into the 
upper basin. When completed, this action will restore salmon to over 
300 miles of spawning and rearing habitat from which they have been 
excluded for a century. In the Klamath and other basins, the FERC dam 
relicensing process has provided opportunities to negotiate broad 
agreements that will provide benefits to salmon. These benefits derived 
under the Federal Power Act apply to all fish and not just the ESA-
listed populations.
CONCLUSION
    The West Coast salmon fishery disaster was likely driven primarily 
by poor ocean conditions for salmon survival, although scientists 
acknowledge that conditions in the freshwater habitat for salmon have 
had an impact on the population's resilience to natural cycles in the 
ocean conditions. NMFS will conduct a study during the next few months 
that will focus on the contributing causes to the Sacramento fall 
Chinook collapse.
    NMFS has made substantial improvements in the internal and external 
review processes for biological opinions. Independent scientific review 
will be a part of the consultation process for complex and 
controversial projects. The science available for consideration in the 
new biological opinions for the Columbia, Klamath and Sacramento Rivers 
is expanded from that available a few years ago. This improved 
scientific base relating river flow to salmon habitat availability is 
being employed in the nearly complete Klamath River biological opinion. 
The biological opinion on the Sacramento River water management will 
include new temperature modeling with finer time increments and will 
consider impacts of global climate change on future salmon populations.
    NMFS is using its authority under the ESA and the Magnuson-Stevens 
Act to protect salmon and the habitats on which they depend. While most 
often the ESA-listed and non-listed salmon enjoy the benefits of 
habitat improvements in a river, occasionally the listed salmon receive 
priority attention in water management decisions to the potential 
detriment of the non-listed salmon. The authority to protect essential 
fish habitat under the Magnuson-Stevens Act is limited to 
recommendations, while protections under ESA are binding.
    Finally, salmon depend on the health of a broad ecosystem including 
the ocean, rivers, and the watersheds that feed the rivers. While NMFS 
uses the authorities provided in the ESA and the Magnuson-Stevens Act 
to ensure that salmon are protected on a project-by-project basis, more 
comprehensive approaches are needed to reach the most effective and 
enduring solutions to the often competing needs of people and fish. 
Striking a balance between competing demands for water in overallocated 
western river basins is nearly impossible, even under the best of 
conditions. Although NMFS is doing its best to improve the scientific 
rigor underpinning its analyses, and has taken meaningful steps to add 
clarity to its internal review procedures, there are many variables 
outside of our control. Finding long-term solutions to these vexing 
problems will require a shared vision among parties with differing 
views (e.g., Klamath Restoration Agreement), continued investments in 
habitat restoration, long-term conservation planning (e.g., Bay-Delta 
Habitat Conservation Plan), and other conservation programs.
    Thank you again for this opportunity to present NMFS' views on 
these matters. I would be pleased to answer any questions.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. McInnis.
    Now, Mr. Rode, it is a pleasure to welcome you before the 
Subcommittee. I want to mention here your service to the 
California Department of Fish and Game for over 25 years as a 
fishery biologist and an environmental scientist in the Klamath 
Region could be commended. So you now are recognized to testify 
for five minutes.

   STATEMENT OF MICHAEL RODE, STAFF ENVIRONMENTAL SCIENTIST 
       [RETIRED], CALIFORNIA DEPARTMENT OF FISH AND GAME

    Mr. Rode. Thank you, Madam Chair and Subcommittee Members, 
for providing me the opportunity to testify today. My name is 
Michael Rode. Before retiring from the California Department of 
Fishing and Game, I was the lead scientist for review of Bureau 
of Reclamation, Klamath Project Operations on threatened 
Klamath River coho salmon.
    My intent is to concentrate on the NMFS 2002, 10-year, coho 
BO to show that it has adversely affected not only coho but 
also Chinook salmon. There are five points I would like to 
make.
    One: Ocean conditions are an important factor in salmon 
survival. The poor in-river environmental conditions have 
played a greater role on the Klamath.
    Two: The 2002 BO does not avoid jeopardy to threatened coho 
salmon.
    Three: EFH mandates have not been met for either coho or 
Chinook salmon.
    Four: The BO is not based on the best scientific data 
available.
    Five: The BO constitutes single-species management that 
does not consider Chinook salmon.
    Flows were predicted by the BO to be increased in three 
phases but not reach levels that would void jeopardy until 
2010. BOR assumed responsibility for only 57 percent of the 
flow targets yet acknowledged that they would not meet that 
goal until 2006.
    NMFS recognized that this approach may not avoid jeopardy 
but nonetheless approved the RPA based on wishful thinking that 
today does not substantially materialize.
    The major conclusion that NMFS reached was that coho salmon 
adults spawn and juveniles rear only in tributaries. Therefore, 
the RPA flows address only the adult and smolt migratory phases 
of coho, even though data show other life history phases occur 
in the mainstem Klamath. The RPA flows do not address the needs 
of Chinook salmon, which use the mainstem Klamath River 
extensively for all life history phases. This has resulted in 
poor single-species management.
    Because BOR failed to consult on EFH, NMFS relied on the BO 
in preparing its EFH conservation recommendations. NMFS 
determined that the proposed action will adversely affect 
spawning, rearing migratory EFH functions of Pacific salmon 
currently or previously managed under the Magnuson-Stevens Act. 
Primarily, NMFS thinks that the proposed project will result in 
a continued decline in EFH conditions in the Klamath River over 
time and thereby preclude rebuilding of the coho salmon 
population and reduce habitat required to support a sustainable 
Chinook fishery.
    However, NMFS concluded that implementation of the 
reasonable and prudent alternative would constitute the 
necessary conditions for conserving Klamath River Chinook and 
coho EFH. As we shall see, the RPA has not delivered the 
conservation of the EFH, as promised in the BO.
    A major flaw of the BO is that NMFS did not use the best 
available science in developing the RPA. The Hardy Final Phase 
II report was released in time for potentially use in 
developing the BO, but its flow recommendations were not 
incorporated. The report was reclassified as a draft and 
shelved by DOI after more than four and a half years.
    The Hardy Phase II final report was completed on July 31, 
2006, and is the definitive work on fish habitat flow 
relationships in the Klamath River.
    The 2007 NRC report endorsed the study by stating that the 
most important outcome of the EFS was that it indicated that 
increases in existing flows downstream from Iron Gate Dam 
probably would benefit the fish populations through improved 
physical habitat associated with more water and through reduced 
water temperatures.
    In September 2002, less than four months after the 2002 BO 
was released, at least 33,000 and as many as 70,000 adult 
salmonids died in the lower reaches of the Klamath River. The 
Fish and Game 2002 report stated that flow is the only 
controllable factor and tool available in the Klamath Basin to 
manage risks against future epizootics and major adult fish-
kills. Increased flows when adult salmon are entering the 
Klamath River, particularly during low-flow years, such as 
2002, can improve water temperatures, increase water volume, 
increase water velocities, improve fish passage, provide 
migration cues, decrease fish densities, and decrease pathogen 
transmission between fish.
    Given the magnitude of the fish kill and its close 
correlation to low flows, it would be expected that BOR would 
reinitiate consultation with NMFS on the Coho BO, but they did 
not.
    Another serious problem we have on the river are juvenile 
fish kills totaling hundreds of thousands of fish each summer, 
and NMFS is aware of that and the threat that this has on the 
Chinook and coho, but ESA consultation was not initiated.
    The Bureau released an interim 2008 Klamath Project 
Operations Plan on April 3, 2008, indicating it would operate 
the project consistent with the flow requirements of Phase III 
of the BO. However, BOR is also proposing something far less 
protective of coho salmon and, by implication, Chinook salmon.
    In an October 22, 2007, letter that accompanied the 2008 
BA, the BOR is proposing to operate the Klamath Project for the 
next 10 years under Dry Year that is 90 percent exceeding 
drought conditions, regardless of water year type. Furthermore, 
BOR is proposing to reduce the October-through-February flows 
at Iron Gate Dam to less than 1,000 CFS.
    Both of these standards were part of the 2002 BO Phase III 
RPA. Therefore, the BOR proposal falls far short of the 
requirements of the Armstrong decision and the recommendations 
of the Hardy Final Phase II Report. Unless NMFS rejects the BOR 
10-year KPOP Klamath River flow proposal and implements the 
Hardy Final Phase II Report flow recommendations, we can expect 
continued deterioration of the Klamath River anadromous 
salmonid fishery resource.
    I would recommend that NMFS should require, in the next 
Coho BO, that the Hardy Final Phase II flow recommendations be 
implemented on an interim basis until further studies can 
refine the model, as recommended by the 2007 NRC Report. These 
flows are a necessary starting point and the foundation for 
basin-wide, anadromous fish restoration that cannot otherwise 
be successful. Funding and implementation of the data 
improvements recommended by the 2007 NRC report are also 
needed.
    Thank you for taking my testimony. I will be glad to answer 
questions.
    [The prepared statement of Mr. Rode follows:]

   Statement of Michael Rode, Retired CDFG Senior Fishery Biologist/
                     Staff Environmental Scientist

    Chairwoman Bordallo and Subcommittee members, thank you for 
providing me the opportunity to testify before you today. My name is 
Michael Rode. I worked for the California Department of Fish and Game 
(CDFG) for twenty eight years as a fishery biologist and environmental 
scientist before retiring in December, 2005. During the last fifteen 
years of my employment with the CDFG, my job title was Klamath River 
Coordinator. In that capacity, I was the lead scientist for the CDFG 
review of U.S. Bureau of Reclamation (BOR) Klamath Project 
Environmental Impact Statements (EISs), annual Klamath Project 
Operations Plans (KPOPs) and Biological Assessments (BAs) as well as 
review of National Marine Fisheries Service (NMFS) Biological Opinions 
(BOs) on the effects of Klamath Project Operations on Southern Oregon/
Northern California Coasts (SONCC) threatened coho salmon.
    My intent today is to concentrate my testimony on the NMFS 2002 10-
year Coho BO (emphasizing the period 2002-2005) that currently governs 
flows in the Klamath River below Iron Gate Dam (IGD) (River Mile 190) 
and to show that the 2002 BO has adversely affected not only Klamath 
River coho, but also Chinook salmon. Although my analysis of the 2002 
BO occurred during DFG employment, my comments and conclusions today 
are entirely my own.
    There are five main points I would like to make today:
    1.  Although ocean conditions are an important factor in salmon 
survival, weak Klamath coho and Chinook salmon stocks have constrained 
west coast mixed stock ocean salmon fisheries for more than twenty 
years, even when other salmon stocks were robust and ocean conditions 
were favorable. This strongly indicates that unfavorable inriver 
environmental conditions have played a major role in suppressing 
Klamath coho and Chinook salmon numbers.
    2.  The 2002 Coho BO does not avoid jeopardy to the continued 
existence of threatened SONCC coho salmon, nor prevent the destruction 
or adverse modification of critically designated SONCC coho salmon 
habitat, as required under the Endangered Species Act (ESA).
    3.  The mandates of the Magnuson-Stevens Fishery Conservation and 
Management Act, as amended, have not been met by BOR or NMFS for coho 
or Chinook Essential Fish Habitat (EFH) in the Klamath River.
    4.  The 2002 Coho BO is not based on the best scientific data 
available.
    5.  Klamath River flow management below IGD is governed solely by 
the 2002 Coho BO, thus it constitutes single species management and 
does not consider the flow and habitat needs of other fish species in 
the Klamath River, including Chinook salmon
Background
    IGD, constructed in 1962 as the last downstream facility of 
PacifiCorp's Klamath Hydroelectric Project (FERC Project No. 2082), 
acts as the upper limit of anadromous fish distribution in the mainstem 
Klamath River. The Federal Energy Regulatory Commission (FERC) 
established minimum flows at IGD as part of the 1956 Klamath 
Hydroelectric Project licensing process, but those flows were only 
partially based on limited fishery information and were generally 
insufficient for protection of downstream fishery resources. 
Furthermore, even though PacifiCorp operates the six mainstem Klamath 
River dams within the Hydroelectric Project, downstream water 
availability during periods of water shortage has been decided by the 
BOR's Klamath Project per agreement with PacifiCorp that gives BOR 
control of releases at Link River Dam (the outlet to Upper Klamath 
Lake). Thus, the FERC minimum flows, which, to begin with, were 
insufficient for protection of most life stages of coho and Chinook 
salmon, were frequently and regularly not met at IGD during the1962-
1996 period, often during times of high vulnerability for coho and 
Chinook salmon early life history stages. During severe droughts such 
as occurred in 1992 and 1994, flows were frequently and suddenly 
drastically reduced below FERC minimums with little or no warning. 
Since 1996, PacifiCorp has operated its facilities in accordance with 
BOR's annual KPOP flow schedule. The general BOR management pattern 
during this period was to fully meet agricultural irrigation needs in 
the upper Klamath Basin under all conditions, frequently at the expense 
of maintaining and protecting downstream anadromous fish and their 
habitat.
    On June 6, 1997, SONCC coho salmon were federally listed as a 
threatened species. In 1999, coho critical habitat was identified for 
the Klamath River and the first coho BO was completed by NMFS on July 
12, 1999, providing ESA coverage for Klamath Project operations from 
April1, 1999 through March 31, 2000.
    The Hardy Phase I Final Flow Study Report, which was contracted by 
the Department of the Interior (DOI), was released on August 5, 1999. 
The report's main objective was to quickly ``provide interim minimum 
monthly flow recommendations for the main stem Klamath River below Iron 
Gate Dam downstream to the Scott River'' with the expectation that the 
flow recommendations would be used for ESA Section 7 consultations for 
year 2000 and subsequent operations of the BOR's Klamath Project. 
However, this report was summarily dismissed and criticized by upper 
Klamath Basin water users, the BOR and NMFS for not including site-
specific data suitable for analysis and evaluation using habitat based 
modeling, even though such data were unavailable at that time. A more 
important reason that the Phase I flow recommendations were not 
implemented may have been that they were considered to be too high by 
BOR and NMFS staff and would, thus, impact irrigation deliveries. Out 
of these criticisms was born the Hardy Phase II Flow Study, again 
contracted by DOI, and which was begun in 1999 and would result in the 
most comprehensive study ever conducted on the Klamath River to address 
anadromous salmonid habitat and flow requirements.
    A second Coho BO was released on April 6, 2001 amidst a severe 
drought in the upper Klamath Basin. A determination was made by the 
U.S. Fish and Wildlife Service (USFWS) and NMFS that inflows to Upper 
Klamath Lake (UKL) would not be sufficient to provide for Klamath 
Project agricultural deliveries as well as meet UKL elevation 
requirements for two species of endangered suckers and IGD flow 
releases for threatened coho salmon. Thus were born the 2001 water wars 
and the Klamath Basin became the poster child for what supposedly was 
wrong with the ESA.
The 2002 Coho Biological Opinion
    The 2002 Coho BO marked a radical departure from the two prior BOs. 
On May 31, 2002, for the first time, NMFS approved ESA coverage for 
Klamath Project operations for a 10-year period. The CDFG, and many 
others, stated in written comments that the period of coverage should 
be much shorter so that new scientific findings and other information 
could be incorporated into BO revisions on a regular basis. We were 
concerned that the BOR and NMFS would be reluctant to reinitiate ESA 
Section 7 consultation in mid-water year that would result in 
meaningful changes to the BO and, thus far, that has proven to be the 
case.
    Flow releases at IGD were predicted by the 2002 Coho BO to be 
increased in three phases but not reach levels that would avoid 
jeopardy until 2010, eight years after issuance of the BO. Furthermore, 
the BOR was taking responsibility for only 57% of the flow targets 
required in each phase of the plan, based on their conclusion that the 
Klamath Project only irrigated 57% of the total irrigable acreage in 
the upper Klamath Basin, even though the BOR controlled 100% of the 
water released from the upper basin. Even so, BOR acknowledged that 
they could not even meet their 57% portion of the RPA flows until 2006 
without building a 100,000-acre-feet water bank and taking other 
measures and actions (that were unspecified) to make up any difference 
that might occur. The other 43% of the RPA flows would be made up 
outside the boundaries of the Klamath Project by stepping up 
enforcement of water rights and water right laws, voluntary 
conservation measures and programs to increase flows in the 
tributaries, actions that were highly unlikely to occur by the year 
2010. Even more untenable was the fact that NMFS recognized that this 
approach ``may not avoid jeopardy over the 10-year period of proposed 
project operations and therefore would not constitute a viable RPA (p 
55, 2002 Coho BO). Never-the-less, NMFS approved the RPA based on what 
appeared to be wishful thinking, that to date has not substantially 
materialized.
    One of the major, but erroneous, conclusions that NMFS reached was 
that coho salmon adults spawn and juveniles rear only in tributaries 
and, thus, the mainstem Klamath River's only function, as far as coho 
are concerned (and the BO is concerned), is to provide upstream adult 
migration and downstream smolt migration. The 2002 Coho BO RPA flows 
attempt to address only the adult and smolt migratory life history 
phases of coho, even though monitoring and research data show some coho 
salmon do spawn (albeit limited due to the threatened status of coho) 
and significant numbers of coho fry rear in the mainstem. But more 
importantly, from a sustainable fisheries perspective, the RPA flows do 
not, and are not even intended to, protect or sustain Chinook salmon 
which use the mainstem Klamath River extensively for spawning, egg 
incubation, fry rearing and juvenile outmigration at times of the year 
that differ from coho salmon. The result of this regulatory (ESA) 
oversight is that we have poor single species management on the Klamath 
River for a complex of fish stocks that requires a more comprehensive 
and holistic approach for these fisheries to thrive into the future.
    The scientific community and down-river fishery managers were 
stunned by this radical change in approach to protection of threatened 
coho salmon and its implications on other fish species, especially 
since ongoing research was strongly suggesting that Klamath River 
anadromous fish required more water than was being provided, not less.
Essential Fish Habitat
    Essential Fish Habitat (EFH) was identified and described for 
Chinook and coho salmon in the Klamath River and its tributaries 
upstream to IGD by the Pacific Fisheries Management Council (PFMC) 
under Amendment 14 to the Pacific Coast Salmon Fishery Management Plan. 
Under provisions of the Magnuson-Stevens Fishery Conservation and 
Management Act, regulations require that Federal action agencies, in 
this case BOR, consult with NMFS and provide them with a written 
statement on the effects of their action on EFH. But, because BOR 
failed to do this, NMFS relied on the 2002 Coho BO in preparing its EFH 
conservation recommendations. Upon receipt of the recommendations, the 
action agency is then required to provide a detailed written response 
within thirty days describing how they intend to avoid, mitigate or 
offset the impacts of their activity on EFH. This course of events did 
not occur.
    Instead, NMFS determined that the proposed action:
        ``will adversely affect spawning, rearing and migratory EFH 
        functions of Pacific Salmon currently or previously managed 
        under the Magnuson-Stevens Act. Primarily NMFS thinks that the 
        proposed project would result in a continued decline in EFH 
        conditions in the Klamath River over time, and thereby preclude 
        rebuilding of the coho salmon population and reduce habitat 
        required to support a sustainable Chinook fishery.''
    However, NMFS concluded that implementation of the BO's RPA and the 
terms and conditions of the incidental take statement would constitute 
necessary conditions for conserving Klamath River Chinook and coho EFH. 
As we shall see, the RPA has not delivered the conservation of EFH as 
promised in the Coho BO.
    A major issue is that NMFS has not felt obligated to give any real 
consideration to protection, much less enhancement, of unlisted 
species, even though their public trust and tribal trust 
responsibilities would suggest that they should. For instance, the NMFS 
Southwest Region web site states the following:
        ``Flow releases at Iron Gate Dam are managed according to a 
        biological opinion (B0) issued by NOAA Fisheries Service. The 
        flow release operations under the BO are calculated to provide 
        the necessary protections for the Endangered Species Act (ESA) 
        listed coho salmon in the Klamath River and are not designed 
        specifically to protect Chinook salmon, which are not listed 
        under the ESA.'' (emphasis mine)
Best Available Science
    Another major flaw of the 2002 Coho BO, and perhaps the most 
important one, is that NMFS did not use the best available science for 
formulating the RPA. The Hardy Phase II Flow study was started shortly 
after completion of the Phase I Report on August 5, 1999. The Final 
Phase II Report was reviewed by the public, interested agencies and all 
cooperators and then released on November 21, 2001, in time for 
potential use in developing the 2002 Coho BO. Although a number of 
ancillary findings of the Phase II Report were incorporated in the BO, 
its flow recommendations were not. The Phase II Report was reclassified 
as a draft report by DOI and shelved. The reason given was that the 
Upper Klamath Lake (UKL) inflow numbers (which were originally provided 
by BOR) used by the Phase II hydraulic modeling were not what BOR 
considered to be the most accurate or current version. However, BOR 
could not release the newer inflow numbers for Dr. Hardy's use, for an 
indeterminate period of time, because that data were being used as part 
of the upper Klamath Basin Oregon water rights adjudication. My 
understanding at the time was that if these UKL inflow data were used 
for any other purpose than the water rights adjudication, BOR claimed 
that they would be vulnerable to a law suite. In addition, the Draft 
Hardy Phase II Final Report was suddenly plagued by the inability to 
secure promised contractual funding from DOI and other bureaucratic 
machinations that delayed its final release for over four years and 
eight months. During this whole episode, BOR claimed the flow 
recommendations were unusable because they were still in draft form.
    About the same time that the Draft Hardy Phase II Report was 
completed, the BOR started their own investigation to attempt to 
describe the natural outflows from Upper Klamath Lake and Keno prior to 
development of the upper Klamath Basin. Early drafts of their report, 
which were soundly criticized, erroneously suggested that natural flow 
accretions at these two points were significantly lower than formerly 
thought. A final report entitled Natural Flow of the Upper Klamath 
River was released in November, 2005. It was BOR's expectation that Dr. 
Hardy would use the impaired flows (flows after development) generated 
by this report as inputs for hydraulic modeling below IGD. Eventually, 
the unimpaired flows from the Natural Flows Report were used by Dr. 
Hardy instead and this may still be a point of contention.
    The National Academy of Sciences National Research Council (NRC) 
Report: Hydrology, Ecology, and Fishes of the Klamath River Basin (NRC, 
2007) concluded that:
        ``the Natural Flow Study did not adhere closely enough to 
        standard scientific and engineering practice in the areas of 
        calibration, testing, quality assurance, and quality control. 
        These activities are prerequisites for confidence in the model 
        products by users, including decision makers and other 
        modelers.'' (p 149)
    The Hardy Phase II Final Report was finally completed on July 31, 
2006 and to my knowledge its flow recommendations have still not been 
utilized to manage Klamath River flows at Iron Gate Dam. The sense one 
had during this turbulent period was that there were strong political 
forces at work at DOI that did not want to see the Phase II Report 
completed because its flow recommendations were perceived as a threat 
to irrigated agriculture.
    The Phase II Flow Study was more than a state-of-the-art habit/flow 
relationship modeling effort. It drew upon and considered most all of 
the significant research and monitoring that had been conducted on the 
Klamath River below Iron Gate Dam and much of what had been done in the 
upper Klamath Basin to date and in many cases incorporated that 
information into the Final Phase II Report. There were many Federal, 
State, Tribal and private cooperators who provided fish, habitat, water 
chemistry, hydrologic and other needed data and who included in future 
work plans research projects and monitoring that would produce needed 
new data that would make the Phase II Study a success.
    Another important aspect of the study was that Dr. Hardy created a 
Klamath Technical Review Team to assist in study design, data review 
and report review. The Technical Review Team included participation by 
the U.S. Fish and Wildlife Service, BOR, NOAA Fisheries, U.S. 
Geological Survey, Bureau of Indian Affairs; Yurok, Karuk, and Hoopa 
Tribes; Oregon Department of Fish and Wildlife, CDFG, and 
representatives of the Klamath Water Users Association.
    The Hardy Phase II Final Report was developed for the Department of 
the Interior:
        ``to recommend instream flows on a monthly basis for specific 
        reaches of the main stem Klamath River below Iron Gate Dam by 
        different water year types. These recommendations specify flow 
        regimes that will provide for the long-term protection, 
        enhancement, and recovery of the aquatic resources within the 
        main stem Klamath River in light of the Department of the 
        Interior's trust responsibility to protect tribal rights and 
        resources as well as other statutory responsibilities, such as 
        the Endangered Species Act. The recommendations are made in 
        consideration of all the anadromous species and life stages on 
        a seasonal basis and do not focus on specific target species or 
        life stages (i.e., coho)'' (Hardy, et al, 2006).
    The Hardy Phase II Final Report is the definitive and most 
comprehensive work on Klamath River anadromous salmonid habitat and 
flow requirements. In a December 4, 2002 PFMC letter (from Radtke to 
Norton and Evans) it was stated that DOI had spent $890,000 and other 
cooperators had contributed more than $1 Million to the flow study 
effort to date. No other similar flow studies have been conducted on 
the Klamath River and it is unlikely another similar effort could be 
justified.
    Figure 1. in the Supplemental Information compares the Hardy Phase 
II recommended flows versus the 2002 Coho BO Phase III flows and the 
actual flows that occurred during water year 2007, a below average 
water year type.
    The NRC Report had this to say about the Hardy Phase II Flow Study:
        ``The most important outcome of the IFS was that it indicated 
        that increases in existing flows downstream from Iron Gate Dam 
        probably would benefit fish populations through improved 
        physical habitat associated with more water and through reduced 
        water temperatures.'' (NRC, 2007, p 133) and ``The committee 
        concludes that the [Hardy Phase II] study enhances 
        understanding of the Klamath River basin ecosystem and the 
        flows required to sustain it. In their present form, if they 
        are adopted, the recommended flows resulting from the study 
        should be adopted on an interim basis pending the model 
        improvements outlined below to overcome its limitations, and a 
        more integrated assessment of the scientific needs of the basin 
        as a whole. The recommended flow regimes offer improvements 
        over existing monthly flows in that they include intra- and 
        interannual variations and appear likely to enhance Chinook 
        salmon growth and young-of-the-year production.'' (NRC, 2007, p 
        152).
    A CDFG (letter of May 24, 2002, Koch to Sabo) commented on the May 
16, 2002 draft of the Coho BO and advised BOR to implement the Hardy 
Phase II flow recommendations in the RPA, beginning in 2002 and that 
these flows would help meet EFH mandates. However, this recommendation 
was not implemented.
Fish-Kills
    In September, 2002, less than four months after the 2002 Coho BO 
was released, at least 33,000 and perhaps as many as 70,000 adult 
salmonids died in the lower reaches of the Klamath River. By far, most 
of these fish were adult Chinook salmon, although hundreds of coho and 
steelhead also succumbed. This event was unprecedented for the Klamath 
River and likely one of the largest salmon mortalities ever experienced 
on the west coast.
    The primary cause of the fish-kill was a disease epizootic from the 
ubiquitous pathogens ich and columnaris, but several factors combined 
that stressed the fish and allowed the epizootic to flourish. Warm 
water temperatures (which are normal for this time of year) combined 
with an above-average run of Chinook salmon and near-record low flows 
resulted in high fish densities and created ideal conditions for 
pathogens to infect salmon.
    The CDFG 2002 Fish Kill Report summarizes its conclusions as to 
what caused the fish kill and what can be done to avoid future kills by 
stating:
        ``Flow is the only controllable factor and tool available in 
        the Klamath Basin (Klamath and Trinity Rivers) to manage risks 
        against future epizootics and major adult fish-kills. Increased 
        flows when adult salmon are entering the Klamath River 
        (particularly during low-flow years such as 2002) can improve 
        water temperatures, increase water volume, increase water 
        velocities, improve fish passage, provide migration cues, 
        decrease fish densities and decrease pathogen transmission 
        between fish.
    That low flow was the primary causative factor leading to the 
September, 2002 fish-kill was supported by two other independent 
reports, one by the U.S. Fish and Wildlife Service, Arcata and the 
other by the Yurok Tribe.
    Given the magnitude of the fish-kill and its close correlation to 
low flows, it would be expected that BOR would reinitiate consultation 
with NMFS on the Coho BO, but they did not.
    As serious as the September, 2002 fish kill was, a more critical 
issue to the survival of Klamath River salmon is the repeated mortality 
of juvenile salmon during their spring and summer rearing and down 
stream migration phase. A number of juvenile fish kills, some numbering 
in the hundreds of thousands, have regularly occurred in recent years. 
Recent investigations have shown that two myxozoan parasites Ceratomyxa 
Shasta and Parvicapsula minibicornis have been a significant factor in 
mortality of juvenile Chinook salmon and can also cause disease in coho 
salmon. These parasites thrive in vegetated, silt-laden slow water 
environments and the primary remedy for their control is to increase 
the magnitude and variability of flow releases at IGD during these 
months. A 2005 report entitled:
        FY 2004 Investigational Report: Health Monitoring of Juvenile 
        Klamath River Chinook Salmon by the USFWS, California-Nevada 
        Fish Health Center concluded that ``Depending on the Juvenile 
        Klamath River salmon population size and smolt to adult ratio, 
        the effective number of adult salmon lost to C. Shasta as 
        juveniles could rival the 33,000+ adult salmon lost in the 2002 
        Klamath River fish die-off.''
    Since BOR and NMFS both knew about this threat to Chinook and coho 
salmon, why was ESA Sec. 7 consultation not reinitiated?
    Figure 2 of the Supplemental Information compares grilse (2-yr. 
old) Chinook salmon returns versus outmigration flows that these fish 
experienced as juveniles (0+) two years previously. The graph shows a 
strong positive correlation between flow and the number of grilse 
returning two years hence; the greater the flow, the higher the 
returns. This correlation held well for years 2001-2004, but then fell 
apart in 2005, suggesting deteriorated ocean conditions may have had a 
greater influence that year.
    A December 4, 2004 letter from the PFMC to DOI and Commerce (see 
Supplemental Information letter, Radke to Norton and Evans) summarized 
the concerns of the 2002 Coho BO and the fact that it was not 
protecting Klamath River fisheries. Another letter dated December 15, 
2005 from the PFMC to BOR (Hansen to Keyes) indicated the same concerns 
still had not been resolved.
Federal Court Decisions
    In the latest of a number of court decisions favoring increased 
protection for Klamath River coho salmon, the Ninth Circuit Court of 
Appeals, in March, 2007, reaffirmed a March, 2006 Federal District 
Court Order (Armstrong Decision) that found BOR and NMFS arbitrary and 
capricious and provided injunctive relief for the Plaintiffs by 
ordering BOR from making irrigation diversions at the Klamath Project 
unless flows in the Klamath River below Iron Gate Dam meet 100% of the 
flows called for in Phase III of the Klamath Irrigation Project 
Biological Opinion's Reasonable and Prudent Alternative (RPA) until a 
new biological opinion is completed pursuant to the Endangered Species 
Act (``ESA'')Sec. 7(a)(2) and reviewed by the court. In the process the 
courts invalidated Phases I and II of the BO. In essence the courts 
struck down the entire premise of the 2002 Coho BO that RPA Jeopardy 
avoidance flows can be phased in slowly over many years without 
jeopardizing coho salmon. From this one, can conclude that for the 
first five years, the 2002 Coho BO did not meet the non-jeopardy 
standards of the ESA and did not protect and conserve critical coho 
habitat or coho and Chinook EFH ( since EFH conservation was largely 
based on the 2002 Coho BO RPA).
2008 Klamath Project Operations and the 2008 Biological Assessment
    The BOR released an Interim 2008 Klamath Project Operations Plan on 
April 3, 2008, indicating it would operate the Project consistent with 
the flow requirements of Phase III of the NMFS 2002 Coho BO and the 
water year type determined by the April 1, 2008 UKL inflow forecast by 
the Natural Resource Conservation Service. The Interim KPOP would stay 
in effect until NMFS finishes the new Coho BO that may provide new 
direction.
    However, in contrast to the 2008 Interim KPOP, BOR is proposing 
something far less protective of coho salmon (and by implication, 
Chinook salmon). In an October 22, 2007 letter to NMFS that accompanied 
the Final BA on the proposed operations of the Klamath Project, from 
2008 to 2018, BOR stated the following:
        ``The proposed action in the enclosed BA includes maintaining a 
        minimum flow of 1300 cubic feet per second (cfs) in the Klamath 
        River below Iron Gate Dam for the months of October through 
        February, as contained in the Phase III Dry Year flows as 
        described in Table 9 of the 2002 National Marine Fisheries 
        Service (NMFS) Biological Opinion (BO). However, in an effort 
        to provide maximum flexibility to meet coho salmon needs, we 
        are evaluating the impacts of reducing the minimum flow 
        discharge during these months at Iron Gate Dam from the 
        proposed 1,300 cfs to 1,000 cfs during the months of October 
        through February, and reducing late summer flows. This 
        reduction in the minimum flow would provide the opportunity to 
        shift available water to the March through June period, which 
        corresponds with the out-migration of coho salmon smolt. We 
        will be providing further information regarding this 
        modification to the proposed action and its effects at a later 
        date and will work with your office and the U.S. Fish and 
        Wildlife Service, as well as other interested parties, to 
        further refine and analyze this potential flow regime during 
        the formal consultation process. (emphasis mine).
    The BOR is proposing to operate the Klamath Project for the next 
ten years under Dry Year (90% Exceedance) drought conditions, 
regardless of water year type. Furthermore, BOR is proposing to reduce 
the October through February flows at IGD to 1000 CFS, below any 
measure of adequacy, and to reduce late summer flows an unspecified 
amount below 1000 CFS. This is an attempt to meet needed rearing and 
outmigration flows by shifting needed water from one life history phase 
of coho salmon to another, while maintaining full irrigation deliveries 
for all water year types. The absolute minimum flow needed for adult 
coho and Chinook salmon mainstem migration and spawning is 1300 CFS at 
IGD. The minimum flow release at IGD needed during late summer to 
accommodate adult salmon entry into the lower Klamath River and to 
ameliorate high water temperature conditions, such as resulted in the 
2002 fish kill, is 1000 CFS. Both of these standards were part of the 
2002 BO Phase III RPA. Therefore, the BOR proposal falls far short of 
the requirements of the Armstrong Decision and the recommendations of 
the Hardy Final Phase II Report. Unless NMFS rejects the BOR ten year 
KPOP Klamath River flow proposal and implements the Hardy Final Phase 
II Report flow recommendations, we can expect continued deterioration 
of the Klamath River anadromous salmonid fishery resource.
Recommendation
    The NMFS should require in their next Coho BO that the Hardy Final 
Phase II flow recommendations be implemented on an interim basis until 
further studies can refine the model, as recommended by the 2007 NRC 
Report. These flows are a necessary starting point and foundation for 
basin-wide anadromous fish restoration that cannot otherwise be 
successful. Fund and implement the data improvements recommended by the 
2007 NRC Report.
    Thank you for taking my testimony. I will be glad to answer 
questions.
                                 ______
                                 
                        Supplemental Information
PACIFIC FISHERY MANAGEMENT COUNCIL
7700 NE Ambassador Place, Suite 200
CHAIRMAN Portland, Oregon 97220-1384 EXECUTIVE DIRECTOR
Hans Radtke Donald O. McIsaac
Telephone: 503-820-2280
Toll Free: 866-806-7204
Fax: 503-820-2299
www.pcouncil.org

December 4, 2002

Secretary Gale Norton
United States Department of the Interior
1849 C. Street N.W.
Washington, DC 20240

Secretary Donald Evans
United States Department of Commerce
14th and Constitution Avenue N.W.
Washington, D.C. 20230

Dear Secretary Norton and Secretary Evans:

    The Pacific Fishery Management Council (Council) has grave concerns 
regarding the adverse effects of reduced flows on the anadromous 
salmonid fish populations of the Klamath River.
    The May 31, 2002, National Marine Fisheries Service (NMFS) Final 
Biological Opinion (BO) on the effects of the U.S. Bureau of 
Reclamation (Bureau) Klamath Project on Southern Oregon/Northern 
California Coasts (SONCC) coho salmon contains a ``reasonable and 
prudent alternative'' (RPA) that prescribes flows are so low the 
Klamath River will be placed in a state of perpetual drought. Such low 
flows will jeopardize the continued existence of coho salmon in the 
Klamath Basin and will result in destruction or harm to its critical 
habitat. SONCC coho salmon are listed as threatened under the federal 
Endangered Species Act (ESA), and the California Fish and Game 
Commission recently determined that coho salmon from San Francisco Bay 
to the Oregon border are warranted for listing under the California 
Endangered Species Act.
    Furthermore, these extremely low flows will cause adverse impacts 
to the essential fish habitat (EFH) of coho and chinook salmon, which 
are managed by the Council. Therefore, the Council urges the Bureau and 
NMFS to immediately reinitiate Section 7 ESA consultation regarding 
Klamath Project effects on SONCC coho salmon and its critical habitat, 
and to reinitiate consultation on Klamath Project effects on coho and 
chinook salmon EFH.
Background
    The Council was created by the Magnuson-Stevens Fishery 
Conservation and Management Act in 1976 with the primary role of 
developing, monitoring, and revising management plans for fisheries 
conducted within federal waters off Washington, Oregon and California. 
Subsequent congressional amendments added emphasis to the Council's 
role in fish habitat protection.
    Amendments in 1996 directed NMFS and the regional fishery 
management councils to develop conservation recommendations for agency 
activities that may affect the EFH of the fish they manage. In 1999 the 
Council identified and described EFH for chinook and coho salmon under 
Amendment 14 to the Pacific Coast Salmon Fishery Management Plan.
    The operational plans of the Klamath Project have a direct 
influence on the EFH of coho and chinook salmon. Such habitat includes 
the water quantity and quality conditions necessary for successful 
migration and holding, spawning, egg-to-fry survival, fry rearing, 
smolt migration, and estuarine rearing of juvenile coho and chinook 
salmon.
    The BO covers Klamath Project operations for ten years (April 1, 
2002 - March 31, 2012). Thus, the Project's negative impacts to 
anadromous fish will be both short-term and long-term in nature. The BO 
forms the basis for both the USBR 2002 Project Annual Operations Plan 
and a Long-Term (ten-year) Project Operations Plan that propose to 
divert, store and deliver irrigation water. Flow releases at Iron Gate 
Dam are not part of the action, but would result from the action. It is 
notable that while full irrigation deliveries are planned for all water 
year types during the ten-year period, improvements to flows for fish 
will depend solely on small, incremental, and uncertain developments of 
new water. The Council believes this approach to water management works 
against the numerous and expensive federal, state, and tribal efforts 
aimed at restoring anadromous fish habitat in the Klamath Basin, 
including regulatory efforts to minimize fishery impacts on weak salmon 
stocks.
Constraining Nature of Klamath Stocks
    Since the early 1980s, the depleted status of Klamath River Basin 
natural coho and fall chinook stocks has constrained management of 
ocean fisheries from Northern Oregon to south of San Francisco. In 
order to protect these stocks, on many occasions the Council has had to 
reduce the harvest of all salmon in otherwise healthy mixed-stock 
fisheries where Klamath salmon occur. Despite complete closures to the 
harvest of Klamath Basin coho salmon in the Southern Oregon and 
California ocean commercial fisheries since 1993 and the ocean 
recreational fishery since 1994, the continued decline of this species 
resulted in the listing of SONCC coho salmon as threatened under the 
ESA in May, 1997.
Recent Fish Kill
    An unprecedented and disastrous fish kill in the lower Klamath 
River in September, 2002, resulted in a conservatively estimated loss 
of more than 30,000 returning adult salmon, according to the U.S. Fish 
and Wildlife Service. Most of the mortalities were fall chinook salmon, 
although hundreds of coho salmon and steelhead trout were also killed. 
In 2002, ocean and inriver fisheries have been managed to allow a fall 
chinook spawning escapement to the Klamath basin of 57,000 adults, of 
which 35,000 were expected to spawn in natural areas and the rest at 
Iron Gate and Trinity River hatcheries. The fish kill will likely make 
it impossible to meet the escapement goal this year, and the loss of 
the reproductive potential of these fish will result in diminished 
returns three, four and five years into the future. In addition, given 
the variable run timing for Klamath Basin substocks, escapement to some 
subbasins may be severely impacted. The 2002 inriver fisheries have 
already been severely affected as evidenced by the Yurok Tribe's early 
closure of their fall chinook salmon fishery.
    1.  USGS Gage 11530500 Klamath R NR Klamath CA.
    2.  BO, Table 5, p 33.
    3.  USGS Gage 11516530 Klamath R BL Iron Gate Dam CA.
    Although disease was the ultimate cause of death for most of the 
fish killed, low flows in the lower Klamath River acted as a barrier to 
upstream migration, resulting in large concentrations of stressed fish 
that quickly became infected. Average flows in the lower Klamath River 
during September, 2002 were the fifth lowest on record since 19511/. A 
significant portion of the September flows were released at Iron Gate 
Dam, which is controlled by the Bureau according to its annual Project 
operations plans. In 2001, 39.4% of the flow at the mouth of the 
Klamath River was due to Iron Gate Dam releases.
    The 2002 Project Annual Operations Plan flow prescriptions at Iron 
Gate Dam are based on the NMFS BO's RPA, which purportedly avoids 
jeopardy to SONCC coho salmon by providing flow releases at Iron Gate 
Dam that approximate the minimum monthly flows attained during the 
1990-1999 period of Project operations for each respective water year 
type (above average, average, dry and critically dry)2/. In 2001 (a 
critically dry water year type) the average flow at Iron Gate Dam was 
1,026 cubic feet per second (cfs)3/. In September 2002, (a dry water 
year type), an average flow of 762 cfs was released at Iron Gate Dam 
before a pulsed flow was initiated on September 28 (USGS unpublished 
records). The 2002 flows were 34.6 per cent less than in 2001. Even 
though the total fall chinook run was much greater in 2001 than 
projected for 2002, and 2001 was a drier water year type, an adult fish 
kill did not occur. Thus, there is a strong correlation between the low 
flows prescribed by the BO and implemented by the 2002 Project 
Operations Plan and the September 2002 fish kill. In the latter stages 
of the fish kill, additional water (the pulsed flow) was provided by 
PacifiCorp to the Klamath River for a two-week period from September 28 
to October 10. The water came from hydro generating facilities at Copco 
and Iron Gate reservoirs, and increased the flows at Iron Gate Dam by 
approximately 71% to 1300 cfs. This pulsed flow appeared to facilitate 
the dispersal and upstream migration of surviving salmon and steelhead 
trout. However, flows have since been reduced by the Bureau to 
approximately 879 cfs, and are expected to stay at that level through 
Spring 2003 unless precipitation and runoff in the basin improve 
significantly (Klamath Project 2002 Operations Plan, USGS Records).
    The fish kill will likely delay recovery of Klamath basin coho and 
chinook salmon to levels that can sustain full fishing, and will result 
in continued economic and social hardship to Klamath Basin and coastal 
communities that depend on commercial and recreational fishing. The 
depleted status of these fisheries will also cause severe economic, 
social, and cultural impacts on the Yurok, Hoopa Valley, and Karuk 
Tribes of the lower basin.
Need for Flow Management Advisory Committee
    The Council is very concerned that existing and proposed low flows 
between now and April 2003 will harm chinook and coho salmon spawning, 
egg incubation, fry emergence, and fry rearing in the Klamath River 
mainstem. Our concern is heightened by the fact these impacts will 
occur on populations that are already severely affected by the fish 
kill. To adequately address these concerns and to explore immediate 
solutions to the Klamath River flow shortage problem, the Council 
recommends the Bureau of Reclamation form a flow management advisory 
committee, consisting of tribal, state, and federal representatives 
having co-manager responsibilities for Klamath River fishery resources, 
as soon as possible. Convening such a group by mid-September in below 
average and dry years is a part of the BO RPA (BO, p 69), but the 
Bureau of Reclamation does not plan to implement this committee until 
2010.
Need for Timely Completion of a Supplemental Environmental Impact 
        Statement
    Flows in the lower Klamath River are also influenced by accretions 
from the Trinity River, the Klamath River's largest tributary. 
Implementation of a recent Department of the Interior Trinity River 
Record of Decision, which would have increased flows significantly, has 
been delayed by litigation. A court order has required the preparation 
of a Supplemental Environmental Impact Report (SEIS), the completion of 
which has been delayed by the Bureau of Reclamation. The Council urges 
the Bureau to complete the SEIS so that the higher Trinity River flows 
can be implemented in a timely fashion to benefit lower Klamath River 
flows.
Need for Reinitiation of Endangered Species Act Consultation
    The Council believes by revealing how Klamath Project operations 
may have adversely affected threatened SONCC coho salmon and its 
critical habitat, the fish kill represents important new information 
not considered in the BO. Further, the fish kill may have resulted in 
incidental take that exceeds the amount or extent of take anticipated 
by the BO's Incidental Take Statement. Both of these concerns warrant 
reinitiation of consultation under 50 CFR '402.16 (BO, p. 74).
    The Council strongly recommends the Bureau of Reclamation and NMFS 
reinitiate consultation as soon as possible regarding the effects of 
Klamath Project operations on SONCC coho salmon and its critical 
habitat. The Council is also deeply concerned the BO covers project 
operations for a ten-year period, between April 1, 2002 and March 31, 
2012. The Bureau is presently developing an Environmental Impact 
Statement (EIS) that would support preparation of a Long-Term Project 
Operations Plan that would incorporate the 2002 BO as its basis for 
forming Project operations.
    We believe that long-term commitments, once made, are difficult to 
change. Thus, it would be prudent for the Bureau and NMFS to reinitiate 
Section 7, ESA consultation prior to finalizing the EIS and Project 
Operations Plan. The Council would like to be kept fully informed and 
provided the opportunity to comment if the Bureau decides to continue 
with development of these plans.
Need for Essential Fish Habitat Consultation
    EFH conservation measures for coho and chinook salmon were included 
in the BO by NMFS, based on information in the BO and from other 
sources. However, the Council strongly feels the recommendations 
prepared by NMFS do not adequately protect either coho or chinook 
salmon habitat. This is demonstrated by the recent fish kill and by the 
minimal proposed flows, which do not reflect the best available science 
and information. In addition, the EFH regulations require the Bureau of 
Reclamation, as the action agency operating the Klamath Project, to 
consult on EFH, to provide NMFS with a written assessment of the 
effects of their action on EFH, and to provide a detailed written 
response to NMFS within 30 days upon receipt of NMFS EFH conservation 
measures, detailing how the Bureau intends to avoid, mitigate or offset 
the impacts of their activity (50 CFR ' 600.920). To our knowledge, the 
Bureau has not done any of this.
    The Council strongly urges the Bureau to initiate consultation on 
EFH, and to consider all life history phases of coho and chinook salmon 
that may be affected by Project impacts on mainstem Klamath River 
habitat.
Need for Finalization of Hardy Phase II Report
    The Council notes the Department of the Interior (DOI) commissioned 
Dr. Thomas Hardy of Utah State University to conduct a flow study in 
the Klamath River, starting in June, 1998. The purpose of this study 
was to develop monthly instream flow recommendations for the Klamath 
River from Iron Gate Dam to the estuary for five water year types.
    The recommended flows in the Hardy Phase II study were considered 
necessary to support salmon and steelhead populations in the Klamath 
River. They were also necessary to meet the DOI's trust responsibility 
to protect tribal rights and resources, and to meet other statutory 
responsibilities such as the Endangered Species Act and the Magnuson-
Stevens Act. A draft Final Phase II Report was released for public 
comment on November 21, 2001, but has not been finalized. NMFS used 
some of the information contained in this report to develop the BO, but 
decided not to use the Phase II flow recommendations.
    To date, the Hardy Phase II effort has cost DOI $890,000. In 
addition, cooperating agencies and colleagues have contributed more 
than $1 million in services and studies to the effort. The Council 
believes the flow recommendations in this study represent the best 
available science regarding Klamath River anadromous salmonid flow 
needs. We urge you incorporate this information in your ESA and EFH 
consultations. We also encourage the Bureau of Reclamation to finalize 
this report so that it can be reviewed and fully accepted by the 
scientific community and then used by Klamath River resource managers.
    The attached tables show the flows that the Bureau plans to operate 
under for the next ten years (from Table 5, BO p. 33) compared to the 
Hardy Phase II recommended flows at Iron Gate Dam (Table 51). The Hardy 
70% exceedence flows are for the same water year type as the Bureau's 
dry water year flows (70% exceedence means that during 70% of the years 
in the period of record, annual inflows to upper Klamath Lake have 
exceeded the value indicated for a dry water year type). The Hardy flow 
recommendations for a dry water year type are more than twice as great 
as the flows which the Bureau provided at Iron Gate Dam in 2002 and 
plans to provide in the future. Unimpaired monthly flows (not affected 
by the Klamath Project) are provided in Table 52. When compared to 
these flows, the Bureau's proposed flows for all water year types and 
all months would put the Klamath River in a perpetual state of drought.
    Summary of Council Recommendations
    To summarize, the Council recommends the following:
    1.  Reinitiate ESA, Section 7 consultation as soon as possible (DOI 
and DOC).
    2.  Reinitiate coho and chinook salmon EFH consultation (DOI and 
DOC).
    3.  Establish a flow management advisory committee as soon as 
possible (DOI).
    4.  Complete the SEIS and implement the Trinity River ROD in a 
timely fashion (DOI).
    5.  Provide the Council opportunity to comment on the EIS for the 
Long-Term Operations Plan (DOI).
    6.  Finalize the Hardy Phase II Report and incorporate its flow 
recommendations in future consultations and Klamath Project operations 
plans (DOI).
    The crisis flow management exhibited on the Klamath River during 
drier water years is not conducive to the maintenance, much less 
restoration, of anadromous salmonid populations. In addition, it 
contributes to economic uncertainty for communities that depend on 
sustainable fishery resources. The Council urges you to implement our 
recommendations in order to reverse this dire situation.

Sincerely,

Hans Radtke, Ph.D.
Chairman

Enclosures

cc: U.S. Senator Dianne Feinstein
   U.S. Senator Barbara Boxer
   U.S. Senator Ron Wyden
   U.S. Senator Gordon Smith
   U.S. Rep. Mike Thompson
   U.S. Rep. Greg Walden
   California Governor Gray Davis
   Oregon Governor John Kitzhaber
   California Secretary for Resources Mary Nichols
   CDFG Director Robert Hight
   ODFW Director Lindsey Ball
   U.S. Fish and Wildlife Service Director Steve Williams
   Assistant Administrator for NMFS William Hogarth

From NMFS May 31, 2002 Biological Opinion
From Hardy Draft Final Phase II Flow Study Report
From Hardy Draft Final Phase II Flow Study Report


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
PACIFIC FISHERY MANAGEMENT COUNCIL
7700 NE Ambassador Place, Suite 200
CHAIRMAN Portland, Oregon 97220-1384 EXECUTIVE DIRECTOR
Donald K. Hansen Donald O. McIsaac
Telephone: 503-820-2280
Toll Free: 866-806-7204
Fax: 503-820-2299
www.pcouncil.org

December 15, 2005

Mr. John W. Keyes III, Commissioner
Bureau of Reclamation
1849 C Street NW
Washington, DC 20240-0001

Dear Mr. Keyes:

    The Pacific Fishery Management Council (Council) appreciates the 
Bureau of Reclamation's (BOR) response dated July 7, 2005 (Ref. W-6332, 
PRJ-13.00), regarding management of water flows on the Klamath River. 
However, your response did not adequately address the issues posed by 
the Council. Fishing communities feel a strong sense of urgency 
regarding the resolution of water quality and quantity issues within 
the Klamath River system. Resolution of these issues is critical to the 
immediate needs of in-river and ocean fisheries, and to the health of 
the Klamath ecosystem. Management of both the quality and quantity of 
water in the Klamath River and its tributaries is critical for all 
phases of freshwater salmon life history. Therefore, the Council 
recommends that the BOR:
    <bullet>  Reinitiate consultation with National Marine Fisheries 
Service (NMFS) as soon as possible regarding the effects of water 
project operations on chinook and coho salmon essential fish habitat 
(EFH), and that the analysis and flow recommendations include a 
credible biological basis, such as contained in the draft Hardy Phase 
II report referenced in our previous letter.
    <bullet>  Implement draft Hardy Phase II recommendations as an 
interim measure while consultations are ongoing.
    <bullet>  Revise water bank accounting to reflect actual savings of 
water in those areas critical for salmon survival.
    <bullet>  Support studies of juvenile survival and health and 
provide adequate funding for the Klamath monitoring programs.
    <bullet>  Develop credible long-term solutions to water management 
problems within the Klamath Basin.
    The Council is concerned that the biological opinion (BO) discussed 
in your letter, which is used to guide flow releases from Iron Gate 
Dam, is not based on a biological analysis that addresses the needs of 
coho salmon. In addition, the impacts to the essential fish habitat 
(EFH) of coho and chinook salmon were not sufficiently analyzed.
    We appreciate the Bureau of Reclamation's (BOR) action to provide 
water bank assets for additional water for river flow, but believe that 
the additional quantity of water provided may not be adequate to meet 
salmon recovery and productivity goals in the basin. Also, because of 
water bank accounting methods, it is difficult to determine whether 
water bank allocations result in meaningful changes to water flow. 
Actions cited in your letter, such as groundwater pumping, may be 
beneficial in the short term, but it is unclear if these can be 
sustained over the long term to provide meaningful benefit to the 
salmon populations in the basin.
    A continuing disease problem (C. Shasta) in the main-stem Klamath 
River significantly affects juvenile salmon survival and productivity. 
The emergence of this disease issue supports the need for a renewed 
consultation with NMFS. Studies should be established and adequately 
funded to determine the rate of in-river juvenile mortality associated 
with these pathogens and to identify appropriate mitigating actions.
    The Council remains committed to working with you to resolve these 
issues as we execute our responsibilities under the Magnuson-Stevens 
Fishery Conservation and Management Act.
    We invite the BOR to meet directly with us to affect a timely 
resolution of these issues as the health of salmon stocks remain in 
question and the lives of the fishing communities dependent on these 
stocks are severely impacted.

Sincerely,

Donald K. Hansen
Chairman

cc: Honorable Barbara Boxer, United States Senate
   Honorable Dianne Feinstein, United States Senate
   Honorable Gordon Smith, United States Senate
   Honorable Ron Wyden, United States Senate
   Honorable Peter DeFazio, House of Representatives
   Honorable Mike Thompson, House of Representatives
   Honorable Greg Walden House of Representatives
   Honorable Richard Pombo, House of Representatives
   Honorable Ted Kulongoski, Governor of Oregon
   Honorable Arnold Schwarzenegger, Governor of California
   Mr . Mike Chrisman, Secretary for Resources, California Resources 
Agency
   Dr . William T. Hogarth, Assistant Administrator for Fisheries, 
National Marine Fisheries Service
   Mr . Ryan Broddrick, Director, Department of Fish and Game
   Mr . Rod McInnis, Regional Administrator, National Marine Fisheries 
Service
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Rode, for your insights on the 
need for better biological opinions.
    Now, Dr. Williams, I would like to commend you for your 
many years of work in various Federal agencies, from the Fish 
and Wildlife Service as an endangered species team leader to a 
senior aquatic ecologist at the Bureau of Land Management to a 
forest supervisor in the Forest Service. Your hundreds of 
publications are impressive, and I am looking forward to 
gaining a better understanding of the complexity of salmon 
management from you, so please begin.

              STATEMENT OF JACK WILLIAMS, Ph.D., 
               SENIOR SCIENTIST, TROUT UNLIMITED

    Mr. Williams. Thank you, Madam Chairwoman and Members of 
the Committee. I appreciate the opportunity to appear before 
you today to provide my view, as senior scientist for Trout 
Unlimited.
    I think we all share a strong concern for the health of 
salmon populations, which form an integral part of the 
ecological, social, and economic fabrics of California and the 
Pacific Northwest.
    Trout Unlimited is the nation's largest cold water 
fisheries conservation group dedicated to the protection and 
restoration of our nation's trout and salmon resources and the 
watersheds that sustain them.
    My name is Jack Williams, and I serve as senior scientist 
for that organization. In my testimony today, I would like to 
make four primary points.
    First, the long-term survival of salmon and steelhead 
depends upon the conservation of the genetic and ecological 
diversity of remaining stocks and the habitats that support 
them.
    Second, climate change will pose significant new challenges 
to conservation of salmon and steelhead in both freshwater and 
marine environments. But our only near-term opportunities to 
improve habitat conditions occur in fresh waters.
    Third, we cannot solve the problems of salmon through 
reliance on artificial measures that not only fail to address 
the root causes of declines but create a new suite of problems 
in and of themselves. We need science-based solutions.
    And, finally, we need bold actions and commitment to save 
our salmon. We must think bigger and involve more partners in 
solutions than we have before.
    Now I would like to return to the topic of diversity. 
Diversity is the key to long-term survival in any species. The 
only way we can maintain the fitness and evolutionary potential 
of salmon is to protect the individual stocks and habitats that 
support those life histories.
    A very comprehensive review of stock status was published 
just last year, in 2007, and that review found that 406 
populations of salmon are already extinct within this region. 
That is 29 percent of all salmon populations. That is a lot of 
diversity that we have lost already.
    Now, it is tempting to believe that improved technologies, 
in the form of new hatcheries or transportation devices or 
other such artificial means, will enable salmon to survive and 
prosper into the future. Unfortunately, this is not the case. 
There are no silver bullets.
    Regarding climate change, salmon are especially vulnerable 
to climate change and global warming because they are dependent 
on an abundance of clear, cold water. Unfortunately, for 
salmon, the rate of environmental change is growing rapidly. 
The impacts of climate change already are evident in freshwater 
and ocean environments. Over the next two to three decades, we 
have little opportunity to change ocean conditions. In fact, 
they are likely to get worse.
    If both freshwater and ocean habitats continually decline, 
we have created an extinction vortex from which salmon cannot 
escape. With ocean conditions beyond our control, at least in 
the near term, we still have the ability to change and better 
manage freshwater habitats.
    OK. So what are we to do about all of this? To help salmon 
survive the effects of rapid climate change, there needs to be 
an active and integrated effort to protect the best remaining 
populations and their habitats to reconnect headwater streams 
with mainstem rivers by removing in-stream barriers and 
providing normal flow regimes and to restore vital mainstem 
river and repairing habitats. For these efforts to be 
sustainable, they must be founded in the best available 
science.
    Specifically, on the Snake River, it has been a 
longstanding consensus within the scientific community to 
breach the lower four Snake River dams as the single most 
important step needed to restore Snake River salmon 
populations.
    In 1999, I attended a meeting of the American Fisheries 
Society, the Idaho Chapter, in which more than 90 percent of 
those present found that dam breaching was the single most 
important action needed to save Snake River salmon and 
steelhead.
    A year later, in 2000, 100 percent of the scientists in 
attendance of the Oregon Chapter of the American Fisheries 
Society meeting felt the same way.
    In summary, however, something more is needed. It starts 
with employing sound science for management decisions, but it 
goes farther. Bold action is needed. Building broad alliances 
and unique coalitions of unlikely partners for salmon and 
steelhead restoration must become the norm.
    We must focus on supporting remaining healthy Pacific 
salmon ecosystems, such as through the North American Salmon 
Stronghold Partnership. We must think bigger about salmon and 
steelhead restoration and protection than we have before, like 
on the Klamath River, where a collection of disparate voices 
and interests are proposing a brighter future based on 
restoration. And we must pursue landscape-changing events like 
removal of the lower four Snake River dams.
    Today's salmon crisis is a shared crisis. Now we need 
shared solutions.
    On behalf of Trout Unlimited, I would like to thank you for 
the invitation to submit testimony and participate in today's 
hearings. I would be glad to answer any questions.
    [The prepared statement of Mr. Williams follows:]

         Statement of Dr. Jack E. Williams, Senior Scientist, 
                            Trout Unlimited

    Madam Chairman, members of the Committee, I appreciate the 
opportunity to appear before you today to provide my view as Senior 
Scientist for Trout Unlimited on ``A Perfect Storm: How Faulty Science, 
River Mismanagement, and Ocean Conditions are Impacting West Coast 
Salmon Fisheries.'' I think we all share a strong concern for the 
health of salmon populations, which form an integral part of the 
ecological, social, and economic fabric of California and the Pacific 
Northwest.
    Trout Unlimited (TU) is the nation's largest coldwater fisheries 
conservation group dedicated to the protection and restoration of our 
nation's trout and salmon resources and the watersheds that sustain 
them. TU has more than 150,000 members in 400 chapters across the 
United States. Our members generally are trout and salmon anglers who 
give back to the waters they love by contributing substantial amounts 
of their personal time and resources to fisheries habitat protection 
and restoration. The average TU chapter donates 1,000 hours of 
volunteer time on an annual basis.
    My name is Jack Williams and I serve as Senior Scientist for Trout 
Unlimited. Prior to working for TU, I was privileged to serve in a 
number of research and management positions in the federal government, 
including Endangered Species Specialist for the U.S. Fish and Wildlife 
Service, National Fisheries Program Manager for the Bureau of Land 
Management (BLM), Science Advisor to the Director of the BLM, Deputy 
Forest Supervisor on the Boise National Forest, and Forest Supervisor 
on the Rogue River and Siskiyou national forests. I have also served as 
a Professor at Southern Oregon University and retain the title of 
Adjunct Professor at that institution.
    In my testimony today, I would like to briefly describe the current 
status of Pacific salmon and what will be required to maintain salmon 
and steelhead populations in light of existing stressors, which will be 
compounded by impacts from a rapidly changing climate. In particular, I 
would like to make four primary points, which I will highlight now 
before proceeding with my full testimony.
    First, the long-term survival of salmon and steelhead depends upon 
the conservation of the genetic and ecological diversity of remaining 
stocks and the habitats that support them.
    Second, climate change will pose significant new challenges to 
conservation of salmon and steelhead in both freshwater and marine 
environments. But, our only near-term opportunities to improve habitat 
conditions occur in freshwater habitats, where larger and lower-
elevation rivers have been the most degraded and therefore need the 
most attention.
    Third, we cannot solve the problems of salmon through reliance on 
artificial measures that not only fail to address the root causes of 
declines but create a new suite of problems in and of themselves. We 
need science-based and landscape-scale changes, particularly in the 
mainstem river reaches.
    And finally, we need bold action and commitment to save our salmon. 
We must think bigger and involve more partners in solutions than we 
have before, including novel approaches towards protecting the best 
remaining ecosystems and restoring others to better health.
The Survival of Salmon
    Salmon are remarkable animals. During their long migrations between 
spawning habitats in headwater streams and feeding grounds in the 
ocean, they encounter many natural and human-induced sources of 
mortality. The good news is that salmon are wonderfully resilient, 
having survived environmental change for thousands of years. If given a 
decent chance, they can persist even in the face of growing human 
populations and rapid climate change.
    Salmon are able to adapt to change because of their high 
reproductive rates, remarkable life history, and the great diversity of 
local populations, or stocks, that provide the building blocks for 
local adaptation. In salmon, adaptation to local watersheds builds into 
a stock a set of unique characteristics that increase fitness in the 
local environment.
    Diversity is the key to long-term survival in any species. The only 
way we can maintain the fitness and evolutionary potential of salmon is 
to protect the individual stocks and the habitats that support their 
life histories.
    In 1991, the scientific community was put on notice that a 
substantial amount of this diversity was eroding on a coast-wide basis. 
That year, the American Fisheries Society published the first coast-
wide review of stocks at risk of Pacific salmon, steelhead, and sea-run 
cutthroat (Nehlsen et al. 1991). Of 214 stocks examined in California, 
Idaho, Oregon, and Washington, 102 were considered to be at a high risk 
of extinction and another 58 at moderate risk of extinction. Perhaps 
more alarming was a list of 106 additional stocks from this same four-
state region that were considered to be extinct.
    A subsequent review of 192 populations of salmon, steelhead, and 
sea-run cutthroat trout within the Columbia River basin yielded the 
following results: 35% of populations were extinct, 19% at high risk of 
extinction, 7% at moderate risk, 13% of special concern, and only 26% 
were secure (Williams et al. 1992). As more and more of these 
populations become endangered or extinct, the capacity of future 
generations of salmon and steelhead to adapt to changing environmental 
conditions weakens.
    A more comprehensive review published in 2007 has updated our 
knowledge of salmon status. Historically, the six species of Pacific 
salmon comprised approximately 1,400 Pacific populations that occurred 
in the Columbia River basin and coastal drainages in Washington, 
Oregon, and California, and according to the 2007 review, an estimated 
29% or 406 of these have become extinct since Euro-American contact 
(Gustafson et al. 2007). Relative to geography, there is a greater 
proportion of extinctions in those populations that spawn the farthest 
south, that is in California, and those populations that spawn farthest 
inland, such as the Snake River populations. Relative to species, coho 
salmon, stream-maturing types of Chinook salmon, and sockeye salmon 
have been especially hard hit.
    In salmon, there are three major lines of diversity that are 
critical to persistence: genetic, ecological, and life history. 
Scientists from the National Marine Fisheries Service, who authored the 
2007 report (Gustafson et al. 2007), estimate losses of 33% of the 
ecological diversity, 15% of the life history diversity, and 29% of the 
genetic diversity within Pacific salmon. Many of the remaining 
populations, which are lumped into Evolutionarily Significant Units for 
purposes of administration by the Endangered Species Act, are listed as 
threatened or endangered. These facts demonstrate the substantial 
threat for salmon in this region.
    It is tempting to believe that improved technologies in the form of 
new hatcheries, or transportation devices, or other such artificial 
means, will enable salmon to survive and prosper into the future. 
Unfortunately this is not the case. Hatchery programs for salmon have 
not proven sustainable and often cause more harm than good because of 
artificial selection of detrimental genes, introduction of diseases, 
and numerous other problems (Hilborn 1992; Lichatowich 1999). In fact, 
in the long term, hatcheries depend on wild fish for brood stock. As 
Dr. Gary Meffe (1992) aptly described it, ``A management strategy that 
has as a centerpiece artificial propagation and restocking of a species 
that has declined as a result of environmental degradation and over 
exploitation, without correcting the causes for decline, is not facing 
biological reality.''
    There are no silver bullets, no slick new transportation programs 
that will solve our problems. New technologies can help us, but for 
salmon to survive in the future they must encounter at least minimum 
acceptable habitat conditions:
    <bullet>  in spawning streams for successful spawning, egg 
incubation and rearing of young
    <bullet>  in mainstem river habitats for successful migration 
between headwaters and the ocean; and
    <bullet>  in estuaries and oceans to allow for growth and return to 
natal streams.
    Long-term survival of salmon and steelhead depends upon maintenance 
of genetic and ecological diversity of existing stocks and the habitats 
that support them.
Rapid Climate Change in Freshwater and Ocean Environments
    Salmon are especially vulnerable to climate change and global 
warming because they are dependent on an abundance of clear, cold 
water. As coldwater habitats warm, rising temperatures will negatively 
impact a variety of salmon life history phases--from eggs to juveniles 
and adults. For those populations already listed as endangered or 
threatened, climate change is likely to push them further to the brink 
of extinction. Impacts of climate change are an additive stressor to 
systems already degraded by too many roads, too many dams, and too much 
water diversion.
    For Pacific salmon and steelhead, climate change will result in 
warmer waters, reduced snowpacks, earlier spring runoff, reduced summer 
flows, more floods, more drought, and more wildfires in their 
watersheds (Poff et al. 2002; Battin et al. 2007). Changes in wind 
patterns will in turn impact oceanic currents and offshore conditions. 
In recent years, for example, a ``dead zone'' nearly devoid of 
dissolved oxygen has appeared off the Oregon coast. This is not a dead 
zone resulting from some form of pollution but rather from changes in 
ocean currents that are consistent with predictions of climate change 
(Oregon State University 2007 Press Release). In 2006 until winds 
changed and conditions improved, the dead zone comprised an area 
equivalent to the state of Rhode Island.
    For salmon populations to persist, they must sustain suitable 
spawning numbers and survival of progeny in the face of changing ocean 
and freshwater conditions. Historically, populations have survived and 
even thrived during times of environmental change. In the past, ocean 
productivity has oscillated in response to coastal currents resulting 
in substantial interannual variation in survival of out-migrating 
salmon. During some years conditions would be poor for migrating salmon 
but in other years conditions would improve. Poor ocean survival can be 
offset to a lesser or greater degree by increased survival in the 
freshwater system. The ability of the freshwater system to offset poor 
ocean survival depends on the quality of the freshwater environment and 
the severity of the oceanic environment.
    Unfortunately for salmon, the rate of environmental change is 
growing rapidly. The impacts of climate change already are evident in 
freshwater and ocean environments. Over the next two to three decades, 
we have little opportunity to change ocean conditions. In fact, they 
are likely to get worse. If both freshwater and ocean habitats 
continually decline, we have created an extinction vortex from which 
salmon cannot escape. If ocean conditions are beyond our control, at 
least in the near term, we still have the ability to change freshwater 
conditions. Simply stated, we must address the fundamental stressors in 
freshwater environments including mainstem river and lower-elevation 
valley bottom habitats.
    In an article published in the Proceedings of the National Academy 
of Sciences (Battin et al. 2007), scientists demonstrated that the 
impacts of climate change in the freshwater environment could be offset 
by restoration of lower-elevation river corridors. That is, the larger, 
valley river systems that have been most impacted by human activities 
also are the areas where we have the most to gain from restoration 
efforts. If restoration efforts are accelerated, they predicted that 
the impacts of climate change, at least in the freshwater portion of 
the life cycle, could be completely mitigated through ecologically 
sound restorative programs.
Sound Science Must Drive Decisions
    Proper administration of the Endangered Species Act is dependent 
upon proper application of the best available scientific information. 
The drafters of the ESA recognized this need, for example, by requiring 
that listing decisions be made ``solely on the basis of the best 
scientific and commercial data available...'' (Sec 4(b)(1)(a)). 
Endangered and threatened salmon are among the more scientifically and 
socially complex of species managed pursuant to the ESA because of 
their long migrations across multiple jurisdictions and threats, 
multiple and overlapping generations, and stock structure.
    Despite the widely recognized importance of science to watershed 
and salmon management, and the wealth of well-respected scientists 
employed by agencies charged with implementing the ESA, federal courts 
have determined that NOAA has failed in its responsibility to protect 
salmon from jeopardy in the Sacramento, Snake, and Klamath river 
systems. Most recently on May 5, 2008, NOAA's National Marine Fisheries 
Service issued their court-remanded, final biological opinion to 
federal agencies responsible for management of the Federal Columbia 
River Power System. Despite in-river mortality estimates for juveniles 
migrating downstream through the Snake/Columbia hydropower system as 
high as 91.8% for listed Snake River sockeye salmon and 92.5% for 
listed Snake River steelhead, the National Marine Fisheries Service 
appears satisfied with circumventing the dams by moving fish downstream 
via barges and offsetting mortality by ``improvements'' to headwater 
habitats, many of which already are in excellent condition and are 
located in wilderness or inventoried roadless areas of National Forests 
(National Marine Fisheries Service 2008).
    In 1990, Forest Service scientist Russ Thurow who has studied 
salmon and steelhead in central Idaho for more than 20 years, provided 
the following testimony before the U.S. Senate Committee on the flawed 
logic behind our failure to address the ``dam problem'' and our 
insistence on focusing instead on headwater habitat improvements. 
Thurow said:
    ``If freshwater habitats were the primary cause for declines, then 
stocks in high quality habitats should be faring substantially better 
than stocks in degraded habitats. The preponderance of evidence 
demonstrates this is not the case. Snake River Chinook salmon redd 
counts in both wilderness and degraded habitats have similarly declined 
since the mid-1970s.''
    Unfortunately, agency managers responsible for implementing the 
Endangered Species Act seem to have learned little since that time and 
have repeatedly ignored the biological reality of the problems imposed 
by the lower Snake River dams on migrating salmon and steelhead despite 
considerable scientific evidence to the contrary. At the 1999 meeting 
of the Idaho Chapter of the American Fisheries Society, more than 90% 
of the fish biologists and aquatic ecologists in attendance supported 
dam breaching as the single most effective management strategy for 
long-term survival of Snake River salmon and steelhead. A similar 
measure was unanimously adopted by the Oregon Chapter of the American 
Fisheries Society at their 2000 annual meeting (Dombeck et al. 2003).
Restoring Resistance and Resilience to Disturbances
    Existing stressors of salmon are often classified by the shorthand 
nomenclature of the ``4-H's'': Habitat, Harvest, Hatcheries, and 
Hydropower. Each factor--habitat degradation, over harvest, hatchery 
production, and dams and diversions--has resulted in sufficient 
population and habitat declines to cause many remaining populations to 
be listed as threatened or endangered species. The combination of 
rapidly changing climate with existing stress of the 4-H's is likely to 
cause significant further erosion of diversity in salmon and steelhead 
unless proactive habitat protection and restoration measures are 
implemented at a watershed scale.
    To help salmon survive the effects of rapid climate change, there 
needs to be an active and integrated effort to protect the best 
remaining populations and their habitats, to reconnect headwater 
streams with mainstem rivers by removing instream barriers and 
providing normal flow regimes, and to restore vital mainstem river and 
riparian habitats. For these efforts to be sustainable they must be 
founded in the best available science and implemented at local, state 
and regional levels.
    The following figure illustrates a paired watershed where the 
protect-reconnect-restore strategy has been implemented to produce 
conditions shown on the right half of the graphic that strengthen 
resilience to disturbance and reduce existing stressors.
    The Protect-Reconnect-Restore approach provides a general model 
based on accepted principles of conservation biology and restoration 
ecology. This approach should be tailored to the specific needs of each 
endangered or threatened population. Successful restoration must treat 
the root causes of the decline, not just the symptoms, and be 
implemented at the scale of entire watersheds (Williams et al. 1997). 
Monitoring and adaptive management is the final necessary strategy that 
will ensure that we continue to learn and adapt to the uncertainties of 
a growing human population and changing climate.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    In the Sacramento, Snake, and Klamath river systems, the best 
remaining habitats occur at higher elevation public lands, where 
protection is the most logical strategy although some lands certainly 
would benefit from restoration efforts as well. The most degraded 
fishery habitats occur along the valley bottom and mainstem river 
corridors where land has been converted from wildlands to agriculture, 
hydropower, industry and urban development. While these mainstem 
corridors are the most altered, they also provide the most important 
opportunities for reconnection and restoration. In fact, it is because 
they are the most altered that the fundamental causes of their declines 
must be adequately addressed.
    We cannot solve the problems of salmon through reliance on 
artificial measures that not only fail to address the root causes of 
declines but create a new suite of problems in and of themselves. That 
is what has happened on the Columbia and Snake systems with our 
reliance on barging to move juvenile salmon around dams. The long-
standing consensus within the scientific community has been to breach 
the lower four Snake River dams as the single most important step 
needed to restore Snake and Salmon River salmon and steelhead 
populations. A similar situation exists in the Klamath River where 
passage for anadromous fishes must be provided around dams on the river 
and access to historical habitat is necessary to restore Klamath River 
salmon and steelhead. Many dams provide vital human services and must 
be retained. But dams are not designed to be permanent structures. As 
they age and deteriorate, the economic and ecological costs and 
benefits must be carefully weighed to determine their most appropriate 
future. In the instances of the lower Snake River and Klamath, dam 
breaching or removal is likely the only solution that provides needed 
ecological benefits.
    In summary, however, something more is needed to address the 
current West Coast salmon fishery failure than a focus on just one 
variable, or one of the 4-Hs. This something more must go beyond the 
status quo. It starts with employing sound science for management 
decisions, but it goes further.
    Bold action is needed. Building broad alliances and unique 
coalitions of unlikely partners for salmon and steelhead restoration 
must become the norm. We must focus on supporting remaining healthy 
Pacific salmon ecosystems, such as through the North American Salmon 
Stronghold Partnership. We must think bigger about salmon and steelhead 
restoration and protection than we ever have before, like on the 
Klamath River where a collection of disparate voices and interests are 
proposing a brighter future based on restoration. And, we must pursue 
landscape changing events like removal of the lower four Snake River 
dams. But we must also push for real and lasting solutions with 
individuals and local communities. Such solutions will prove to be the 
most durable and effective in the long run for ensuring place-based 
models to protect, reconnect, and restore our western rivers and 
watersheds, and in the process, recover our remarkable salmon and 
steelhead. Today's salmon crisis is a shared crisis. Now we need shared 
solutions.
    On behalf of Trout Unlimited, I would like to thank you for the 
invitation to submit testimony and participate in today's hearing, and 
for your time in consideration of these issues.
Literature Cited
Battin, J., W.W. Wiley, M.H. Ruckelhaus, R.N. Palmer, E. Korb, K.K. 
        Bartz, and H. Imaki. 2007. Projected impacts of climate change 
        on salmon habitat restoration. Proceedings of the National 
        Academy of Sciences 104:6720-6725.
Dombeck, M.P., C.A. Wood, and J.E. Williams. 2003. From conquest to 
        conservation: our public lands legacy. Island Press, 
        Washington, D.C.
Gustafson, R.G., R.S. Waples, J.M. Myers, L.A. Weitkamp, G.J. Bryant, 
        O.W. Johnson, and J.J. Hard. 2007. Pacific salmon extinctions: 
        quantifying lost and remaining diversity. Conservation Biology 
        21:1009-1020.
Hilborn, R. 1992. Hatcheries and the future of salmon in the Northwest. 
        Fisheries (17(1):5-8.
Lichatowich, J. 1999. Salmon without rivers: a history of the Pacific 
        salmon crisis. Island Press, Washington, D.C.
Meffe, G.K. 1992. Techno-arrogance and halfway technologies: salmon 
        hatcheries on the Pacific Coast of North America. Conservation 
        Biology 6:350-354.
National Marine Fisheries Service. 2008. Endangered Species Act Section 
        7(a)(2) consultation biological opinion and Magnuson-Stevens 
        Fishery Conservation and Management Act essential fish habitat 
        consultation. Consultation on remand issued May 5, 2008. 
        Northwest Region, NOAA's National Marine Fisheries Service.
Nehlsen, W. J.E. Williams, and J.A. Lichatowich. 1991. Pacific salmon 
        at the crossroads: stocks at risk from California, Oregon, 
        Idaho, and Washington. Fisheries 16(2):4-21.
Poff, N.L., M.M. Brinson, and J.W. Day, Jr. 2002. Aquatic ecosystems 
        and global climate change: potential impacts on inland 
        freshwater and coastal wetland ecosystems in the United States. 
        Pew Center on Global Climate Change. Arlington, VA.
Williams, J.E., J.A. Lichatowich, and W. Nehlsen. 1992. Declining 
        salmon and steelhead populations: new endangered species 
        concerns for the West. Endangered Species UPDATE 9(4):1-8.
Williams, J.E., C.A. Wood, and M.P. Dombeck. 1997. Understanding 
        watershed-scale restoration. Pages 1-13 in J.E. Williams, C.A. 
        Wood, and M.P. Dombeck, eds. Watershed restoration: principles 
        and practices. American Fisheries Society, Bethesda, MD.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Williams, for your 
very helpful comments.
    Now, Mr. Litchfield, we welcome you before the 
Subcommittee.

           STATEMENT OF JAMES LITCHFIELD, PRESIDENT, 
                     LITCHFIELD CONSULTING

    Mr. Litchfield. Thank you, Madam Chair and Members of the 
Subcommittee. It is a pleasure to be here today. My name is 
James Litchfield. I am a consultant working in Portland, 
Oregon. I am here today representing Northwest River Partners, 
a group of utilities industries, agricultural interests that 
are working on trying to implement sound science in the efforts 
to recover fish in the most cost-effective and efficient way 
possible.
    I, for the last two and a half years or so, have been 
participating in NOAA's efforts to develop a new biological 
opinion for the Columbia and Snake River systems. That effort 
was an unprecedented effort. It involved a collaboration 
between all of the sovereign parties in the Pacific Northwest 
that were involved in the litigation surrounding the NOAA 
Biological Opinion on the Columbia and Snake Rivers.
    The parties involve all four Northwest states, seven 
tribes, and about five Federal agencies. There were over 200 
meetings over about two-plus years.
    You can imagine the disparate interests that were involved 
in this process, yet the collaboration, I think, was quite 
effective at bringing the best available science from a lot of 
different perspectives to the table. There was a lot of effort 
to try to distill that information and put it into a useful 
Biological Opinion.
    Last week, NOAA released for public review and review by 
two Federal courts in Oregon three Biological Opinions: one 
dealing with the Federal Columbia River Power System, another 
dealing with the Upper Snake irrigation projects operated by 
the Bureau of Reclamation, and the third Biological Opinion 
addresses the harvest of ESA-listed fish in the Columbia and 
Snake Rivers.
    Those opinions will go on through formal court review, but, 
as of now, they are the new Biological Opinions guiding 
operation of the Federal Columbia River Power System.
    Most significantly, they adopted a new approach. The 
approach was one of implementing performance standards instead 
of what I would call ``prescriptive standards.''
    In the past, NOAA has defined specific flow targets or 
spill levels as the best operation for fish. However, 
conditions change, and research changes over time, and so, as 
we have learned more and more about what effects fish, we have 
found that some of those prescriptive standards are not the 
best way to optimize survival.
    So the new Biological Opinion adopts a performance standard 
where 96 percent of fish passing the Federal dams have to 
survive, 96 percent or greater in the spring and 93 percent or 
greater in the summer. These are very high performance 
standards. They may not be achievable, but a lot of effort is 
being put into them.
    What I will tell you is that as we have gotten higher and 
higher survival as fish pass dams, we are reaching the point of 
diminishing returns, spending far and far more money to get 
ever smaller returns. So it is not going to be possible to get 
100 percent survival, and, at some point, we need to turn our 
attention elsewhere.
    The Biological Opinions have done that in several ways. 
One, they have focused an incredible amount of effort on 
improving habitat in the Pacific Northwest. The council 
recently evaluated the investment that we have made in fish and 
wildlife since the Northwest Power and Conservation Council was 
formed by an act of Congress in 1980, and they estimate that, 
as of 2006, $9 billion has been invested in fish and wildlife 
recovery by the Bonneville Power Administration in the Pacific 
Northwest. That investment is starting to show some returns, 
but a lot more is needed in the habitat-improvement areas above 
the hydro projects.
    Recently, Bonneville Power negotiated with four tribes and 
two states a memorandum of agreement where an additional $900 
million, approximately, will be spent over the next 10 years by 
those parties to try to improve habitat and hatchery practices 
in the Pacific Northwest.
    In addition to that, a significant amount of resources are 
devoted to fish and wildlife recovery in the Northwest through 
the council's Fish and Wildlife program. As an approximate 
estimate--these numbers will be released later this month--I 
would expect that, over the next 10 years, the region will 
invest at least another $2 billion in fish and wildlife 
recovery. Yet all of this money has been supported generally 
through the Pacific Northwest ratepayers because they believe 
that, through a cost-effective, efficient, fish and wildlife 
recovery effort, we can recover these fish, and we are still 
confident that we can achieve that.
    You will hear, and you already have heard, that dam removal 
is the way to save salmon. I would like to point out several 
facts that are really important in the dam-removal debate.
    First of all, the four Snake River dams that are the target 
of the discussion affect only four of the 13 listed species in 
the Columbia River. The removal of those dams would cost in 
excess of a billion dollars. The effort has been studied in 
detail by the U.S. Army Corps of Engineers during the late 
1990s, and it is likely to remove over 1,000 megawatts of 
renewable energy that would have to be replaced by gas-fired 
power plants in the Pacific Northwest. Thank you.
    [The prepared statement of Mr. Litchfield follows:]

         Statement of James Litchfield, Northwest RiverPartners

    Madam Chairwoman and members of the Subcommittee, it's a pleasure 
to provide you with my testimony today. My name is James Litchfield, 
and my background has focused on fish and wildlife recovery planning 
and the interactions between fish listed for protection under the 
Endangered Species Act (ESA) and the Federal Columbia River Hydropower 
System (FCRPS). I frequently, provide strategic and technical advice 
concerning the state of the latest scientific findings on salmon 
recovery and potential strategies to achieve recovery and delisting 
goals. I was one of a team of seven scientists on the Snake River 
Salmon Recovery Team tasked by NOAA to develop a recovery plan for the 
endangered salmon stocks in the Snake River. Most recently I have been 
involved in the 2 year collaborative process to develop the Biological 
Opinion addressing operations of the federal dams on the Columbia and 
Snake Rivers. For that reason, I would like to focus on the question 
raised by the subcommittee on the state of science, particularly as it 
applies to the Columbia and Snake River systems.
    I am here today representing Northwest RiverPartners. Northwest 
RiverPartners is an alliance of farmers, electric utilities and large 
and small businesses in the Pacific Northwest that advocates for the 
use of best science and wise investments in salmon recovery efforts in 
the Northwest. The alliance promotes all of the benefits of the rivers: 
fish and wildlife, renewable hydropower, agriculture, flood control, 
commerce and recreation.
An Unprecedented Science Approach
    I thank the Subcommittee for this inquiry into the impact of the 
current confluence of science, human management activities and ocean 
conditions on West Coast salmon. This is an important public policy 
inquiry; however, it must be grounded in our best scientific knowledge 
to be effective at addressing real world problems.
    On May 5th NOAA Fisheries presented to Judge Redden, Judge King and 
the public three Biological Opinions (BiOps). These opinions cover the 
operation of the Federal Columbia River Power System, the operation of 
Bureau of Reclamation dams in the upper Snake River and the plan for 
harvesting fish. This includes the harvest of salmon and steelhead 
listed under the Endangered Species Act in the Columbia and Snake 
Rivers developed under the U.S. v Oregon process, overseen by Judge 
King.
    All three of these BiOps are supported by a common scientific 
foundation in a document called the Supplemental Comprehensive Analysis 
(SCA). The SCA is 1,230 pages developed through an unprecedented 
collaborative process. The Collaboration was not spontaneous, but 
rather ordered by Judge Redden to insure that NOAA would benefit from 
the scientific expertise of the sovereign parties involved in 
litigation over NOAA's BiOps. The sovereign parties involved in this 
collaborative effort included the four Northwest states and seven 
American Indian Tribes along with five federal agencies. The 
Collaboration involved these disparate parties working together for 
over 2 years and produced much of the analysis that provides the 
scientific foundation for the new NOAA FCRPS BiOp.
    The Collaboration took a new approach to evaluating salmon status 
and what is needed to avoid jeopardy and ultimately achieve recovery. 
This approach focused on empirical data to describe the historic 
condition of the major population groups that make up each listed 
evolutionary significant unit (ESU). Based on this empirical data it 
was possible to estimate the current status of the salmon and steelhead 
populations factoring in the numerous changes the region has made 
improving salmon survival over the last 20 years. The Collaboration 
also evaluated the key limiting factors that are currently impacting 
fish survival and the likely response of fish populations of additional 
actions in the BiOp to improve productivity and genetic diversity.
    This scientific process, analysis and analytical framework took a 
completely new scientific approach that focused on the unique needs of 
each listed salmon species. It literally put the needs of the fish 
first from a scientific perspective and in this way it is far more 
comprehensive and targeted to addressing activities or obstacles that 
limit salmon survival. It is important to understand that this species-
specific analysis is much more useful in describing factors that drive 
salmon lifecycles, including all human affects, from headwaters to the 
ocean and their return to the spawning grounds.
    This sovereign-based collaborative effort opened a normally closed 
process among federal agencies and resulted in a BiOp based on the best 
available science. Even though this extensive scientific collaboration 
was able to evaluate all sources of human caused mortality, not all 
human impacts on salmon survival have been consistently addressed in 
the BiOps. Much of the region's investment and survival improvements 
continue to focus on the hydropower system. The focus on hydropower 
improvements continues even though the latest research from NOAA is 
showing that juvenile salmon survival through the Lower Snake and 
Columbia Rivers is now higher than it was in the 1960s when there were 
only four dams in the Lower Columbia River (NOAA Presentation to the 
Policy Work Group, Smith, Williams and Muir, July 26, 2006).
Hydrosystem Performance Standards
    The new FCRPS BiOp commits federal agencies to continue to improve 
survival at the dams. The hydro performance standards are greater than 
96 percent survival for juvenile salmon migrating downstream through 
the dams in the spring, and 93 percent for summer migrants at each dam. 
These are extremely high survival commitments but they can be achieved.
    It is obvious that survival of fish through any particular reach 
can never achieve 100 percent and as we try to achieve higher and 
higher survivals it becomes exponentially more difficult and costly. It 
is also important to recognize that salmon mortality is high in a 
natural river system where predators, diseases and other conditions are 
harsh. That is why Mother Nature has equipped these fish with a life 
cycle that provides returning female adult chinook with 5,000 eggs! Yet 
for the population to remain stable only two of these eggs need to 
survive to spawn to replace their parents.
    Recent NOAA research (Smith, Muir and Williams, November 2007) 
shows that survival of fish in free flowing sections of the Snake River 
above the uppermost dam (Lower Granite) is directly proportional to how 
far the fish have to migrate to reach the dam. Fish released a 
relatively short distance (100 km) from Lower Granite dam survived at a 
relatively high 76 percent, yet survival for fish released over 500 km 
from the dam was less than 45 percent. This research shows that even 
for fish not passing through dams there are fairly high rates of 
natural mortality. Nevertheless, it is important to note that there 
also is cumulative mortality experienced by fish migrating downstream. 
NOAA's estimates for the survival in 2007 from above Lower Granite dam 
to below Bonneville dam are 56.0 percent for yearling chinook and 39.2 
percent for steelhead.
    Other NOAA research (R. Lynn McComas, et al, March 2008) studied 
survival in the free flowing reach from Bonneville dam (the lowest dam 
in the system) to the estuary. This research showed that the river 
below the last dam that juvenile salmon migrate past is also an area of 
significant mortality. In fact, this research found that survival from 
Bonneville dam to the estuary for yearling chinook was 69, 68 and 81 
percent for 2005--2007. This research shows that even though survival 
at the dams is high, and reaching practical limits, natural mortality 
in free flowing stretches of the river above and below the hydropower 
system remains high and, in some parts of the system such as the 
estuary, is currently a key survival bottleneck limiting overall fish 
survival.
Hatcheries and Harvest Practices Create Risks
    For most of the 13 listed salmon and steelhead in the Columbia 
River there continues to be concern over the interaction between 
hatchery practices and the survival of naturally spawning (wild) fish. 
NOAA's Supplemental Comprehensive Analysis identifies the following 
risks from hatchery programs.
        ``[T]here is the potential for hatchery programs to increase 
        the extinction risk and threaten the long-term viability of 
        natural populations. For example, because the progeny of 
        hatchery fish that spawn in the wild are known to be less 
        likely to survive and return as adults than the progeny of 
        natural-origin spawners (Berejikian and Ford, 2004), the 
        fitness of a spawning aggregate or natural population is likely 
        to decline (termed, outbreeding depression) if hatchery and 
        natural-origin fish interbreed. For steelhead, outbreeding 
        depression has been found to occur in the progeny of matings of 
        hatchery and wild fish, even when the hatchery fish are the 
        progeny of wild fish that were raised in a hatchery. Other 
        potential risks posed by hatchery programs include disease 
        transmission, competition with natural-origin fish, and 
        increased predator and fishing pressure based mortality.''
    A recent report entitled, ``Genetic Effects of Captive Breeding 
Cause a Rapid, Cumulative Fitness Decline in the Wild'' (Hitoshi Araki, 
et al, Science, October 5, 2007), found that hatcheries used to 
supplement populations of naturally spawning species can have a 
significant impact on overall fitness of steelhead. This research 
showed that lifetime reproductive success of the first two generations 
of steelhead trout that were reared in captivity and bred in the wild 
after they were released was significantly impaired. In fact, these 
researchers showed that genetic effects of domestication reduce 
subsequent reproductive capabilities by 40% per captive-reared 
generation. The researchers summarized their findings with the 
following statement,
        ``These results suggest that even a few generations of 
        domestication may have negative effects on natural reproduction 
        in the wild and that the repeated use of captive-reared parents 
        to supplement wild populations should be carefully 
        reconsidered.''
    This and other research is now showing that hatcheries can have a 
major impact on the fitness and genetics of naturally spawning fish. 
Yet the current strategy for mitigating the impacts of humans on fish 
populations by merely building another hatchery is over 100 years old. 
One unintended consequence of increased use of hatcheries is to create 
significant numbers of fish that compete with natural stocks for 
habitat and food sources. Hatchery fish can also support larger numbers 
of predators that also prey on natural fish and encourage harvest rates 
that naturally produced fish cannot support. Yet, integrating hatchery 
practices into the region's recovery efforts lags significantly behind 
hydropower and habitat improvements. Several efforts are underway to 
audit and reform hatchery practices but most of the region's more than 
130 hatcheries have yet to undergo ESA consultations that would insure 
that hatchery practices are consistent with the overall recovery 
effort.
    The current hatchery strategy predates the ESA by more than 70 
years. A lot has happened in the field of genetic science since the 
first hatcheries were constructed. The hatchery strategy was 
historically based on the premise that a ``fish'' is a ``fish'' and 
that loss of one fish to habitat degradation, dams, irrigation, harvest 
and increasing human population pressures was easily compensated by 
merely producing more fish in hatcheries. However, the new paradigm 
under the ESA requires the preservation of unique life histories that 
NOAA calls Evolutionary Significant Units (ESUs). ESUs are being 
protected under the ESA because they represent natural genetic 
diversity that has allowed salmon and steelhead to evolve for millions 
of years. The promise of hatcheries compensating for man-caused impacts 
on salmon habitat combined with the higher harvest rates that large 
hatchery production encourages has put less productive naturally 
spawning populations at significant risk of extinction. The current 
hatchery-harvest strategy is now inconsistent with the ESA's mandate to 
preserve every unique life history. This is a fisheries management 
strategy that must be reformed so that hatcheries can assist in 
recovery of ESA listed populations.
Dam Breaching a False Promise
    You will probably hear that to save Snake River salmon and 
steelhead the Lower Snake River Dams should be removed. Dam removal is 
a ``silver bullet'' advocated by those that believe the construction of 
the four dams on the Lower Snake River caused all the problems that led 
to ESA listings for salmon and steelhead.
    Yet, one of the biggest problems with proposals to remove the Snake 
River dams is the limited scope of this strategy. Even if the dams were 
removed, it would only potentially help 4 of the 13 listed fish in the 
Columbia River Basin. Removing the Snake River dams is an expensive and 
controversial strategy that could require so much time and money that 
it would leave the other 9 listed stocks without significant support.
    Removal of dams also couldn't be achieved quickly. Years of 
political and legal battles will be fought and, even if there is the 
political will, Congress would need to appropriate significant funds to 
pay for removal of the four dams, estimated to be over $1 billion 
dollars. During the decades of fighting, recovery actions will not be 
pursued because of the uncertainty that the dams maybe removed at some 
time in the future. The Snake River dams also currently provide the 
necessary revenues to fund comprehensive recovery efforts for Snake 
River anadromous fish.
    The four Lower Snake Dams also produce more than 1020 MW of carbon 
free energy and 2650 MW of sustained power production capacity. These 
are significant quantities of power production that can serve the needs 
of a large city the size of Seattle, Washington. You will hear that the 
energy lost from the dams could be replaced by wind and conservation. 
This is simply not true. Calls for removing the four Lower Snake dams 
led the Northwest Power and Conservation Council (the Council), 
authorized under the Northwest Electric Power Planning and Conservation 
Act, to evaluate the possible consequences of removing the Snake River 
Dams to the region and the environment.
    The Council's analysis showed that the lost renewable power 
produced by the dams could not be replaced by power from conservation 
and new renewable resources, such as wind generation. This is because 
all available conservation and renewable power generation is already 
allocated to meeting future regional load growth in the Council's 
regional power plan, and will be acquired with or without dam removal. 
For this reason, the Council found that if the Snake River dams are 
removed, the most likely replacement resource would be gas-fired 
combustion turbines that emit significant quantities of carbon dioxide. 
In the context of efforts by the region to reduce our carbon footprint, 
the Council found that, ``discarding existing CO<INF>2</INF>-free power 
sources has to be considered counterproductive.''
    The Council's analysis specifically showed that if the Snake River 
dams were removed it would result in increased power production from 
new gas-fired combustion turbines and by other thermal power plants in 
the western United States. The new fossil fueled power that replaces 
the dams would cause the release of 5.4 million tons of CO<INF>2</INF> 
per year. For perspective, this is equivalent to the CO<INF>2</INF> 
produced by a 540 MW new modern coal plant.
    As a matter of sound science or good public policy it makes no 
sense to remove renewable, non-polluting power from the Snake River 
Dams and replace the lost renewable power with fossil fired power 
plants that accelerate global climate change. Unfortunately, the 
campaign to remove the dams has diverted significant time and resources 
from moving forward with the recovery efforts that our region really 
needs to implement.
Significant Regional Investment in Fish & Wildlife
    The Council also monitors Bonneville's expenditures to support fish 
and wildlife mitigation. Much of the funds documented by the Council 
are in support of ESA recovery efforts but there are also significant 
investments in resident fish and wildlife that are not ESA listed. The 
Council report entitled, ``Sixth Annual Report to the Northwest 
Governors on Expenditures of the Bonneville Power Administration'', 
August 2007, documents the investment by Pacific Northwest ratepayers 
in fish and wildlife. The Council's report shows that Northwest 
ratepayers invested about $9 billion by the end of 2006 in fish and 
wildlife recovery efforts since the passage of the Northwest Power Act 
in 1980. The attached graph (see Attachment 1) is from this report.
    The results of this massive investment are now being seen through 
increased hydropower system survivals for most of the listed fish. 
Moreover, the Bonneville Power Administration has just signed 
Memorandum of Agreements (MOA) with four tribes and two states that 
will significantly increase investments in fish mitigation and recovery 
efforts over the next ten years. The total commitment in these MOAs is 
reported to be more than $900 million. Importantly, the actions that 
will be funded under these MOAs will be scientifically reviewed by the 
Independent Science Review Panel and the Council. The investment by 
Northwest ratepayers far exceeds any investment in an ESA-related 
recovery effort for any other species in the nation. Yet this 
investment has generally been supported by citizens of the Northwest in 
the hopes that we can prevent future extinctions and bring about 
recovery of the salmon that have been affected by the region's 
hydropower, hatchery, harvest and habitat impacts.
Ocean Conditions--Confounding Factor
    It is important to understand, however, that such investments alone 
cannot solve a problem where factors largely outside our control--ocean 
conditions--have a dramatic impact on salmon survival and productivity. 
Ocean conditions are complex and not completely understood by the 
science community. However, extensive research is underway in the 
Northwest to better understand ocean food webs and their impacts on 
salmon survivals and growth. Some of this research is being led by Ed 
Casillas from NOAA Fisheries Northwest Fisheries Science Center in 
Newport, Oregon.
    Dr. Casillas presented results of his work into ocean productivity 
to the Council at their meeting in March 2008. This work helps to 
identify when ocean conditions are supportive of salmon growth and 
survival and when they are not. This is new work has not yet found its 
way into fisheries management, but it needs to, because it can provide 
the leading indicators of when harvest can be permitted and when it 
needs to be restricted. Attachment 2 contains a summary of a number of 
ocean productivity indicators that Dr. Casillas measured for four 
historic years and two possible forecasts of future conditions.
    Attachment 2 illustrates the status of various factors that affect 
salmon survivals. Green shows a good condition, yellow is neutral and 
red is a poor condition. The first two factors <SUP>1</SUP> are related 
to large-scale weather and ocean conditions that have been shown to 
correlate with upwelling that provides food sources for salmon. 
Forecasting is still under development and Dr. Casillas said that 
additional development work is needed before it will be a reliable 
management tool, but this work is a very promising effort that can 
allow us to better understand ocean conditions and the likely affect on 
salmon productivity.
---------------------------------------------------------------------------
    \1\ The two factors shown in the chart are the Pacific Decadal 
Oscillation (PDO) and the Multivariate El Nino Southern Oscillation 
Index (MEI).
---------------------------------------------------------------------------
    There is little that we can do to change either the weather or 
ocean productivity. Both are related to critical upwelling that causes 
the food webs that salmon depend upon to bloom. The management 
challenge is to first recognize when ocean conditions are poor for 
salmon survival and then to reduce human caused mortality as much as 
possible during that time. It is interesting to note in the previous 
chart that 2005 was a particularly poor year for ocean conditions. 
Juvenile salmon entering the ocean that year experienced an oceanic 
desert. Knowing this could help us to recognize that there are likely 
to be reductions in salmon populations for the next several years 
following poor ocean conditions and that fish harvest is likely to need 
to be reduced.
    When fish populations plummet in the ocean the strategies to reduce 
human caused mortality are limited. Temporary closure of fisheries is 
the only management response that can effectively reduce human caused 
mortality quickly. Because land-based sources of mortality are 
difficult to affect and are slow to cause changes in numbers of salmon, 
they are not well suited to sudden drops in salmon productivity in the 
ocean. If human caused harvest mortality is not reduced when there are 
low numbers of fish present, it is likely that overharvest will require 
ESA protection for even more fish. (See stripped bass as an example of 
a successful closure.)
Mixed Stock Fisheries Problematic--Snake River Fall Chinook Example
    Even with the high level of protection provided under the ESA, it 
is difficult to protect weak populations when mixed with much more 
numerous hatchery fish. The Northwest has our version of the Sacramento 
fall chinook with the Snake River fall chinook. This fish is listed 
under the ESA, yet the new FCRPS BiOp reports that it continues to 
experience extremely high harvest rates of approximately 45 percent. 
Snake River fall chinook are currently harvested in Alaska, Canada, off 
the coast of Washington and Oregon, and in the Columbia and Snake 
Rivers by commercial, sport and tribal fishers.
    The high harvest level that occurs in both the ocean and the river 
is caused by current harvest techniques and the fact that weak Snake 
River fall chinook commingle with much larger and stronger populations 
from the Hanford Reach of the Columbia River. In attempting to harvest 
Hanford Reach fall chinook with non-selective gill nets, almost half of 
the returning Snake River listed fish are also harvested. This makes it 
extremely difficult to achieve recovery for Snake River fall chinook 
while at the same time maintaining the current rate of harvest for 
other chinook. The region is investing hundreds of millions of dollars 
in strategies to recover Snake River fall chinook only to have nearly 
half of them caught--after they have migrated down the river, past the 
dams and survived years in the ocean--just as they are ready to return 
and spawn.
Conclusion
    It is obvious that ocean conditions have a major impact on the 
health and productivity of salmon and steelhead stocks; however, our 
ability to change ocean conditions is limited. The work of Dr. Casillas 
is helping us to better understand the weather patterns and linkages in 
the ocean that cause oscillation in the food web upon which salmon 
depend. Critical environmental ocean conditions need to be better 
monitored and understood before we will be able to effectively forecast 
salmon populations and use this information in harvest management. 
However, fisheries management strategies need to be revisited based on 
the current science on the interactions between hatchery and harvest 
policies and overall salmon survival and recovery. Addressing key 
factors limiting salmon survival is not without scientific, technical 
and political difficulty, but it is far more feasible than attempting 
to control ocean conditions through human policies. Meanwhile, research 
on ocean conditions must continue.
    That is the state of the science, as we know it in the Pacific 
Northwest. Research has identified habitat, hydro, hatcheries, harvest 
and ocean conditions as the key factors limiting the recovery of the 
ESA-listed salmon and steelhead stocks. The region has invested 
billions in refitting the hydro system and improving habitat for 
increased salmon protection and NOAA has just produced a new FCRPS BiOp 
detailing future investments in both hydro and habitat. What we haven't 
seen, but need to, are commensurate actions on harvest and hatcheries. 
Since the science and the ability to manage harvest and hatcheries is 
much more developed than our ability to change ocean conditions, we 
need to focus on those elements first, while continuing our research on 
the ocean.
    RiverPartners appreciates this opportunity to address the 
Subcommittee. I am more than happy to answer any questions you may 
have.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Litchfield.
    Before we begin with the questions, I ask unanimous consent 
that Mr. DeFazio be allowed to join the Subcommittee on the 
dais and participate in the hearing. Hearing no objection, so 
ordered.
    We will begin with the questions from the Subcommittee 
Members first, and then we will go to our other colleagues that 
are here as guests.
    I have two questions for Mr. Rod McInnis. How much time has 
NOAA spent writing and rewriting Biological Opinions on these 
rivers? What guides the river operations while the Biological 
Opinions are being redrafted, and how is salmon recovery 
impacted when you do not have an approved Biological Opinion?
    Mr. McInnis. Thank you, Madam Chairwoman. There is a great 
deal of time spent on writing and rewriting Biological Opinions 
and gathering the foundational information and science that we 
need to complete the Biological Opinions. The work that goes on 
after a Biological Opinion--I assume the question was after a 
Biological Opinion has been validated by the court, it is 
entirely up to the court as to how that proceeds. We would be 
given instructions generally to continue to implement the 
Biological Opinion in some modified way until we have a new 
opinion in place.
    The efforts that we have gone through to improve our 
Biological Opinions through the external, independent, 
scientific reviews have added time to the period that we have 
to work on these things. They have improved, I think, the 
strength of the Biological Opinions that are coming out now.
    Ms. Bordallo. Thank you for your answer. I just wonder how 
much longer we are going to be waiting.
    The second question: Has NOAA defined adverse modification 
of critical habitat for salmon yet, and how can you know if an 
action is causing jeopardy to critical habitat?
    Mr. McInnis. Madam Chairwoman, we have not defined that 
explicitly, and one of the reasons that it is difficult is 
because there are very different situations, and they have to 
be viewed as individually as we can to ensure that we are 
taking into consideration all of the impacts to the critical 
habitat.
    Ms. Bordallo. Thank you very much. I think I have time here 
for one more question.
    Dr. Williams, how can NOAA develop BiOps and design 
management plans that adequately protect salmon at all life 
stages, and how can adaptive management play a role?
    Mr. Williams. Well, first, I think NOAA Fisheries has 
excellent staff people. They have some very good scientists 
that work for their organization. But I do think the Biological 
Opinions must be based on that science, and I think they have 
to address the main problems straight on, and I do not believe 
that they always have in the past. So I think it is very 
critical that they get their scientific opinions, that they 
focus on the problems at hand rather than artificial solutions, 
and that all of this money that we are investing is invested 
toward sound solutions.
    Ms. Bordallo. Thank you very much. Now, I will recognize 
the acting Ranking Member, Mrs. McMorris Rodgers, for any 
questions she may have.
    Mrs. McMorris Rodgers. Thank you, Madam Chairman. I 
appreciate the opportunity, and I wanted to take a moment and 
recognize one of my constituents here in the audience today, 
Travis Brock. He is with the United Power Trades Organization, 
all the way from Colfax, Washington. He does a lot of work on 
these dams, so he could shed some light on some of the 
realities with the dams.
    My first question, to Mr. McInnis: I understand that $230 
million has either been funded or proposed for West Coast 
salmon disaster assistance over the past three years. Has NOAA 
devoted any resources to determine the actual commercial value 
for the West Coast salmon fishery, particularly the Columbia 
and Snake River stocks that may be listed under the Endangered 
Species Act?
    Mr. McInnis. I am sorry. The question is the overall 
impact?
    Mrs. McMorris Rodgers. The actual commercial value for the 
West Coast salmon fishery.
    Mr. McInnis. Thank you. NOAA Fisheries has conducted an 
analysis specific to this year's losses in the ocean fishery, 
and we do have that information that can be provided. With 
respect to the overall long-term value of these salmon runs, we 
do not have that information at hand, but there has been work 
done on that, and we would be glad to provide that.
    Mrs. McMorris Rodgers. Has a voluntary buy-back of West 
Coast salmon fishermen, in river and in the ocean, ever been 
considered?
    Mr. McInnis. We have not considered that as an option at 
this juncture. The number of commercial fishermen in the three 
West Coast states has been greatly reduced over the past 20 
years, and we have not encouraged a buy-back.
    Mrs. McMorris Rodgers. OK. Thank you.
    Mr. Litchfield, some witnesses will talk about how the dams 
kill the vast majority of salmon, yet your testimony indicates 
that 96 percent of juvenile salmon survive the migration 
downstream. Can you tell us why more fish are surviving?
    Mr. Litchfield. Well, a great deal of that investment, I 
would testify to, has been made in improving dam survival. 
There is a number of mechanisms that have been put in at the 
dams. The most successful and the latest has been what are 
called ``removable spillway weirs.'' These are replacement 
structures that go in spillway bays, and they allow fish to 
pass over the top of the dam instead of through spill bays that 
open 50 feet down.
    So the way fish have been spilled in the past was really 
fairly traumatic for fish. Now they can gradually pass over a 
water slide down the dam. These are being shown to be very 
effective at improving fish survival.
    The 96 and 93 percent that I testified to is survival at 
each dam. If you look at the cumulative survival, from the 
upper dam, Lower Granite on the Snake, down through the 
Columbia, the lowest dam being Bonneville Dam, there are eight 
dams that they need to pass.
    Cumulatively, fish pass away. There is mortality in each of 
the projects from a variety of sources, probably the most 
significant being predation, both by birds and other fish. When 
you look at the cumulative survival, the latest NOAA research 
is showing that, for spring Chinook, survival through those 
eight dams is approaching 60 percent, high 50-percent range. 
That is a very high survival rate.
    In fact, it fairly well correlates with the survival you 
see above the hydro projects for fish migrating in undammed, 
naturally flowing rivers down to the first dam, and it roughly 
correlates to the survival you see below Bonneville Dam in the 
free-flowing stretch out to the ocean.
    So there is a natural mortality rate. It seems to be highly 
correlated with distance as much as it is with number of dams 
passed.
    Mrs. McMorris Rodgers. In the Pacific Northwest, we have 
had spills mandated at various times. Would you just speak a 
little bit to what that means, and also what does that do as 
far as our carbon footprint? I am quite proud of the fact that 
Washington State has the second-lowest carbon footprint per 
capita in the country, largely because of our hydro.
    Mr. Litchfield. Yes, we do, and hydro power, a renewable 
resource for the Pacific Northwest, provides approximately 50 
percent of the electric power generation, beginning with the 
first Biological Opinions, in fact, even before them, spills 
have been used as a way to help fish migrate past dams.
    There are essentially three passage routes at each dam that 
a fish can take, depending on where it is in the water column. 
One is through the power generation turbines. In front of those 
turbines, though, we have installed screens that deflect some 
of the fish away from the turbines and through what is called a 
``bypass system,'' and the third way is through the spillways. 
As I said, the spillways are generally about 50 feet down. They 
open a water passage that is 50 feet down.
    Fish tend to migrate in the upper part of the water column, 
the top five to 10 feet, so a fish approaching a dam and being 
passed via spill would be drawn down to about 50 feet of 
pressure and then exit the dam under a high-pressure jet of 
water that would slide down the dam and dissipate below the 
dam.
    Spills, of course, forego electric power generation, so 
there is a significant impact on electric power output. The 
Northwest Power and Conservation Council, about a year ago, did 
an analysis of what spill means to the Pacific Northwest in 
terms of carbon generation, and what they found is that because 
of the reduced power generation from spilling water in the 
summer months during July and August when Snake River fall 
Chinook are passing the projects, there is about a 5.6 million-
ton increase in CO<INF>2</INF> production throughout the 
western United States. In fact, it has a fairly high impact on 
CO<INF>2</INF> production in California because the power that 
is being generated by the Snake River dams in the summer is 
oftentimes sold in California, via electric power transmission, 
and reduces the use of thermal power plants in California. So 
now that we are spilling water, those power plants in 
California are running more.
    Mrs. McMorris Rodgers. Thank you.
    Ms. Bordallo. I thank the gentlelady from Washington, and 
now I recognize the gentleman, a Member of the Subcommittee, 
Mr. Sali from Idaho.
    Mr. Sali. Madam Chair, I am disappointed in the tone that 
this hearing has taken, in part, specifically the intentional 
confusion of issues apparently to get a desired result and, as 
a consequence, some with views that are being opportunistic 
instead of being realistic. Those with this view are apparently 
trying to take advantage of a crisis situation so that they can 
capitalize on the misfortunes of others.
    The Pacific salmon fishery closure is a tragedy. It is a 
tragedy that will affect fishermen, families, residents, 
constituents, and small businesses across America. There is no 
one here that can tell us why this stock has declined. We can 
get theories and estimates, but, at the end of the day, no one 
here really knows why there is a decline. There are people who 
would tell us that it is ocean warming and global warming that 
could have caused it. There are some who have said that it is 
the dams that have caused it, at least in part.
    Then there is always fishery management that could have 
caused this decline. Fisheries mismanagement occurred a number 
of times on the Atlantic Coast in cod and haddock fisheries. We 
have seen it in the Gulf with red snapper, striped bass, and on 
the Chesapeake Bay, and shad and Sturgeon on the Atlantic 
Coast.
    Let us be frank. Today, the closing of the Pacific 
fisheries is being used to further an agenda. From the very 
first hearing I attended after being sworn in, one in the 
Oversight and Government Reform Committee, I have heard 
allegations of politicizing science. While I have not always 
been convinced that the issues that were presented in the 
various hearings were politicizing science, what we have before 
us today is blatant politicization of the science.
    This hearing is, and I quote, an oversight hearing on the 
West Coast salmon closure entitled ``A Perfect Storm: How 
Faulty Science, River Mismanagement, and Ocean Conditions Are 
Impacting West Coast Salmon Fisheries.'' Somewhere in the 
testimony and the discussion before this Committee of the 
Pacific fishery salmon closure, the Columbia and Snake River 
systems have come into this discussion.
    The Pacific Fishery Management Council closed the Chinook 
salmon fishing season along the coasts of Oregon and California 
due to the collapse of the Sacramento fall Chinook stock. NOAA 
must answer a simple, but essential, question. This is a stock 
that has nothing to do with the Columbia and Snake River 
systems. Is that correct or not correct? I look forward to your 
answer when I am done with my comments.
    There are restrictions on the fishery north of Cape Falcon, 
Oregon, that relate to the Columbia and Snake River for Chinook 
and coho salmon, but let us be clear: Those fish runs, for the 
most part, do not even enter the Columbia and Snake River hydro 
system, the dams that are being discussed here that should be 
removed. They do not go that far up the river.
    I am growing so weary of every excuse being used by some to 
try to advance an extreme agenda of breaching dams on the 
Columbia River. Breaching the dams would be bad for the 
environment. It would do serious harm to the Northwest capacity 
to export, including the export of crops at a time when one 
billion people worldwide are malnourished or starving. It would 
dramatically increase Northwest power rates. And I might add to 
the comment from the good lady from Washington, Idaho has the 
smallest carbon footprint of any state in this nation because 
of those dams.
    The discussion here today has turned to politics and not 
science. The proposition that the dams be removed has been 
studied over and over again, at taxpayers' expense, both under 
Democrat and Republican administrations, and the result was 
always the same. It has never been recommended that the dams be 
removed. What part of that do those advancing dam breaching 
today not understand?
    From where I sit, some of the testimony presented here 
today appears to be one more attempt to reenergize this long-
running, dam political debate. Part of the debate presented 
here today by some of our witnesses has been given in the name 
of science. By the Corps of Engineers' latest estimate, an 
average of 91 to 98 percent of the juvenile fish survive 
passage of the dams that have been suggested must be removed.
    Let us talk about the environmental issues. Not only have 
the taxpayer-funded studies not supported breaching the dams to 
increase salmon runs in the Columbia River, but, in fact, there 
are significant environmental impacts if the dams were 
breached, significant environmental impacts of which my 
constituents will bear the brunt.
    Consider this: If those dams are breached, alternative 
transportation would be needed to haul freight. Today, 1,600 
million trip-ton miles are transported on the Snake River to or 
from the port in Lewiston, Idaho. If the dams are removed, the 
Congressional Research Service has estimated that moving barge 
freight to truck would increase carbon emissions by 65,000 
metric tons per year. That is the science. It does not factor 
in the safety and economy concerns my constituents will face 
with increased truck congestion on roads.
    More striking, however, is the significant increase in 
carbon emissions from replacement of electricity generated by 
those dams. Mr. Litchfield talked about the amount, 5.6 million 
metric tons, of carbon that is released just by reducing the 
flows over the dams today. If the energy source is replaced by 
coal-fired power plants, we would essentially be trading 
carbon-free power that makes Idaho have the smallest footprint 
of any of the states in the Nation with coal-fired power plants 
that would emit approximately nine million metric tons of 
CO<INF>2</INF> per year.
    Madam Chair, I ask for an extra minute just to finish this 
up. Thank you, Madam Chair.
    Ms. Bordallo. All right. Thank you. We will get back to you 
if you would like a second round of questions.
    I would like now to--
    Mrs. McMorris Rodgers. Madam Chairman, as the Committee 
proceeds, I am just wondering, are you going to go back and 
forth from Democrat to Republican and allow equal time of both 
parties?
    Ms. Bordallo. I will set up my ground rules right now, Mrs. 
McMorris Rodgers. We do have our colleagues that are guests 
here, and we welcome them. We have some Subcommittee Members, 
and, of course, the Subcommittee Members have been given the 
choice to ask the questions first. I am now going to recognize 
the gentlelady from California, Mrs. Capps, and then we will go 
back and forth, and I am also going to call on them in the 
order that they arrived, and then we will go back to the 
Subcommittee as well for a second round of questions. I 
recognize Mrs. Capps.
    Mrs. McMorris Rodgers. Madam Chairman, if I may inquire, so 
are you going to go back and forth from Democrat to Republican 
to ask questions?
    Ms. Bordallo. Well, we have done our first round of 
questions with the Subcommittee Members, so now we would like 
to extend our courtesies to the guests here, and they will have 
a first round of questions.
    Mrs. McMorris Rodgers. If I were to leave the room and come 
back, then would I be able to ask another question?
    Mr. Miller. Madam Chair, I think the general order is 
Members of the Committee are given a right to ask--everybody 
gets a first question.
    Ms. Bordallo. That is right.
    Mr. Miller. If you want to go to the guests, they get a 
first question, and then you go back and alternate it again.
    Ms. Bordallo. That is exactly what I--
    Mr. Ortiz. And I believe the definition of ``guest'' is 
someone who is not on the Committee at all. Normal procedure, 
at least in my other committees, is you first go to members of 
the Subcommittee, then you go to members of the full Committee, 
and then you go to members who do not sit on the Committee.
    Mrs. McMorris Rodgers. Well, Madam Chairman, if I might 
just explain, there have been mixed messages sent to this side 
of the aisle, as far as this hearing is concerned. I am the 
Ranking Member of the Water and Power Subcommittee, and I had 
asked for this to be a joint hearing, and we were told that was 
rejected, that request.
    Members on our side have received mixed signals as to 
whether or not they would be allowed to participate in today's 
hearing, and it appears that Members on one side of the aisle 
were given a clear message, and Members on the other side of 
the aisle were not given a clear message, and so that is the 
basis of my concern this morning.
    Ms. Bordallo. If I could answer your question, everybody is 
welcome to these Subcommittee meetings, including the 
Subcommittee Members, of course; Members of the overall 
Committee and outside committees. So I do not know why you 
received a mixed signal. I do not know, but every one of our 
colleagues are welcome to any of these Subcommittee hearings.
    I now recognize the gentlelady from California.
    Mrs. Capps. Thank you, Madam Chairwoman. I recently met 
with several of my constituents who are commercial fishers at 
Morro Bay. We discussed long-term, comprehensive plans to help 
recover these three major West Coast river systems. When I said 
that we needed to do this so their kids could fish the same 
waters off our coast, they told me they do not want their kids 
going into this industry. They said it is too hard, too 
uncertain. I could not believe what I was hearing because so 
many of them had learned how to fish from their parents. It is 
an industry that has been passed down, as you know, from 
generation to generation.
    Instead, they want to send their kids to college so they 
could go into a different line of business. To me, this is very 
sad. Because of the recent shutdowns, they cannot afford to 
send their kids to college, and that is why this hearing is so 
necessary. We need to understand why these stocks are 
plummeting and what the impact is to our communities.
    Let me start with my first question, Mr. McInnis, and I 
would like to ask it and then save some time for one--I do not 
want to use more than my time, but I want to have a follow-up 
question with Dr. Williams.
    Mr. McInnis, it seems to me that we are spending an awful 
lot of Federal funds to restore salmon populations, but the 
actions by the Federal government over the past decade have 
failed to stop or reverse the decline of listed stocks. To put 
a finer point on it, why are we spending so much on recovery 
and getting so little in return?
    Mr. McInnis. Thank you for that question, Madam 
Congresswoman. We have had some successes in restoring and 
rebuilding some of the listed populations. Winter Chinook in 
the Central Valley and spring Chinook in the Central Valley 
have increased since their listings, in some cases, manyfold in 
the case of the winter Chinook. These are some progresses. We 
are learning as we go, of course, in some of these actions.
    One of the things that is happening right now is that we 
are conducting our recovery planning exercises for listed 
salmon species up and down the coast, and a major portion of 
that effort is a threats analysis to show what are the biggest 
threats to these listed species and to help us to identify 
which things we should be tackling first.
    Mrs. Capps. Thank you, and I am sure the presence of my 
colleagues here who have similar communities to mine would 
indicate that this should have been started a long time ago and 
that we should be bearing some results by now for the salmon.
    Dr. Williams, would you care to comment? Are there new 
salmon recovery measures we should be employing that exist 
already that differ from previous failed actions, or are there 
projects we should plan to continue funding despite the 
questionable results?
    Mr. Williams. That is a very good question because we are 
spending a lot of money on salmon recovery. I believe there are 
areas where we need to change our methods, change our approach, 
particularly in the mainstem river systems, and we are looking 
at passage around dams and diversions essentially from streams.
    Those areas are ones that I do not believe we have done as 
much as we could to recover the fish. We have some very good, 
tried-and-true restoration methods, and a lot of our money that 
is being spent is very good. I think the important point that 
you raised on the Sacramento and Mr. McInnis raised is very 
illustrative in this, in that when the winter Chinook was 
listed, the very first salmon stock that was listed, the one in 
Sacramento River, there was actually a lot of progress made 
that benefitted a lot of the various Chinook salmon in the 
Sacramento River. That stock was listed in 1989 and 1990, but, 
recently, the diversions seem to have offset lots of 
improvements, as well as ocean conditions. So we made progress, 
but then we have stepped back.
    Mrs. Capps. So it has been piecemeal, or it is not 
comprehensive. So, with your history of working first for the 
Federal government and now for a conservation organization, you 
must have something to share with us on how we can build better 
and broader alliances and coalitions to aid in recovery and 
restoration efforts. It is going to take all of the partners 
working together, isn't it?
    Mr. Williams. That is exactly right, and I think there are 
some very good examples. I believe the Klamath group that is 
now working, a very mixed group of water users, agricultural 
community, conservation community, fishers of various sorts; 
those are the kinds of things that we need; the North American 
Salmon Stronghold Partnership that is being formed to focus on 
protecting the best remaining populations.
    So I think we have a few good examples, and we need to move 
forward with those.
    Mrs. Capps. Thank you very much.
    Ms. Bordallo. I thank the gentlelady from California.
    Now, we will begin with, first, the overall full Committee 
Members who are here. The first one to arrive was Mr. George 
Miller from California.
    Mr. Miller. Thank you, Madam Chair. Thank you very much for 
having this hearing.
    Mr. McInnis, I guess the first question is, how can you 
assure us that you are going to recapture NOAA's scientific 
independence and integrity in this process? We have seen that 
drawn into question now several times by the courts in dealing 
with the previous biological opinions, and as we have just 
found out, appropriating, some one said, in the last few years, 
$230 million for fisheries that have been declared disasters 
twice now.
    How do we get back to the point where, as the courts have 
told us, we would get back to relying on the best science 
available, which was not done in the previous Biological 
Opinions? You state in your statement that you are 
reconstructing this process, but how can we be assured that 
that is going to be the case?
    Mr. McInnis. Thank you, Congressman, for the question. The 
answer that I can give you is that we are in the process of 
producing our first Biological Opinions coming through our new 
process of internal clearance and review and also the external, 
scientific, independent reviews. We will have those products on 
the table within the next few months. The Columbia River 
products are already there. The Klamath River is following 
shortly, and the Central Valley operations--
    Mr. Miller. We have a delta conservation plan being 
developed. What is the involvement of NMFS with that process?
    Mr. McInnis. NMFS is participating in that to the level 
that we have the ability and the staff to do so.
    Mr. Miller. I guess what I want to know is, are you 
developing a set of standards of flows and management that will 
provide for the conservation of the species because what that 
group is doing is deciding how much water they can take out of 
the delta? But at some point, who checks to decide whether that 
is consistent or inconsistent with the recovery of the species, 
which is the standard?
    Mr. McInnis. That would be part of our Biological Opinion 
for the operations of the Central Valley Project.
    Mr. Miller. You sort of have people moving along, deciding, 
given what the courts have done now, how can they take as much 
water as possible and not run afoul of the court, which is 
going to rely on your standards? So are you developing a model 
of the delta and the flows and others independent of that 
decision because those two actions may not be consistent?
    Mr. McInnis. Our modeling in our work on the impact is 
interwoven with the proposal of the water managers.
    Mr. Miller. But the water managers are all customers, with 
all due respect. You have a group of customers sitting down 
deciding what the take is going to be. That is different than 
the independent, scientific analysis of what the system can 
stand and manage and provide for the recovery that you are 
under mandate to provide. You are there because of the Section 
VII consultation. This is a threatened, endangered species. It 
has been listed.
    Mr. McInnis. Yes. Not the fall-run Chinook, but the other 
Chinook runs in the Sacramento and Central Valley--
    Mr. Miller. So it would seem to me that there would be a 
development of independent, scientific standards, as was 
originally done and then overruled by the political operations 
in the organization, and then the question of whether or not 
the desire to transport additional water out of the delta is 
consistent with that or not, not whether or not the standards 
are consistent with the desire to export the water.
    Mr. McInnis. Section VII under the ESA is a reactionary 
provision. We are given a proposal by a Federal agency that 
says, This is the action we propose to take. It is our 
responsibility to determine whether that action will jeopardize 
the continued existence of the species or their habitat.
    Mr. Miller. Why aren't the fishers included in that 
process, in the conservation plan process?
    Mr. McInnis. I am sorry. I did not hear.
    Mr. Miller. Why isn't the fishing industry, the fishers, 
included in that conservation plan process?
    Mr. McInnis. They are included. The next step, as I was 
going to say, is our recovery planning process, and that is 
independent of other actions. That is not reactionary. That is 
the National Marine Fisheries Service laying out its 
understanding of the requirements for recovering and eventually 
delisting these populations.
    Mr. Miller. And you developed that absent knowledge of the 
desire to export water from the delta.
    Mr. McInnis. We developed that in full knowledge of what is 
happening in our society, and we will be--
    Mr. Miller. That is not a good answer. I am asking you 
whether or not you developed that absent the demands that 
people say they would like to put on the delta as opposed to 
what it takes to provide for the recovery and the conservation 
of the species.
    Mr. McInnis. We developed that information and those 
standards based on the biology strictly.
    Mr. Miller. Thank you. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman from California.
    Now I ask unanimous consent that Mr. Thompson be allowed to 
sit on the dais and participate in the hearing. Hearing no 
objection, so ordered.
    The next person we will recognize is another Member of the 
full Committee, the gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Madam Chairwoman, for 
holding this hearing. I think it is appropriate and timely.
    I believe there are multiple factors impacting the salmon 
on the West Coast, and, frankly, it is an opportunity here to 
try to focus on the combination of factors that are, in fact, 
impacting the decline of the salmon fisheries.
    I am less familiar with the specifics of the Columbia and 
the Klamath, so, for the purpose of my questions, I want to 
focus on the Sacramento and San Joaquin River systems. As I 
look at the first panel, I think that most of the expertise 
resides with Mr. McInnis, although I would be willing to hear 
any other opinions that the other three panelists have.
    There are multiple factors, as I said, impacting the 
Sacramento and San Joaquin Rivers. As noted by my colleague, 
Mr. Miller, exportation of water certainly is one, but, Mr. 
McInnis, how about the factors of invasive species? How about 
the factors of the diversions within the delta, some 1,600, 
that are unscreened? How about the factors of urbanization of 
growth patterns over the last two decades that has quadrupled 
in the Sacramento and San Joaquin Delta area that has runoff, 
fertilizer road runoff?
    When you compare those other factors, when you look at the 
North Coast streams that have declined as well, the Napa River, 
which has declined as well, that are not impacted by exports of 
water in the Sacramento-San Joaquin system, how do we evaluate 
the levels of impacts?
    Mr. McInnis. Thank you, Mr. Congressman. That is part of 
our recovery planning process. The threats analysis is 
currently underway. There will be a draft released, at least to 
our cooperating agencies, shortly, and we will be looking at 
the nature of all of those threats.
    You have provided actually a pretty good starting list. 
Then we can add to that issues, such as the loss of the 
riparian habitat and all of the up-slope impacts on the river 
systems. All of these things will be considered in that 
recovery plan.
    Mr. Costa. Well, but we are trying to offer remedies, and 
we are in a significant decline. We have banned all fishing on 
the West Coast, and it seems to me that, as we look at interim 
steps and long-term steps, it is akin to trying to fly an 
airplane in terms of offering solutions, in that we are only 
going to use one instrument on our control panel, and that is 
the altitude of the airplane, and we are going to try to fly it 
and offer corrections without addressing the other elements 
that, I think, can impact the salmon fisheries just as much.
    So how do you establish a criterion for how much invasive 
species are impacting the fishery? How do you establish a 
criterion for how much the 1,600 diversions within the delta 
that have no screens, that are sucking up fish, are impacting 
the salmon? How about the impacts of the urbanization that puts 
fertilizer and all sorts of things that run off into the delta? 
What is the science that you are using to measure these things 
by?
    Mr. McInnis. We are, as I said, we are conducting that 
threat assessment. The science is from multiple sources; it is 
not just NOAA.
    Mr. Costa. Well, let me ask the question in a different 
way. How are you working with the different agencies to develop 
a timeline to determine which of these biological studies will 
give us an indication, as policymakers, and we were provided 
$170 million in relief--it has been noted in this farm package 
yesterday, but that is triage. That is to try to deal with the 
immediate impacts. But we have to look at the interim and long-
term solutions.
    So, as we sit here as policymakers, when are we going to 
get this other information?
    Mr. McInnis. This other information will be before you 
within this year.
    Mr. Costa. Within this year, because, as you know, there 
are other impacts, litigation that is being pursued, and there 
are court decisions that are being made, and the courts want 
this decision. I think the legislature in California, as well 
as the Members of Congress that are looking at this, need that 
information as well. We cannot make good decisions without good 
scientific science. Mr. Miller and I may disagree on certain 
aspects, but I think we both agree that we have to have good, 
sound science.
    Mr. Miller. If the gentleman would yield, I think, on this 
one, we agree because I think it goes to the status and the 
state of the delta for all of these cumulative reasons and 
individual reasons, and that is the point. Once you know that 
status, then you have to decide how much additional stress you 
can place on that system until you can start removing what we 
think are some of these additional causes, whether it is 
pumping or in-delta runoffs, all of the things you listed, a 
quite proper list, but that goes to the health of the entire 
system, and that is a severely stressed system. That is the 
point.
    Mr. Costa. My time has, obviously, expired, but I would 
like to ask the Subcommittee to direct questions so that we 
could get timelines from NMFS and the other Federal and state 
agencies on when we are going to receive this biological 
information.
    Ms. Bordallo. No objection. So ordered.
    Now, the Committee Chair recognizes the next Member of the 
full Committee, and that is Mrs. Napolitano from the State of 
California.
    Mrs. Napolitano. Thank you, Madam Chair. Thank you for 
allowing me to participate.
    The Subcommittee on Water and Power has some concerns, or, 
at least, I do as Chair, concerns about how this is going to 
play out in regards to the CalFed program because if the State 
of California decides to end the state's role in CalFed, how is 
this going to affect your programs, the fisheries, a whole 
area? This has been some of the support, if I am understanding 
correctly.
    Mr. McInnis. Thank you, Madam Congresswoman. As we have 
said, and I think we have agreed here, these are broad issues 
that need to be addressed. CalFed was one of the fora in which 
we could address broad conditions with state and Federal 
agencies involved. It is important to continue the discussion, 
whether that label is on the discussion or some other label. 
Currently, the Bay Delta Planning Habitat Conservation Plan is 
picking up some momentum and does address a lot of the broad 
issues that need to be--
    Mrs. Napolitano. But what is going to be the impact?
    Mr. McInnis. I am sorry. I did not hear you.
    Mrs. Napolitano. Is there going to be an impact?
    Mr. McInnis. An impact to the benefit of the fish?
    Mrs. Napolitano. Right.
    Mr. McInnis. We are counting on that. That is what we have 
to achieve in that habitat conservation planning. It would 
actually be eventually a plan that was reviewed under the 
Endangered Species Act, both the state and the Federal 
Endangered Species Acts.
    Mrs. Napolitano. But what role is NOAA playing in the Delta 
Vision process or the Bay Delta Conservation Plan?
    Mr. McInnis. I am sorry. I did not hear your question. I 
apologize.
    Mrs. Napolitano. Is NOAA playing a role in the Delta Vision 
process or the Bay Delta Conservation Plan?
    Mr. McInnis. We are playing a role in that. We have 
representation in those discussions.
    Mrs. Napolitano. OK. Piggy-backing on Mr. Costa's point in 
regard to the effect of runoff, other aspects of impact, on the 
fisheries, on the salmon, what specifically is the role of 
NOAA?
    Mr. McInnis. Our role is multifold in that. Our most clear 
role is where there is a Federal action that is involved, or a 
Federally authorized action, we use the Endangered Species Act, 
Section VII, to consult to ensure that those actions do not 
jeopardize the--
    Mrs. Napolitano. But isn't this part of determining what 
affects the fisheries?
    Mr. McInnis. And we are doing that under the recovery 
aspects of the Endangered Species Act and examining the threats 
overall.
    Mrs. Napolitano. Is part of the problem that you may not 
have enough funding to be able to carry out the programs you 
need?
    Mr. McInnis. The president's budget last year had--
    Mrs. Napolitano. I am not asking about the president's 
budget, sir. I am talking about necessity to be able carry out, 
to then be able to ensure that steps are taken so that we have 
water in the dams, in the rivers, and be able to still protect 
the salmon.
    Mr. McInnis. We are, of course, stretched by the workload. 
As I started to say, the president's budget had an increase. 
Congress, both Houses, passed that increase last year in the 
conference, and the final action that was taken did not make it 
into the final omnibus bill that we are working with right now.
    Mrs. Napolitano. Madam Chair, I would like to submit some 
other questions for the record because I really have not been 
able to fully capture some of the--I just got the witnesses' 
statements, and I have not had a chance to, but I would like to 
submit them for the record, and I thank you.
    Ms. Bordallo. Without objection, so ordered.
    Mrs. Napolitano. I will yield.
    Mr. Miller. Mr. McInnis, you mentioned in your statement 
that the court mentioned in its question of consideration of 
climate change in these new Biological Opinions. Is that, in 
fact, taking place again? Is that going to be a factor? We are 
talking about in relationship to the in-delta factors. Is that 
also now a factor in terms of the survivability of the species?
    Mr. McInnis. That is a factor that we are considering in 
the new Biological Opinion. We have considerable help with 
that. NOAA's broader agencies, other than NMFS, have been 
providing us with the foundational information on climate 
change.
    Mr. Miller. Thank you. I thank the gentlewoman for 
yielding.
    Mrs. Napolitano. May I beg the indulgence for one question? 
Apparently, there has been some information handed to me 
dealing with the Butte Creek habitat, and I would like a 
question addressed to you and maybe have you respond in 
writing.
    The seven-year activities on the record of the decision 
anticipated in 2006 scheduled the beginning of September 2006, 
due to the delays and increased cost of restoration, seeking 
additional funding, and I would like to know if NOAA does or 
does not support this.
    Ms. Bordallo. Thank you. The gentlelady has run out of 
time, and she has asked for a written answer to that question.
    The Chair now recognizes the gentleman from Oregon, Mr. 
DeFazio, who is a Member of the full Committee.
    Mr. DeFazio. I thank the Chair for the courtesy. I have 
thought most immediately we were coming, given the 
extraordinary closure, to discuss Sacramento stocks and their 
collapse, and I guess we have one witness who can address that, 
to some extent, and then mention was made of the closure, 
almost total closure, two years ago, which was due to the 
Klamath stocks, and we have one witness who is addressing that.
    I came in during Mr. Williams' testimony, and I will first 
direct a question to Mr. Litchfield. Mr. Litchfield, I am 
always curious why people focus on the four public dams. To the 
best of my knowledge, the prime spawning habitat was further up 
the Snake and, in fact, is behind the dams that do not have any 
fish passage, the high dams. Is that correct?
    Mr. Litchfield. That is correct. The Snake River fall 
Chinook habitat was the interior part of the Snake River Basin 
above what is called the ``Hell's Canyon complex,'' a complex 
of dams operated by Idaho Power.
    Mr. DeFazio. So my question would be, as I understand, 
those dams are up for relicensing.
    Mr. Litchfield. They are.
    Mr. DeFazio. Are you aware of anyone who has contested 
those licenses to try and remove the private dams that are 
blocking the prime spawning habitat? Why is all of the focus on 
the lower dams, the public dams, which are not blocking prime 
habitat and, in fact, have good fish passage?
    Mr. Litchfield. Well, there is a lot of habitat above the 
Lower Snake River dams in the Clearwater and the salmon complex 
that I think the people that advocate dam removal are trying to 
open up. So there is some habitat there, primarily for spring 
Chinook and steelhead, but I am unaware of anyone who is 
advocating for removal of the Hell's Canyon complex.
    I suspect it is an interesting correlation that may be 
spurious. The salmon runs in the Columbia River happened to 
reach a fairly rapid state of decline in the late 1960s, and 
they declined through the 1970s. That now is highly correlated 
with a change in ocean conditions during that time period. It 
happens to be also the time period where the Snake River dams 
became operational.
    Mr. DeFazio. The upper private dam.
    Mr. Litchfield. No, the lower public dams, the Corps of 
Engineers dams.
    Mr. DeFazio. OK.
    Mr. Litchfield. And so a lot of folks have looked at that 
correlation of dams went in, and runs went down, and said they 
think that is the problem when, in fact, as I said, the 
indications are that it is probably much more attuned to a 
change in ocean survival during that period.
    More recently, NOAA's research center has evaluated the 
survivals through the eight dams, the four lower public dams 
plus the four lower public dams on the Columbia, so the Lower 
Snake and Lower Columbia dams, and the survival through that 
reach now is nearly the same, maybe a little higher in some 
years, than it was before the Snake River dams were completed.
    Mr. DeFazio. OK. The last previous disaster was the 
Klamath, and, Mr. Rode, your testimony addresses that issue, 
does it not?
    Mr. Rode. Yes, it does.
    Mr. DeFazio. It does. OK. So what would you think, since it 
has been a couple of years--I do not know that we know yet, or 
will ever know, what happened to the Sacramento--what did you 
feel was the critical factor on the Klamath when we had that 
huge fish die-off?
    Mr. Rode. Lack of flow. Lack of flow was the only 
controllable factor and was the critical factor. Let me 
paraphrase my comments by stating that weak Klamath stocks have 
been a problem that has impacted ocean fisheries from Monterey 
Bay to Cape Falcon, Oregon, for the last quarter century. This 
is not a new problem.
    The issue we have done a lot of habitat work on the Klamath 
River. You probably recall that Congress passed the Klamath Act 
back in the mid-1980s, a 20-year program to restore the 
fisheries of the Klamath Basin. The Federal government spent 
$21 million, and an equal amount was contributed by the states. 
There has been a whole host of other programs trying to improve 
the habitat, but the one common denominator that has been 
lacking in all of those efforts has been the fact that we have 
not been able to do anything about the inadequate flows.
    Mr. DeFazio. And the inadequate flows, as I understand it, 
come for two reasons. One is upstream impoundment that has 
diverted the irrigation, but also I understand, isn't some of 
the critical coldest and best water from the Trinity diverted 
over into the Sacramento system also?
    Mr. Litchfield. That is true, and we also have extensive 
agricultural diversions on two other tributaries, the Shasta 
and the Scott Rivers. So, combined, that has been the limiting 
biological bottleneck. It is hard to address that. The water 
coming from the upper basin is limited in supply, and it has 
been overallocated, and there just is not enough for fish.
    Mr. DeFazio. But if the government were to initiate a 
program perhaps of, you know, voluntary buyouts or something, 
could that help to recapture some of the water rights?
    Mr. Litchfield. Sure. If you can reduce off-stream demand 
for water, that would improve conditions. There has been talk 
of willing sellers, I think, back as far as 2000, but nothing 
was done about that.
    Mr. DeFazio. I thank the Chair.
    Ms. Bordallo. I thank the gentleman. I would like to make 
an announcement here at this point. I think we have time for 
just a couple of quick questions. We have votes. We have, I 
understand, five votes on the Floor. It will probably be about 
an hour.
    So we are going to have to recess the hearing, but we will 
come back with Panel 1 again, and, right now, I would like to 
recognize Mr. McDermott, if he has a couple of quick questions 
that he would like to get in before going out to vote.
    Mr. Costa. A question, Madam Chairwoman.
    Ms. Bordallo. Yes.
    Mr. Costa. Based upon these votes and the recess, you said 
that we are going to come back to Panel 1 and then do Panel 2.
    Ms. Bordallo. Yes. That is correct.
    Mr. Costa. OK. All right. Thank you.
    Mr. McDermott. Thank you, Madam Chair. I want to 
congratulate and commend the Chairman for having this hearing.
    My bill has been in for a study for four sessions of 
Congress, so this is not some gratuitous thing that we dropped 
in at the last minute.
    I want to talk to Dr. Williams, and I would like the clerk 
to put up on the screen the slide that I have put up there. You 
said that we had a consensus in the community, and I read Mr. 
Litchfield's testimony, and he says that it is salmon harvest 
that is really the problem. But if you look at this slide, you 
can see that the first column is the column of those killed by 
the salmon coming into the dam, the second one is the column of 
those going down the dam, the third one is the salmon that are 
caught in the in-river harvest, and then the fourth column, 
almost nonexistent in all of these studies, is what is caught 
in the ocean.
    The only one that makes any sense at all is the middle one, 
which is the Snake River. That is the only one where there is 
any fishing done out in the ocean. That is the only place where 
salmon are harvested.
    So what I cannot understand is when was the last good study 
done by a noninvolved group? When was the National Academy of 
Sciences or the GAO or somebody who did not have a stake in 
this business, when have we had a study like that?
    Mr. Williams. I honestly do not know when the last 
independent--I guess you could define ``independent'' different 
ways, but I am not sure when the last independent analysis was 
done.
    Mr. McDermott. At those meetings that you describe, where 
there was 90 percent and then 100 percent for dam removal, and, 
by the way, the Spokesman Review has called for a study--that 
is the paper in Spokane--and the Idaho Statesman has called for 
dam removal in Idaho. So there must be some consensus out there 
that has developed, but it is somehow ignored by the marine 
fisheries or NOAA or somebody. Explain to me what is happening 
here.
    Mr. Williams. OK. I think you have kind of hit the nail 
right on the head relative to, at least, the Lower Snake 
system, and there is a strong consensus, I believe, 
scientifically, for the breaching of those lower four Snake 
River dams in terms of the biggest mortality factors and the 
one factor that, frankly, we have not adequately addressed.
    The ocean conditions; we know that they do oscillate, and 
we know that they can be bad at times, but that is the reason 
why we have to focus on the major mortality factors. I think 
this whole question of the scientific complexity; salmon are 
very complex species to manage, so it is the importance that we 
employ the best available science in these Biological Opinions 
and our other management programs and that we focus on the big 
problems and that we put our money where it needs to go.
    Mr. McDermott. The judge has thrown out the NOAA BiOps 
three times. He has now got another one on his desk since May 
5th. What was the matter with the previous ones? What is it 
that NOAA is not looking at that the judge is saying, Hey, you 
guys, you are not paying attention here?
    Mr. Williams. I still think that the big thing and the big 
problem, and I have two big stacks of that May 5th Biological 
Opinion on my desk that I am sort of sorting through right now, 
has been this inability to adequately address the mortality at 
the dams, particularly the downriver migrants, the delayed 
mortality that occurs with some of the passage, the degree to 
which predators can kind of focus in on fish going over the 
dams or through sluiceways. There is a variety of problems 
related to the dams that I still think have not been adequately 
addressed, and I think that is why Judge Redden has been 
sending those back for remand.
    Mr. McDermott. Is that because NOAA is not following the 
law to put that into the BiOp, or is it that it is so 
difficult? In Seattle, we have always got people who want to 
shoot sea lions down by the locks because it is the sea lions 
that are causing all of the problems.
    So I would like to know why, from NOAA's standpoint, have 
they not done that part of the study? Is it just simply 
avoiding the law?
    Mr. Williams. Of course, I cannot speak for NOAA, but I 
know that NOAA scientists have participated in these meetings, 
such as I cited, the Idaho Chapter, American Fisheries Society, 
essentially the biggest recognized group of fisheries 
professionals, and during those meetings, as I said, it has 
either been 90-to-100-percent consensus that those dams are the 
huge problems and the one we have been avoiding.
    Mr. McDermott. How did salmon get considered incidental 
damage in this count? If the dams incidentally kill fish, 
suddenly that does not affect the ESA. How did that ever get 
defined in that way?
    Mr. Williams. Of course, in the Biological Opinions, the 
National Marine Fisheries Service has to look and understand 
whether something is jeopardizing or not, and then, still, once 
they have provided a reasonable and prudent alternative to 
avoid jeopardy, they still have to deal with some level of 
incidental take in their Biological Opinions.
    So, in my perspective, it just has not been something that 
has been adequately addressed.
    Mr. McDermott. The bill that I put in, Madam Chairman and 
Members of the Committee, was a bill originally that had in it 
if the science was correct, then there would be an 
authorization to take the dams down. The bill that is before 
the Congress in this session does not have an authorization to 
take the dams out. It seems to me, Madam Chair, that there is 
no reason that can be put forward why there should not be a 
study. If anybody on the Committee can give us a reason why NAS 
and GAO should not do a study of the Lower Snake dams, I would 
like to hear it.
    Mrs. McMorris Rodgers. Would the gentleman yield?
    Mr. McDermott. I would like to hear from the panel. Mr. 
Litchfield may have an answer for that.
    Ms. Bordallo. I do remind the gentleman that the time is 
up. The clock was not running for about a minute and a half, so 
you are over time now.
    Mr. McDermott. I am so grateful for your efforts on having 
this hearing, Madam Chair, I relinquish my question.
    Ms. Bordallo. I thank the gentleman, but I do invite you to 
come back. We are going to return after the five votes on the 
Floor.
    Mrs. McMorris Rodgers. Mr. Chairman, I would be interested 
in getting the answer. Could we get that answer to his 
question?
    Ms. Bordallo. All right. I will make an exception here. Go 
ahead.
    Mr. Litchfield. I think the question was to me.
    Mr. McDermott. It is to both you and Mr. Williams, but go 
ahead.
    Mr. Litchfield. OK. So my response, Congressman, is that 
millions of dollars have been spent studying dam removal on the 
Snake River.
    Mr. McDermott. Independent dollars?
    Mr. Litchfield. The project was managed by the U.S. Army 
Corps of Engineers. It involved a great deal of public 
participation and input from outside parties. There were 
detailed designs done and developed by engineers of how the 
projects would be removed. There were economic studies 
conducted of what the value might be of a free-flowing river in 
terms of recreation and boating and rafting. So there was a lot 
of effort put into this.
    Mr. McDermott. This was 15 years ago, you are saying.
    Mr. Litchfield. No. I am saying--
    Mr. McDermott. What is the most recent study?
    Mr. Litchfield. This one was done in the late 1990s.
    Mr. McDermott. I have not seen that study because the only 
one I know is 15 years old. I would like to see the one that 
you say was done recently.
    Mr. Litchfield. I would be happy to give you a reference to 
it.
    Ms. Bordallo. All right. I thank the gentleman again, and 
the Subcommittee stands recessed until after the votes, and 
that should be about anywhere from 45 minutes to an hour. I 
would ask the witnesses to please stay and also Panel 2. Thank 
you.
    [Whereupon, at 11:45 a.m., a recess was taken.]
    Ms. Bordallo. Good afternoon. We will now resume the 
hearing on the Subcommittee on Fisheries, Wildlife and Oceans. 
Before we ask the questions this morning, we left off with 
Panel 1, and we still had a number of Members and also guest 
Members here that would like to ask questions.
    First, I would like to ask unanimous consent that Mr. 
Inslee from the State of Washington be allowed to sit with us 
on the dais and participate in the hearing. Hearing no 
objection, so ordered.
    Now I would like to recognize for questions Ms. Eshoo.
    Ms. Eshoo. Thank you, Madam Chairwoman, for extending the 
legislative courtesies that you have to those of us that are 
not Members of either the full Committee or the Subcommittee. 
We appreciate it.
    I want to thank the witnesses for their testimony so far 
today, and I want to make a couple of observations first, and 
that is that I find stunning that the agency that is charged 
with carrying out the protections and really being proactive so 
that we do not face the crises that we have now, or deal with 
the crises that do happen, would have their BiOps rejected by 
the Court.
    When I first came to Congress in January of 1993, I was on 
what was then the Merchant Marine and Fisheries Committee, and 
NOAA was a blue-chip agency, really a blue-chip agency. I think 
that this is, along with the fishing failure, the failure of an 
agency and that there are contributing factors, obviously, to 
that. I do not know if the science is being twisted around, or 
that you are not allowed to do the proper science, or that 
political science may be brought to it, but to have a court 
reject not one, but several, BiOps, I think, is extraordinarily 
instructive.
    I represent a district that has a magnificent part of the 
California coast, and we have many that are engaged in a robust 
fishing industry. There are many businesses that are attached 
to this, certainly boats and restaurants and tourism. In short, 
it represents the livelihood of people, and so what this 
closure, this unprecedented and historic closure, represents is 
real devastation for a lot of people. I think that you know 
that, but I think it is worth restating.
    I would like to ask, Mr. McInnis, you stated in your 
testimony that the loss of all of the juvenile Chinook salmon 
at the delta pumps was below average in 2004-2005 and that you 
cannot verify the degree that delta pumping rates played in the 
decline of the salmon in the Central Valley. Are you suggesting 
that the pumps and out-of-delta transfers are the primary 
reason for the in-river salmon decline in the Sacramento River 
Basin?
    Mr. McInnis. Thank you for that question, Madam 
Congresswoman. I am not making that suggestion, that it is the 
primary cause. It certainly has contributed, as have so many 
other factors, including the loss of essentially 90 to 95 
percent of the natural habitat for Central Valley salmon.
    Ms. Bordallo. I just want to make a comment here that a 
joint U.C.-Davis and NOAA Fisheries study--I am sure you are 
aware of it because of your role at NOAA--shows that of 200 
juvenile salmon tagged with GPS devices only two made it down 
the Sacramento through the delta to the Golden Gate Bridge, and 
there is a poster of that study here that really highlights the 
collapse and, I think, says that this is not just ocean 
conditions, which, it seemed to me, that is what you were 
pointing to in your testimony and perhaps in some of your 
answers to Members. Do you agree? Do you disagree? Do you want 
to comment on this?
    Mr. McInnis. I would like to comment to correct that 
impression, if that is what I have left with you. The concern 
for the ocean conditions was specifically the look that NMFS 
scientists took at the current situation.
    Ms. Eshoo. Where is NOAA going now, given this 
unprecedented closure? You are working on another BiOp. 
Realistically, is NOAA going to play a heavy-hitter's role in 
this? What do you plan to do? What can you do?
    Mr. McInnis. We intend to bring the best science available 
to bear on the questions and make sure that we do our job with 
respect to recovering the endangered species.
    Ms. Eshoo. How long is that going to take? Could you give 
us a timeframe on that?
    Mr. McInnis. I can give you a timeframe on the recovery 
planning activity for the Central Valley, if that is what your 
question is.
    Ms. Eshoo. Well, I know where I want to land. I think you 
know where we need to land, and that is that what is 
contributing to all of the factors that have brought about this 
unprecedented closure, that we reverse this. This is not a case 
where we can afford to put a band-aid on it. What worries me 
is, is there a difference between you doing your BiOp now and 
the ones that you did before? Can you give us some confidence 
that this is not going to be shot down by a court so that we 
can move on?
    Mr. McInnis. We will do our best to make sure that it is 
robust for litigation. As far as the science goes, we have 
improved the amount of the existing science that is available, 
and we have taken steps to correct a couple of deficiencies, 
many of the deficiencies that were pointed out in the review 
that we had done on the previous Biological Opinion, including 
analysis of climate change impacts and a shortened time-step 
analysis of the effects of temperature on salmon in the--
    Ms. Eshoo. My time is up. Madam Chairwoman, thank you again 
for your extending the legislative courtesies to us. We 
appreciate it. Is it the understanding of the Chair that 
Members can submit questions?
    Ms. Bordallo. Yes. That is correct.
    Ms. Eshoo. Thank you very much.
    Ms. Bordallo. I thank the gentlelady. Her time was up, and 
now we go to the acting Ranking Member, Mr. Sali, the gentleman 
from Idaho.
    Mr. Sali. Thank you, Madam Chair. First of all, I referred 
earlier to a report that I had the Congressional Research 
Service do on the generation of carbon dioxide emissions that 
would result from Snake River dam replacement. I would ask 
unanimous consent that that be included as a part of the record 
for this hearing.
    Ms. Bordallo. No objection, so ordered.
    [NOTE: The CRS report submitted for the record have been 
retained in the Committee's official files.]
    Mr. Sali. Thank you, Madam Chair. For the folks from NOAA, 
I want to thank you for the work that you have done to try and 
sort out what is a very difficult situation, along with the 
Corps of Engineers. I guess we all have opinions. My opinion is 
that the troubles we have had, at least on the Columbia and the 
Snake, result more from an activist judge who is trying to 
reach a certain result than it does from the work that you have 
done and the quality of that work, and I want to publicly thank 
you folks for the great effort that you have put to try and get 
the good science.
    I would like to follow up with that. Mr. McInnis, I asked 
earlier, in my question relating to the Sacramento fall Chinook 
stocks, and the question is that those stocks have nothing to 
do with the Columbia and Snake River systems. Is that correct?
    Mr. McInnis. Mr. Congressman, that is correct. There was 
some intermingling at some level in the ocean, but the 
Sacramento Central Valley Chinook are generally caught south of 
Cape Falcon in Oregon, so south of the Columbia River, and the 
Columbia River stocks are generally north of that.
    Mr. Sali. So the discussion about breaching dams on the 
Columbia and Snake Rivers has nothing at all to do with the 
closure south of that dividing line at Cape Falcon.
    Mr. McInnis. The limited fisheries in the ocean off of 
Washington and the very far north tip of Oregon are primarily 
driven by the stocks that are north of the Central Valley, and 
those closures that were required this year were primarily 
driven by limits on endangered and threatened runs in the 
Northwest.
    Mr. Sali. I guess I would like to ask Mr. Litchfield this. 
When that final weir is added to the Fork Dam on the Lower 
Snake, the Corps of Engineers and NOAA project that 96 percent 
of the juveniles will survive passage of those four dams on the 
Lower Snake. Is that correct?
    Mr. Litchfield. That is correct, that 96 percent will 
survive each dam.
    Mr. Sali. And 98 percent of the adult salmon survive 
passage going back up the stream to spawn. Is that correct?
    Mr. Litchfield. Or higher in most cases, although NOAA 
recently found that there are a number of missing adults in the 
area between Bonneville and the McNary Dam that we do not 
really understand where they are going. In past years, they 
have been surviving that reach very well, but, in the last 
couple of years, there have been some significant numbers of 
missing adults.
    Mr. Sali. For the stocks for which restrictions are in 
place for, that part of the West Coast fishery that lies north 
of Cape Falcon, those species enter the Columbia system but 
generally, for the most part, they do not try to spawn upstream 
from Ice Harbor Dam, the lowest of the four dams on the Lower 
Snake. Is that correct?
    Mr. Litchfield. Is that a question to me?
    Mr. Sali. Yes, sir.
    Mr. Litchfield. So you are talking about which stock of 
fish?
    Mr. Sali. The stocks which are north of Cape Falcon.
    Mr. Litchfield. Yes.
    Mr. Sali. For the most part, those stocks do not try and 
make it up past Ice Harbor Dam. Is that correct?
    Mr. Litchfield. That is correct. Most of those fish are 
either Lower Columbia or coastal streams or the Hanford Reach.
    Mr. Sali. I guess the final question is really, then, for 
the species in the West Coast salmon fisheries that have been 
closed or restricted for harvest, really removal of the four 
Lower Snake dams would have no impact on those stocks. Is that 
correct?
    Mr. Litchfield. That is correct.
    Mr. Sali. And I want to ask another question. The 
pinnipeds, the seals and sea lions; am I correct that they 
generally are responsible for about seven percent of the total 
harvest of adults, which would be about the same amount that we 
generally attribute to the tribes up and down the Columbia and 
Snake? Is that correct?
    Mr. Litchfield. Generally, that is the right number, but I 
would characterize it as the Corps' estimates of seven percent 
mortality due to pinniped impacts below Bonneville Dam are 
actually observed impacts. The real impact is, obviously, much 
higher because we cannot see about 150 miles of river that they 
are also working in.
    Mr. Sali. And there would be additional issues relating to 
terns and other birds that exist on the Snake River for 
juveniles or the Columbia for juveniles.
    Mr. Litchfield. There is significant avian predation below 
Bonneville Dam and also up in the Columbia system where the 
Snake and the Columbia merge. There are some islands where 
there are large populations of Caspian terns.
    Mr. Sali. Thank you, Madam Chairman.
    Ms. Bordallo. I thank the gentleman from Idaho, Mr. Sali, 
and now Mr. Miller from California, questions.
    Mr. Miller. Thank you very much, Madam Chairman. I want to 
sort of follow up where Ms. Eshoo was. As I read the court 
opinions and some of the controversy, it is not so much the 
science; it was the use of the science, or the misuse of the 
science. Either people put conclusions on the science that were 
opposed to the underlying science and just found the 
conclusions, Ms. MacDonald or somebody else, and the science 
was not used in a proper fashion. There was not a lot of 
question about the underlying science. Is that correct?
    Mr. McInnis. Congressman, there were questions regarding 
some science that we did not have at the time that we did not 
consider, such as the climate change.
    Mr. Miller. I accept that.
    Mr. McInnis. There were also challenges to our analytical 
framework, as it is termed, as to how we applied the science.
    Mr. Miller. I think we all want to sort of know how is this 
going to work this time? I worry that there is a great possible 
that the science is used to justify a preordained conclusion 
here.
    Mr. McInnis. I assure you, sir, that is not the case. Part 
of the restructuring of the process that we have undergone 
within the National Marine Fisheries Service is the decision on 
signing that Biological Opinion is mine. So I will be doing it 
in the region rather than any participation from our 
headquarters.
    Mr. Miller. I guess it is quite conceivable that when we 
look at this system, as Mr. Costa has pointed out and others 
have in a lot of previous discussions we have had, we have a 
seriously stressed system with respect to the fisheries. It can 
be the smelt, it can be the salmon, all of the species, a 
seriously, seriously stressed system. I would assume that that 
requires that you look at all of these impacts and then try to 
develop the plan and the science that would mitigate those 
impacts so that we can provide for the recovery of the species. 
That is what you try to do.
    Mr. McInnis. That is correct.
    Mr. Miller. Now, in a system that is as seriously stressed 
and the size that the delta is and its impacts through the 
Golden Gate to the fisheries, that is going to require some 
level of sort of multitasking a solution over a period of 
years, and that because there are not screened intakes in the 
delta, or because there is runoff, or because we are pumping 
more water than we have ever pumped before, you have to think 
about that nobody is going to get a free pass here because it 
is about the recovery of the species, in terms of your mission. 
Is that correct?
    Mr. McInnis. That is correct.
    Mr. Miller. And that is why you are there under the 
consultation, and you have been brought in to this because of 
the Endangered Species Act, and that is the process.
    Mr. McInnis. The consultations are a creature that is 
project oriented.
    Mr. Miller. Right.
    Mr. McInnis. Recovery planning is more broad than that--
    Mr. Miller. Right.
    Mr. McInnis.--and gives us the opportunity to look at all--
    Mr. Miller. And those projects and those decisions about 
the operation of the various parts have to then be consistent 
with the science and the recovery, as it dictates what your 
best judgment is at that time for recovery.
    Mr. McInnis. That is correct because that will constitute 
the best information that we have available for those 
consultations.
    If I may answer a question that you have not asked, 
regarding the timing on this, we will have a public review 
draft of our Central Valley Recovery Plan completed and 
available in September of 2008.
    Mr. Miller. OK. Back to the question of this conservation 
plan, as various plans are developed, whether pumping plans or 
management plans or conservation plans which could include all 
of those mentioned, I would also assume that you would want to 
assure that there is full participation by all stakeholders in 
that. My concern is, in the conservation plan, that does not 
appear to be true.
    Mr. McInnis. It has not been true up to this point. The 
work that we have done so far has been with agency scientists 
and university scientists, and it outlined the biological 
portion of this. Now we are moving into what do we take on 
first, and how do we pay for it? That is what the public review 
draft is going to be, essentially the roadmap of how to get 
there.
    Mr. Miller. But that is going to be a comment on the 
findings of the conservation plan, is it not?
    Mr. McInnis. It will be comments on our draft recovery plan 
for the Central Valley Chinook and the steelhead.
    Mr. Miller. I am talking about the proposed HCP--
    Mr. McInnis. The proposed HCP.
    Mr. Miller.--which you will have to make a decision about 
also, whether that is sufficient for the recovery.
    Mr. McInnis. That is correct. That will be part of the 
consideration, to make sure that that HCP does contribute to 
the recovery.
    Mr. Miller. Wouldn't it be important that you also assure 
that it has the widest participation of stakeholders in that 
process so that this is not a biased plan, and then you are 
asked to make judgments on, or a plan without sufficient input?
    Mr. McInnis. At this point, that participation, as I know 
it, is predominantly state and Federal agencies--
    Mr. Miller. Right.
    Mr. McInnis.--and it will move to the next step. Before we 
issue a permit for a Habitat Conservation Plan, it has to 
undergo public review.
    Mr. Miller. Well, I would just like to raise a red flag 
because I think we have a plan here where you have state and 
Federal agencies, and you have the customers sitting down in a 
room and deciding what they can live with, and that starts to 
look like an HCP.
    I just suggest that there are other stakeholders that, if 
you are going to have an HCP, have to have some input as to 
what that HCP should reflect rather than this will allow for 
historical water takings from the delta, exports. I would just 
raise a flag here because--
    Mr. McInnis. Thank you. Your message is received.
    Mr. Miller. Again, I think we were all quite stunned with 
the discovery of what took place by political operatives. I am 
not talking about the professionals. Serious political 
interference here on the Klamath and in the delta. Thank you.
    Ms. Bordallo. I thank the gentleman from California, Mr. 
Miller, and now the gentleman from California as well, Mr. 
Costa.
    Mr. Costa. Thank you, Madam Chairwoman. I want to get back 
to Mr. McInnis in terms of the two points on the line of 
questioning that Mr. Miller was pursuing, one on the Habitat 
Conservation Plan, and what is required under the law to ensure 
that all of the interested parties have an opportunity to 
participate in the input.
    Two, you did not really talk at great length about the 
collaboration effort with regard to the state participants, 
State Department of Fish and Game, State Water Quality Control 
Board, State Department of Water Resources.
    So hold that thought for a moment, but the other three 
gentleman, I want to ask you, this is like a private 
investigation going on, or a public investigation, as to what 
is causing the decline, dramatic decline, of salmon fisheries 
on the West Coast, and certainly every river system, whether it 
be the Columbia or the Klamath or the Sacramento-San Joaquin, 
have circumstances that are unique to those river systems.
    Having said that, it just seems to me, and I would like you 
gentlemen to answer concisely, what other factors are out there 
that there is a common situation that is causing all three 
river systems to experience the same dramatic decline. There 
has got to be something else that has got to be in common 
besides whatever is unique to each of the river systems. Let us 
start, James, with you, quickly.
    Mr. Litchfield. All right. Thank you for the question. The 
Pacific Northwest, the way we have approached it, is that it is 
a ``4-H problem,'' we call it. It involves habitat, hydro 
power, hatcheries, and harvest. I would add there is a fifth H, 
which is really humans. So human impacts are fairly broad 
across the landscape and even in the ocean.
    When you look at common factors that are affecting these 
fish, it varies by tributary and by stock. I can give you an 
example. This year, in the Columbia, Chinook are doing quite 
well in the Columbia this year. Klamath River Chinook are doing 
quite poorly. They are more like the Sacramento Chinook, and we 
do not really understand why. They enter the ocean at different 
times. They go to different places. They may have encountered a 
group of predators. We just really do not understand.
    Mr. Costa. All right. Mr. Williams?
    Mr. Williams. Yes. Thank you. Certainly, the science of 
each river is different. These are all very complex questions 
which just point to the fact of the importance of science in 
these debates.
    Climate change is certainly affecting all of these systems, 
and it is not just the ocean, but in the freshwater 
environments as well.
    Mr. Costa. They talk about the snow pack in the Sierra and 
elsewhere may come later or may come at shorter time intervals, 
and the runoffs may be much more rapid.
    Mr. Williams. Exactly, exactly. Reduced snow pack earlier, 
timing of runoff lower--all of those things.
    Another thing they have in common, frankly, is that the 
mainstem river systems are not in as good condition relative to 
the headwaters.
    Mr. Costa. OK. And what about the upwelling effect that 
they talk about in terms of the nutrients available out there 
in the ocean for the juvenile salmon?
    Mr. Williams. Right. The ocean conditions do oscillate in 
terms of their productivity, based on upwelling and these sorts 
of things from north to south.
    Mr. Costa. Do you think that is a factor on the West Coast?
    Mr. Williams. Sure. I think it is a factor, and I think one 
of the lessons we have learned from watching the ocean 
conditions is the value of maintaining high-quality habitat 
conditions on the freshwater side.
    Mr. Costa. Mr. Rode?
    Mr. Rode. I agree with what Jim and Jack just said, in 
large degree. On the Klamath, for instance, and that is 
including the Trinity, the major tributary to the Klamath, the 
predominant race of Chinook salmon at one time was spring 
Chinook, and they have been all but eliminated. There is a very 
small remnant population in the Trinity, and we have a 
population of maybe a few hundred fish left returning to the 
Salmon River.
    What is interesting about that race of fish is that, for 
instance, on the Salmon, the river is almost entirely in 
wilderness designation, so the tributary conditions are quite 
pristine, yet we see these fish continuing to decline because 
they have to enter the Klamath River, the mainstem.
    Mr. Costa. Could you do a follow-up on the written thing 
because my time is getting close to expiring, and I would like 
to ask Mr. McInnis to go back to my two points on the state 
collaboration and the other area, quickly.
    Mr. McInnis. The collaboration on the Bay Delta Habitat 
Conservation Plan is broad. It does include the agencies that 
you have mentioned. When we do get to the point of having a 
permanent application submitted, there will be permits for the 
Fish and Wildlife Service, for the National Marine Fisheries 
Service, and through the state process as well.
    Under our requirements, before we issue a permit, we will 
have to look at it under the National Environmental Policy Act, 
as well as the Endangered Species Act, and there will be 
broader public participation.
    Mr. Costa. And those are state and Federal environmental 
laws that you have to prescribe by. Right?
    Mr. McInnis. Yes, sir.
    Mr. Costa. Could I have just one final question, Madam 
Chairman?
    Ms. Bordallo. You can go ahead.
    Mr. Costa. This is a general question. I know that in the 
late 1990s, because I was a part of an effort, working with my 
colleagues here--I was in the state legislature at the time--
there were hundreds of millions of dollars provided on the 
Federal level, and then we passed two bond measures, you may 
remember, in California in 1996 and in 2000 that I authored 
that provided hundreds of millions of dollars for fishery 
restoration.
    Why do you believe, after those efforts that took place 
within the last 10 years to provide significant state and 
Federal dollars, we were unsuccessful at trying to stymie the 
decline of these important salmon fisheries?
    Mr. McInnis. Mr. Congressman, there are many, many sources 
of mortality for these fish. The fish that we focused on in 
those recovery plans, in those actions, were primarily the 
winter Chinook and the spring Chinook, and we have had some 
success in building those populations back up. In the case of 
winter Chinook, the population has gone from about 200 spawners 
up into the multiple thousands, up to 10,000, as recently as 
2004-2005.
    So we have had some success. This particular collapse of 
the fall Chinook in the Sacramento Valley, after having been at 
a high level of 770,000 to 780,000 spawners as recently as 
2002, is something that we are still looking at. We have a NMFS 
panel that is leading a thorough analysis and will be 
delivering their cause-and-effect relationships, their 
analysis, at the close of this year, probably in November.
    Mr. Costa. Thank you.
    Ms. Bordallo. I thank the gentleman from California and now 
recognize the gentleman from the State of Washington, Mr. 
Inslee.
    Mr. Inslee. Thank you. I want to ask some questions about 
the impact of climate change on habitat. I am just going to 
read a quote, and I am actually not sure who the quote is from, 
but I want to ask if anyone disagrees with it.
    ``For specific salmon and steelhead, climate change will 
result in warmer waters, reduced snow packs, earlier spring 
runoff, reduced summer flows, more floods, more drought, and 
more wildfires in their watersheds. Changes in wind patterns 
will, in turn, impact oceanic currents and offshore 
conditions.''
    Does anyone on the panel disagree with that statement? No 
one is indicating they disagree with that statement, so that is 
a remarkable degree of scientific consensus.
    The reason I ask you that is, despite the fact that we have 
this scientific consensus, the 2008 Columbia-Snake River BiOp 
assumes that climate conditions in the Northwest will get no 
worse than those experienced during the past three decades. I 
am just wondering how we can base a BiOp on a scientific 
assumption that nobody here agrees with, namely, like, it is 
not going to change.
    All of the science indicates it is going to change. Most of 
it that I am aware of suggests, in a negative standpoint, as 
far as water temperatures, nutrient levels caused by different 
upwelling patterns, reduced summer flows, more floods, more 
drought, more wildfires. How can we have a BiOp based on such a 
grossly false assumption? Does anyone want to suggest how we 
can have a BiOp like that?
    Mr. Litchfield. Congressman, I think it is a matter of 
timeframe. The first statement, I think I recognize it. I think 
it is in an ISAB, the Independent Science Advisory Board Review 
of Climate Change. It is a very important document. It came out 
this year. But the timeframes they are talking about are 50 to 
100 years from now. The Biological Opinion that NOAA just 
adopted and provided to the courts has a 10-year timeframe. It 
goes from now to 2018. There will then be a need for a new 
Biological Opinion, assuming that this one meets court 
approval.
    So the timeframe of 10 years; none of the scientists that I 
am aware of are predicting that there will be that rapid a 
change in snow pack, runoff, water temperatures in the 
Northwest to have a significant change from what we have 
already seen, and if you go back to the historical record, we 
saw a very low productivity period from the eighties into the 
mid-nineties.
    Mr. Inslee. Well, I think that is totally ignoring what I 
am experiencing in living in the State of Washington. You know, 
I just cannot see how you conclude other than we are not 
already experiencing, with a high degree of probability, some 
changes in our climactic systems, including upwelling systems 
associated with wind. Maybe you cannot say it beyond a 
reasonable doubt, but it is entirely consistent with what the 
models predict.
    I have just lived through rain incidents that reminded me 
of Bali or something or Indonesia compared to Seattle. Seattle, 
you know, it only rains once, which is all winter, and it just 
drizzles. But in the last two years, we have had rainstorms 
that are entirely consistent with the models. They closed Mount 
Rainier National Park for the first time in 120 years. It was 
closed. It was wiped out by these horrendous rainstorms.
    I can tell you, we are experiencing these changes, humans 
are, and if humans are, I will bet you salmon are, too, and I 
just think it is remarkable that we have not built that in, to 
some degree, in the BiOp at all. As I understand it, the BiOp 
basically just goes off on this assumption that there will not 
be any changes in the next 10 years, and they are already here.
    I mean, does anybody disagree that we are already seeing 
changes that have been observed that are consistent with what 
the models predict? Does anybody disagree with that? Dr. 
Williams, it looks like you have a comment.
    Mr. Williams. I do not disagree at all, but I do have a 
comment. I think you are exactly right. I think we see in 
numerous places, both in the freshwater arena and in the 
oceans, climate change is already occurring. We have a dead 
zone that has been forming off the Oregon coast for the past 
several years because of changes in ocean currents. It has 
nothing to do with pollution. This is sort of a new phenomenon 
of dead zones that seems to be consistent with what scientists 
predict on climate change.
    I was reading some work just the other day showing insects 
in streams, adult insects emerging much earlier, which is part 
of this change in timing from reduced snow pack, earlier 
runoff. So we are seeing these things. In fact, they have been 
occurring, I think, for several years. The indications are they 
are going to get much worse, so I agree completely. Trying to 
ignore or minimize these changes is going to have critical 
consequences for salmon.
    Mr. Inslee. Yes.
    Mr. Litchfield. I would like to add, I do not disagree with 
any of that, but there is huge variability in a natural 
environment that affects these fish. For example, this year, as 
you know, in the Pacific Northwest, we are experiencing what is 
predicted to be an average water year. We have tremendous snow 
pack in the Cascades.
    So for this particular year, it looks like we are going to 
get nearly average flows and, I would expect, average 
temperatures in the mainstem Columbia and Snake Rivers this 
year.
    So the problem is, yes, I think changes are occurring, but 
how they will express themselves in the river environment where 
NOAA's Biological Opinion applies is really the major 
uncertainty.
    Mr. Inslee. Well, I just think this is one of those pieces 
of the huge jigsaw puzzle of lost opportunities during the last 
eight years to save the planet and America from a very 
dangerous change. I think it is very sad, and as a person who 
has grown up with salmon as part of our culture and legacy in 
the Pacific Northwest, it is very, very sad. Thank you.
    Ms. Bordallo. I thank the gentleman from Washington, and I 
wish to thank all of the other Members that were here earlier 
for their questions and the witnesses on the first panel for 
their testimony. We greatly appreciate it.
    The Chairwoman now would like to recognize our second panel 
of witnesses, and I do wish to thank the first panel for being 
so patient, waiting for the voting to take place and so forth. 
So thank you again very much on behalf of all of us.
    As they are seated, I will introduce them. The witnesses on 
the second panel include Ms. Laura Anderson, Local Ocean 
Seafoods; Mr. Roger Thomas, Golden Gate Fishermen's 
Association; Mr. Joel Kawahara, the Commercial Salmon Troll 
Fishermen; Mr. Richard Pool, Pro-Troll Fishing Products; and 
Mr. Jason Peltier, representing San Luis Delta Mendota Water 
Authority.
    I guess one thing for sure during this second panel: You 
will only have to face me for now. I do not know. Thursday, 
ladies and gentlemen, is a very busy day in Congress, so we are 
going to try to have our Subcommittee meetings earlier in the 
week from this time forward.
    I now recognize Ms. Anderson to testify for five minutes, 
and I will note again, I do watch the time. You have five 
minutes, and the red timing light will turn on, and the light 
in the middle means that you have one minute left--it is the 
yellow light--and then when it turns red, you know your time is 
up.
    So, again, I would like to introduce Ms. Anderson. Please 
begin.

STATEMENT OF LAURA ANDERSON, RESTAURATEUR AND WHOLESALER, LOCAL 
                         OCEAN SEAFOODS

    Ms. Anderson. Thank you, Madam Chairwoman. My name is Laura 
Anderson. I own and operate Local Ocean Seafoods. We are a 
seafood restaurant and fish market, formerly a wholesale fish 
dealer, in Newport, Oregon.
    My business serves about 10,000 customers each month. We 
grossed about $1.5 million in sales last year off of local 
seafood. I am also the daughter of a commercial salmon 
fisherman. I started salmon fishing with my dad when I was 14 
years old. He fished with his father, starting when he was 11 
years old.
    I started Local Ocean Seafoods in 2002. I was only 31 years 
old. I am what the media likes to call a new generation of 
entrepreneurs, ``natural capitalists,'' ``socially responsible 
business.'' For those of us and thousands like us, salmon means 
business, family wage jobs, cultural heritage and pride for our 
coastal communities, as well as a delicious and healthy 
sustainable food source for our nation. My business 
demonstrates this reality, and there are many other examples 
like it along the Pacific coast and throughout the nation.
    Although the restaurant just started in 2005, we actually 
started out in 2002 buying and selling wholesale salmon. My 
very first year, I started with a little over $100,000 in 
sales, but it was obvious that the demand was there, and by the 
second year, my sales had grown by 350 percent. By the end of 
my third year, I was selling almost a million dollars in salmon 
wholesale.
    So what started out as me driving a flatbed pickup with a 
few hundred pounds of fish up to Seattle quickly became 
sourcing five to 8,000 pounds a week and mainline trucking it 
for customers that were varied: Whole Foods Market, Nationwide, 
the World Famous Pike Place Market. I had about 30 chefs in 
Portland, Oregon, that I was servicing as well.
    It is just not an option to be in the wholesale business, 
particularly in the last three years. Once the restaurant 
opened in 2005, it was everything we could do just to source 
enough fish to keep our fish market and restaurant supplied 
with salmon. We actually captured about 15 percent of the local 
harvest last year, and that was just enough to keep our fish 
market and restaurant going.
    So a little bit about my current business, in terms of the 
impacts to communities like mine. Out of my sales, salmon 
accounts for a pretty large part of it: about 37 percent of our 
high-end dinner entrees, 18 percent of our sandwiches, 22 
percent of our fish market, zero percent of our wholesale now.
    When a consumer spends a dollar in my restaurant, about a 
third of it goes to pay staff and employees. We provide good 
family wage jobs and health insurance for about 35 people in 
our community. We also spend about a third of that dollar 
paying the fishermen for the product that they brought in, and, 
of course, they, in turn, spend these dollars in our community 
even further.
    What happens at the end of the day is I am lucky if I have 
about six cents of that dollar left as profit that I need to 
expand to buy new equipment and to continue to innovate in what 
is a very risky business. I am concerned that salmon represents 
a big chunk of that six percent that I am counting on for this 
year.
    I do want to say that the losses do not stop at the bank. 
Preserving and protecting salmon for human consumption is a lot 
more than just the economy, and it is a lot more than just a 
wistful environmental plea or some kind of a romantic notion. 
We have a valuable food economy, culture, and tradition in my 
family that spans three generations.
    I wanted you to know that I speak not only for myself, my 
employees, and the 100,000 customers that we serve every year. 
There were 200 chefs and food service professionals that signed 
onto a letter to Congress last year pleading for improved 
management of salmon. Those restaurants are all the way from 
Nora's here in Washington, D.C., all the way to Higgins in 
Portland, Oregon. If you multiply the impacts to my business by 
just these 200 restaurant businesses that are also affected, we 
are talking about tens of thousands of jobs and millions of 
consumers, in addition to the fishermen that are affected by 
this crisis.
    I do want to say that, in the end, I think that Congress 
and NOAA should recognize that the failure to act is a huge 
economic and social injustice. The fishermen in the coastal 
communities and the consumers are bearing the brunt of what, in 
my mind, seems to be bargains and deals that have been made for 
limited water resources, and we can expect that in the future 
the nature of water shortages in the West is going to get 
worse.
    Are we simply going to allow our rivers to dry up and watch 
our natural resources go with them? I certainly hope not. Thank 
you.
    [The prepared statement of Ms. Anderson follows:]

   Statement of Laura Anderson, Owner/Operator, Local Ocean Seafoods

Synopsis
    1.  Salmon mean business, family wage jobs, cultural heritage, and 
pride for our coastal communities as well as a delicious, healthy, and 
sustainable food source for our nation. My business demonstrates this 
reality, and there are many other examples like it all along the 
Pacific coast and throughout the nation.
    2.  NOAA's failure to adequately protect the rivers where salmon 
reproduce is contributing to serious, ongoing, coast wide declines in 
salmon. Coastal communities, seafood related businesses, and American 
consumers are paying a considerable economic, cultural, and social 
price for these declines.
    3.  Going forward, Congress owes it to our region and the country 
to hold NOAA accountable for following the science and the law, and to 
protect and invest in the river resources salmon need to thrive. 
Restoring healthy salmon populations on the Columbia, Klamath, 
Sacramento, and other rivers will be a considerable task, but it is 
worthwhile. We can solve this problem if we are willing to follow the 
science, existing law, and the basic rules of fairness and balance.
1. Introduction
    My name is Laura Anderson. I own and operate Local Ocean Seafoods. 
My business is a seafood restaurant and fish market in our port town of 
Newport, Oregon. We serve premium quality, local and sustainably 
harvested seafood to about 10,000 people each month.
    I started the business in 2002. I was 31 years old. I am what the 
media likes to call the new generation of ``natural capitalists'' or 
``socially responsible business''. We know that we need to make a 
profit to stay in business, but we also recognize that we there are 
limits to the natural capital on which our business depends, and that 
we must respect the social and cultural context within which our 
business operates.
    I am the daughter of a commercial salmon fisherman. I started 
fishing with my dad, Roger Anderson, when I was 14. He started trolling 
with my grandfather, David Anderson, when he was 11. Salmon was my 
bread and butter growing up, eventually putting me through college 
where I earned a degree in biology. After two years in the United 
States Peace Corps, working with Filipinos on coastal management 
issues, I returned to Oregon and completed a Master's Degree in marine 
resource management. Recognizing that the majority of my college 
classmates were angling for Federal and State fishery management jobs 
(presumably to work on habitat and harvest issues), I opted to make my 
mark in the business community, working on economic and marketing 
issues.
    I started Local Ocean Seafoods with a commercial fisherman, Alan 
Pazar, as my business partner. At the time salmon were still receiving 
low commodity-based prices and we wanted to provide more selling 
opportunities for our local fleet. I'll talk about the rise and fall of 
our wholesale salmon business in a moment, but first I would like to 
talk about our current business.
    The people who come and eat in my restaurant and shop at my fish 
market are one of two types: locals or tourists. The locals choose 
Local Ocean Seafoods because they know when they spend their money with 
us they are getting the freshest, best quality product available, often 
caught that day as well as spending their money within their local 
economy and supporting their commercial fishing fleet.
    Tourists come to Newport to experience a part of coastal culture. 
Seafood, and salmon in particular, is fundamental to that experience. 
They eat at Local Ocean because they want an authentic experience, 
consuming seafood that is both local and sustainably harvested.
    For both these groups, salmon has been a natural and integral part 
of that experience. That is until now.
    I recognize that my customers often feel conflicted about consuming 
seafood and salmon in particular. On the one hand their doctors have 
told them to eat more seafood because of its unsurpassed nutritional 
content--it is the best source of Omega-3 fatty acids that protect 
against heart disease and other chronic illnesses. They love the flavor 
and the simplicity of preparation as well. On the other hand they are 
concerned about the sustainability of the resource. They hear words 
like ``overfishing'' and ``threatened and endangered species'' and fear 
that they may be consuming the very last Snake River salmon on the 
planet.
    Their confusion is compounded by sound bites like that from Jim 
Balsinger, Acting Administrative Assistant for National Marine 
Fisheries Service. Last week he was quoted in papers across the country 
as saying, ``It's a tough decision, but the condition of the salmon 
fishery forces us to close most of it to ensure healthy runs of this 
valuable fish in the future.''
    We agree with the scientific consensus that taking every last 
salmon fishermen off the ocean will not be enough to ``ensure healthy 
runs in the future''. That, in fact, the biggest thing we can do for 
salmon is restore adequate flows of clean water in free flowing rivers 
where salmon reproduce. A responsibility that is well out of the hands 
of the fishing community. Yet we are ones who bear the burden, 
economically and culturally, when the salmon decline or go extinct.
2. Local business bottom line
    When a consumer spends a dollar in my seafood restaurant about one 
third of it goes to labor. I employ upwards of 35 people in the summer 
months in my operation. I provide good paying jobs, health insurance, 
and a safe and fun working environment. Last year I paid out about a 
half a million dollars in payroll to folks in our local community.
    Another 33 cents of the dollar goes to fishermen who harvest the 
seafood. We pay top dollar, often more than our port's average price 
for delivering us premium quality product.
    The employees and the fishermen take those Local Ocean Seafoods 
checks to the bank and spend them on more local goods and services thus 
circulating those consumers' dollars further. Just this week the owner 
of a local truck supply and repair business told me that he believed 
that about 15% of his decrease in business last year was a result of 
the salmon disaster.
    The other 34 percent of the dollar covers all the overhead, state 
and federal taxes, rent and utilities, banking fees, insurance, 
supplies and the like. At the end of the day, our restaurant is doing 
well if we retain 6 cents for each dollar a consumer spends in our 
restaurant.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Now lets see what that looks like without salmon. Obviously there 
are no consumers purchasing salmon. That means that the consumers will 
go elsewhere and find a lower quality product, perhaps imported farmed 
fish, or week(s) old Alaskan salmon flown down to the lower 48. I now 
have less money to payout to staff. No money to pay out to salmon 
fishermen. And my bottom line suffers, making expansion, capital 
equipment purchases or other improvements difficult if mot impossible.
    In 2007, Local Ocean total sales exceeded $1.5 million. Salmon 
accounts for a large part of our daily sales. For dinner entrees in its 
price category ($15 and up) it represents 37% of sales. For sandwiches, 
our Wild Salmon Burger is 43% of sales. In our retail fish market, 
whole fish, fillets, smoked, and canned product collectively represent 
22% of sales.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

3. A brief salmon history for Local Ocean Seafoods
    Although our restaurant and fish market just opened in 2005, Local 
Ocean started buying and selling salmon wholesale in 2002. We started 
with a mere $122,000 in sales our first year. By year two the customer 
demand for salmon increased our sales 350% to $425,000. A typical 
weekly salmon operation involved sourcing up to 10,000 pounds of fish, 
offloading and boxing the product in Newport and shipping it to a 
freight forwarder in Seattle. Once the product reached Seattle it was 
released for pick up our regular customers.
    In 2004 sales grew 44%. We were servicing Whole Foods Markets 
nationwide as well as regional specialty markets like the world famous 
Pike Place Market in Seattle. We also regularly serviced over twenty 
white table cloth (Would ``high-end'' be better? ``White table cloth'' 
is a common food industry term but is possibly unknown to 
others.)restaurants in the Portland area.
    I was amazed at how quickly the demand for our product grew. What 
started as driving a couple thousand pounds of salmon the 300 mile 
journey to Seattle in iced totes on the back of a flat bed truck, 
quickly became mainline trucking of 5,000 to 8,000 pounds a week.
    It has not possible been possible to be in the wholesale business 
in the last three years. Once our restaurant opened in 2005 it was 
everything we could do just to keep us supplied with salmon. We were 
buying as aggressively, capturing about 15% of the local harvest.
    If we were still working exclusively in the wholesale market we 
would have been out of business two or three years ago. And in fact I 
have seen a number of wholesale businesses fail in this time. People 
doing the exact same thing I was--working with high quality fishers to 
get the best possible product into the best paying markets, and trying 
to make a living doing it. Now they are working for larger seafood 
corporations or not working at all. 


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    You may ask, ``why not sell your customers something else, some 
other species of fish?'' To this I answer with an analogy: Imagine you 
are getting married and want to buy your beloved a diamond ring. But 
the storeowner tells you, ``I am sorry sir, all the diamonds are now 
being diverted to fuel the new `Diamond Energy Generation' plant. You 
can either have a fake cubic zirconia or you can have another one of 
our other lovely gems, perhaps a ruby, an emerald, or a sapphire.''
    You may respond, as many of our customers do, with outrage, ``But a 
diamond is tradition, my father gave my mother a diamond ring, and his 
father to my grandmother. There is simply no substitute, it is the 
best, the one, the only wedding ring for my beloved.'' Or perhaps you 
are not among this contingent, and you complacent nod to storekeeper in 
quiet despair, accepting something less.
    Salmon are no different than that diamond. There will be those 
consumers that choose farmed salmon in lieu of wild, black cod in lieu 
of salmon, or Alaskan salmon instead of local caught. But for the many 
of us who have traditions rooted in salmon consumption, who want the 
best for our healthy bodies and minds, who strive to eat local, 
sustainable foods, there simply is no substitute.
4. The losses don't stop at the bank
    There is much more to this story than mere economic loss. Some 
businesses, like mine, are diversified and will make the attempt to 
sell salmon customers other local seafood products. Some fishermen have 
their boats paid for, a diverse set of gear types to allow them to work 
in other fisheries, and savings in the bank from the good salmon years. 
We will be less impacted than most.
    But that is not the case for many of these businesses. In fact many 
of them are salmon specialists. They don't have other gear, skill sets 
or savings. The loss of the salmon is the loss of their career, a 
career they have worked their whole life for. The loss of the fishery 
can result in a complete loss of dignity and self respect.
    When fisheries fail in coastal communities is invariably leads to a 
cascade of social problems. These include increased drug and alcohol 
abuse, increase domestic violence and crime, and increase health and 
human service problems. Many coastal communities, like the little 
fishing town of Port Orford on the southern Oregon coast are already 
barely surviving at or below poverty level. A blow like this takes away 
what is left of a community's pride.
    Salmon represent so much more than just money in the bank. The 
salmon is a powerful icon for our entire Pacific Northwest Region. 
Coastal people identify with the strength, abundance and resilience of 
this creature that has continued to coexist with humans. Unfortunately, 
our coexistence with salmon is at risk of ending.
    Preserving and protecting salmon for human consumption is more than 
just a romantic notion or a wistful environmental plea, it is an appeal 
to preserve a valuable food economy, culture and tradition--a tradition 
that spans three generations in my family alone.



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

5. What can be done?
    Citizens of the United States have given the responsibility of 
stewarding our fish resources to the National Oceanic and Atmospheric 
Administration. The mission of NOAA Fisheries is stated as 
``Stewardship of living marine resources through science-based 
conservation and management and the promotion of healthy ecosystems.''
    They further state, ``Under this mission, the goal is to optimize 
the benefits of living marine resources to the Nation through sound 
science and management.''
    While it is clearly understood that the agency cannot control all 
the factors that affect the status of fish stocks, they are bound by 
their mandate to use the best available scientific information and 
management tools to provide the best possible outcome for the species. 
The agency has repeatedly failed to do so in the case of salmon.
    In recent years, NOAA's plans to protect the weakest stocks of 
salmon in the Sacramento, Klamath, and Columbia have all been thrown 
out by courts for being scientifically and legally inadequate. This is 
an astonishing record of failure, and the salmon and coastal 
communities have been paying the price.)
    With confidence I speak for me, thirty five people employed at 
Local Ocean, twenty + fishermen from whom we purchase salmon, 25 
regional fish markets we once supplied, 18 chefs to whom we in the past 
delivered fish, and 100,000 customers served at Local Ocean Seafoods 
each year.
    Now multiply my small businesses impact by the more than 200 chefs 
and other food professionals from Nora's in Washington DC to Higgins in 
Portland, Oregon that signed onto the ``Chef's Letter to Congress'' 
last year pleading for improved management of salmon. You now have some 
idea of the impact that this crisis has on consumers. We are talking 
about tens of thousands of jobs, millions of consumers and untold other 
causalities across the country.
    Our local customers are reeling from this loss. Many are from 
fishing families like mine that have long traditions rooted in 
consumption of the first of season salmon catch. Fishermen bartering 
and gifting salmon to family, friends and neighbors is a spring custom. 
Moreover, visitors travel from all over the world to Oregon to 
experience our coastal culture. Seafood, and salmon in particular, is 
fundamental to that experience.
    The pleasures of eating fresh Oregon Chinook salmon range from the 
pure sensory enjoyment of the soft, rich, buttery flavor and flaky 
texture to the deep psychological satisfaction of knowing you are 
putting in your body one of natures most wholesome and perfect foods.
    The truth is that the real loss is more than economic or 
consumptive. It is a loss of coastal culture and deep-rooted food 
tradition. No amount of disaster relief money can replace our salmon 
heritage. Disaster relief checks will not nourish our human community 
with good, clean, fair foods. Nor will they nourish our river 
ecosystems that are dependent on the return of salmon to deliver 
nutrients back from the ocean.
    As business owners and consumers, we implore Congress to hold the 
agency accountable to its purpose, mission and legal mandates. To 
ensure healthy populations of salmon and an adequate supply of free 
flowing, clean water in all our river systems. At least $200-300 
million of our collective coastal economy depends on it. Our Pacific 
Northwest heritage and traditions are rooted in it.
    We recognize that there are competing interests for the fresh river 
and delta water that salmon need. Increasing pressure from urban 
development, manufacturing, agriculture, and hydropower are just some 
of the industries that are vying for this limited resource. However, it 
is stated that the agency is bound to ``[balance] multiple public needs 
and interests in the sustainable benefits and use of living marine 
resources, without compromising the long-term biological integrity of 
coastal and marine ecosystems.''
    It is clear that the decisions of the last 20 years, particularly 
in the Klamath, Columbia and Sacramento River systems have compromised 
the long-term biological integrity of the salmon.
    As we move towards a new paradigm of Ecosystem Based Management 
(EBM), application of our best science will become critical. Indeed in 
the 2007 publication of ``Ten Commandments for Ecosystem Based 
Fisheries Scientists'' (co-authored by three NOAA Fisheries 
Scientists), there is explicit recognition of a fundamental concept in 
resource management: a working perspective that is holistic, risk 
adverse and adaptive. The authors go on to demonstrate the critical 
importance of maintaining viable fish habitats. The EBM paradigm openly 
acknowledges the value of maintaining ecosystem resilience and allowing 
for ecosystem change through time.
    For salmon this would clearly call for ensuring an adequate supply 
of clean, abundant water and spawning grounds in the river. This basic 
provision has proven to be effective in maintaining the ability of 
salmon to deal with changing ocean conditions for thousands of years. 
In terms of EBM, healthy habitat supports salmon resilience even as 
ocean conditions continually change.
    We agree with the majority of fisheries scientists that fishing 
pressure is not the primary cause for the salmon's recent decline. Loss 
of habitat is.
    Please hold the agency and administration responsible for the basic 
requirement. Please hold them accountable for their own Biological 
Opinions.
    Using the tools provided by the Magnuson-Stevens Act, the Clean 
Water Act, the Endangered Species Act, and the Public Trust Doctrine, 
NOAA should ensure recovery of these protected marine species without 
impeding economic and recreational opportunities. With the help of the 
Northwest regional office and the Pacific Fisheries Management Council, 
NOAA must work with communities on salmon management issues.
6. Moral of the story
    In the end, Congress and NOAA should recognize that failure to act 
is resulting in a huge economic and social injustice. Fishermen, 
coastal communities and consumers are bearing the brunt of the bargains 
and deals that have been made for limited water resources. We can 
expect that in the future the nature of water shortage in the West is 
going to get worse. Are we simply going to allow the rivers to dry up 
and watch our natural resources go with them?
    At best what is happening is incompetence and failure of the agency 
to meet its most basic mandates and requirements. At worst the 
collective impact of NOAA's decisions and actions could be deemed 
criminal economic exploitation. Either way action is necessary.
    Specifically, please hold NOAA accountable for using the best 
science available. Please hold them within the rule of the existing 
laws to protect salmon species, namely the Magnuson-Stevens Act, the 
Endangered Species Act, the Clean Water Act and the Public Trust 
Doctrine. Finally please be forward thinking in crafting legislation 
and making investments that require the conservation of our water 
resources. Whether through replacing leaking irrigation pipes, 
screening irrigation pumps, and removing unnecessary dams. We need to 
launch projects that make conserving and re-using water a top priority 
in this country. We need to establish a system to account for and 
control groundwater withdraws from new wells.
    These are the actions that will bring back the salmon habitat and 
then the salmon. These are the actions that will support free flowing 
clean water for all species in the future, including humans.
    Salmon are dear to me for so many reasons. The infusion of capital 
into our coastal economy. The existence value of just knowing this 
magnificent, strong, intelligent and agile creature continues to 
survive. The cultural value of harvesting and sharing our natural 
wealth. My memories of summers spent salmon fishing with my Dad. But 
most of all I really just want to eat salmon--because they taste 
delicious and they are good for my body!
    I am grateful for your time and consideration in recognizing the 
gravity of this crisis and rectifying this problem. Thank you.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Anderson, and, 
remember, the full text of your statement will be entered into 
the record.
    Our next witness is Mr. Roger Thomas.

             STATEMENT OF ROGER THOMAS, PRESIDENT, 
              GOLDEN GATE FISHERMEN'S ASSOCIATION

    Mr. Thomas. Thank you, Madam Chairwoman and Congressman. My 
name is Roger Thomas. Thank you for providing me the 
opportunity to speak in regards to the salmon crisis as it 
exists off the West Coast of California and Oregon.
    I am here on behalf of the Golden Gate Fishermen's 
Association, which represents the majority of the commercial 
passenger fishing vessels located in the following California 
ports: Monterey, Santa Cruz, Half Moon Bay, Berkeley, 
Emeryville, San Francisco, Sausalito, Bodega Bay, and Fort 
Bragg.
    In addition, I will speak on my own behalf as owner/
operator of the vessel, SALTY LADY.
    The economic impact to the commercial passenger fishing 
vessel fleet in each port, and I surveyed this last week, and 
actually talking to my members, we covered the 10 ports I 
previously mentioned, and the total economic impact for the 49 
vessels is $5,432,000 direct income that is coming off those 
vessels gross. This figure is all due to salmon closures.
    Vessels located in the following ports were not included: 
Port San Luis, Morro Bay, Eureka, and Crescent City. I was 
unable to contact them.
    The California Department of Fish and Game licensees 
records indicate that there are 85 commercial passenger vessels 
who are properly licensed and eligible to participate in the 
recreational salmon fishery. The percentage of loss by these 
vessels due to salmon closure ranges from 50 to 100 percent of 
their total income. This is variable due to seasons, weather, 
and accessibility to other fisheries.
    Income losses to these vessels have a dramatic effect on 
local economies. Most vessel operators have laid off their 
full-time crews and utilize part-time help. Many businesses 
located in these ports, such as bait, tackle and booking shops, 
and fuel docks, are also greatly impacted.
    In some years, our fleet carries over 200 anglers yearly 
for salmon fishing. The loss of these fishers will have a 
direct effect on all local businesses: restaurants, motels, and 
so on and so forth. This loss is very difficult to measure but 
will have a dramatic effect on these communities.
    On May 10th, Mr. Dan Temko, Harbor Master, Pillar Point 
Harbor, San Mateo, provided me with a statement in regard to 
his projected loss due to salmon closure for Pillar Point 
Harbor. That loss is $415,970, and you can see this letter 
attached, and I would make the assumption that that figure 
applies to most of the other ports that I was able to contact.
    Margaret Beckett, owner of Huck Finn Sportfishing at Pillar 
Point, estimates her business loss to be approaching $60,000 in 
2008 due to the closure, and she has also written a letter. She 
has taken up and advertising walking dogs as a part-time job to 
help supplement her and her husband's income, and she closes 
her shop because there is a lack of business when she gets that 
opportunity to supplement her income.
    In my particular case, personally, based on 2004 and 2005 
business records of salmon revenue earned, 2008 will result in 
a personal loss of $155,255. This is approximately 80 percent 
of my income. Besides the loss of personal gross income, the 
value of my vessel, which I always considered a major part of 
my retirement, has decreased due to the salmon closure, if I 
could even sell it.
    This is the worst crisis the salmon fishery has ever faced. 
As bad as dams have been on the fish, the droughts of the 
seventies and early nineties, the El Nino of 1982-1983, or the 
fish kills in recent years, this is the first total closure of 
salmon fisheries in California and Oregon history.
    In response to all of those events, there were actions 
taken by the Pacific Fishery Management Council, where 
fishermen gave up parts of their seasons, total closures, limit 
sizes, and a whole bunch of other things, remembering that all 
of this was caused by nature, and the fishermen paid the price.
    I have listed a whole bunch of things which you can read, 
and I am not going to go over them, as recommendations, but one 
paragraph I really want to get in there is--some Congresswoman 
mentioned earlier, and I did not get her name, the acoustic 
monitoring movement pattern on juvenile salmon. There were 200 
salmon released and tagged with tags in Battle Creek, and they 
had receivers up and down the whole system to monitor their 
trek and their movement through the delta. Four salmon made it 
to the Golden Gate, four out of 200.
    Fishermen blame the problems in the delta, not on the 
ocean, not on the environment, because throughout all of these 
other environmental things I mentioned, the fish have survived. 
Thank you for the opportunity to talk to you.
    [The prepared statement of Mr. Thomas follows:]

              Statement of Roger Thomas, on behalf of the 
                  Golden Gate Fishermen's Association

    My name is Roger Thomas. Thank you for providing the opportunity to 
speak in regard to the salmon fishery crisis that now exists off the 
West Coast of California, Oregon, and Washington.
    I am here on behalf of the Golden Gate Fishermen's Association 
(GGFA), which represents the majority of the commercial passenger 
fishing vessels (CPFV), located in the following California ports: 
Monterey, Santa Cruz, Half Moon Bay, Berkeley, Emeryville, San 
Francisco, Sausalito, Bodega Bay, and Fort Bragg.
    In addition, I will speak on my own behalf as owner/operator of the 
vessel Salty Lady.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    This figure represents a direct economic loss to those vessels due 
to salmon fishing closures. Vessels located in the following ports were 
not included: Port San Luis, Morro Bay, Eureka and Crescent City.
    The California Department of Fish & Game's licensing records 
indicate 85 CPFVs who are properly licensed and eligible to participate 
in the recreational salmon fishery.
    The percentage of loss by vessels due to salmon closure ranges from 
50% to 100% of total income. This is variable due to seasons, weather 
and accessibility to other fisheries.
    Income losses to CPFVs have a dramatic effect on the local 
economies.
    Most vessel operators have laid off their full-time crew and will 
utilize part-time help when needed.
    Many businesses located in these ports, such as: bait, tackle and 
booking shops, fuel docks, marine electronic repair, shipyards, marine 
mechanics will be impacted by loss of CPFV income.
    In some years, our fleet carries over 200,000 anglers for salmon 
fishing. The loss of these fishers will have a direct effect on all 
local businesses--restaurants, hotels, motels, service stations, tackle 
shops, etc. This loss is very difficult to measure, but will have a 
dramatic effect on these communities.
    <bullet>  On May 10, 2008, Mr. Dan Temko, Harbor Master, Pillar 
Point Harbor, San Mateo County, provided a statement in regard to 
projected loss due to salmon closure. The loss to Pillar Point Harbor 
is $415,970.00. (See attached letter.)
    <bullet>  Margaret Beckett, owner of Huck Finn Sportfishing at 
Pillar Point Harbor estimates her business loss to be approaching 
$60,000.00 in 2008 due to salmon closure. (See attached letter.) The 
losses related to the closure of the recreational and salmon fisheries 
will severely affect all ports and infrastructure that supports the 
fishing industry.
    <bullet>  FV Salty Lady--based on 2005 business records of salmon 
revenue earned, 2008 will result in a personal loss of $155,255.00
    <bullet>  Besides the loss of personal gross income, the value of 
my vessel, which I always considered a major part of my retirement, has 
decreased due to this salmon closure.
2008 Salmon Closure
    This is the worst crisis the salmon fishery has ever faced. Bad as 
dams have been on the fish, the droughts of the mid-'70s and early 
``90s, the El Nino of 1982-83, or the fish kills in the Klamath in 
recent years, this year will be the first total closure of salmon 
fisheries in California and Oregon in history.
    In response to droughts, El Nino events and the Klamath fish kills 
in recent years, fishermen have responded through the Pacific Fishery 
Management Council by recommending the following changes:
    <bullet>  1978--Response to drought--Reduction in recreational 
limit.
    <bullet>  1992--Winter Run ESA Listing--Recreational season reduced 
by two months. Commercial season April opening delayed to May 1st.
    <bullet>  Fishing gear changes to reduce mortality for both 
recreational and commercial include barbless J hooks and barbless 
circle hooks while drifting.
    These regulation changes in all cases were recommended by the ocean 
marine harvest groups in a dedicated spirit for conservation of the 
salmon resource.
Our Fleet supports Practical and Necessary Actions to Solve the Salmon 
        Crisis
    Reduce impacts of export pumping and diversions in the Delta.
    <bullet>  Limit total exports through Delta to a maximum of 4.5 
million acre-feet per year and eliminate pumping during periods of peak 
smolt migration.
    <bullet>  Require mitigation for all direct or indirect losses of 
salmon.
    <bullet>  Construct state-of-the-art screening and salvage 
operations at water diversions and pumping facilities including state 
and federal projects.
    Improve water quality in the Delta and on Central Valley rivers and 
streams.
    <bullet>  Eliminate the Central Valley agricultural waiver to 
pollution discharge.
    <bullet>  Reduce urban pesticide loading in urban storm runoff.
    <bullet>  Enforce federal and state clean water laws.
    Improve access to blocked salmon habitat.
    <bullet>  Remove destructive and obsolete dams, especially on the 
Klamath River and Battle Creek.
    <bullet>  Remedy passage and entrainment problems, especially on 
the Yuba River and Butte Creek.
    <bullet>  Keep the gates up all year on the Red Bluff Diversion 
Dam.
    Improve habitat in Central Valley rivers and streams by enhancing 
flows, providing cooler temperatures and restoring functional 
floodplains.
    <bullet>  Implement the American River flow standards and fully 
implement restoration flows on other rivers such as the Trinity and San 
Joaquin.
    <bullet>  Increase cold water habitat below salmon-blocking dams.
    <bullet>  Systematically provide for restored functional floodplain 
habitat including mitigation for levee projects that limit salmon 
rearing habitat.
    Reduce impacts of hatchery operations on fish of native origin.
    <bullet>  Mark 100% of hatchery fished released.
    <bullet>  Implement ``Integrated Hatchery Programs'' and the 
standards of the Hatchery Science Review Group.
    <bullet>  Truck all hatchery fish to acclimation pens below the 
delta.
    Provide effective governmental leadership.
    <bullet>  Provide funding resources to enable regulatory agencies 
to do their job.
    <bullet>  Enforce all existing laws and regulations: State and 
federal Clean Water Acts, Endangered Species Act, mitigation 
requirements, and river flow standards and regulations.
Acoustically monitored movement pattern of juvenile Chinook salmon.
    We support the efforts of this project to provide data that is 
necessary for proper management in the Delta.
    Data indicated in attachment titled: Survival and Migration 
Patterns of Central Valley Juvenile Salmonids shows a survival rate of 
2% at the Golden Gate.
    We believe in ultrasonic technology and urge continued use of this 
technology to provide us with information in regard to problem smolts 
encountered in their travel to the ocean.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Thomas, for your 
testimony, and now we will go to Mr. Joel Kawahara.

           STATEMENT OF JOEL KAWAHARA, BOARD MEMBER, 
                WASHINGTON TROLLERS ASSOCIATION

    Mr. Kawahara. Thank you, Chairwoman Bordallo and Members of 
the Subcommittee on Fisheries, for the opportunity to provide 
this testimony today on how Federal management of our rivers 
and ocean conditions are impacting West Coast salmon fisheries.
    For the record, my name is Joel Kawahara. I am a commercial 
salmon troller from Quilcene, Washington. I hold salmon-
trolling permits from four states: Alaska, Washington, Oregon, 
and California. I have sold salmon from Yakutat, Alaska, to 
Morro Bay, California.
    I have owned my boat since 1987 and have been fishing 
salmon commercially since 1971 with my dad. I am here to tell 
you how the failure of NOAA Fisheries to issue and implement 
effective legal and scientifically sound Biological Opinions 
and recovery plans for salmon in the Columbia, Snake, Klamath, 
and Sacramento Rivers has negatively affected salmon fisherman 
along the West Coast.
    Starting in the North, the Southeast Alaska Troll Fishery 
harvests Chinook originating in Alaska, Canada, Washington, 
Idaho, and Oregon. As the blue chart over there shows, salmon 
from the Columbia and Snake Basin migrate up to Alaska, and 
they represent about 28 percent, average, of the all-year 
Southeast Alaska Chinook harvest. Consequently, actions in the 
Columbia and Snake watershed have serious implications for 
Alaskan fishermen.
    The Pacific Salmon Treaty harvest levels for Southeast 
Alaska are specifically regulated to meet conservation goals 
for Endangered Species Act-listed Columbia and Snake River fall 
Chinook, primarily Snake River fall Chinook. The Pacific Salmon 
Treaty, in 1985, promised a Southeast Alaska troll harvest of 
450,000 Chinook on an annual basis, but the 2008 allowable 
harvest is 125,000. The associated economic loss is estimated 
at $33 million this year.
    Going on to Washington, Chinook harvests have dropped 70 
percent since 1976. Coho harvests, however, have dropped 97 
percent. Consequently, days people have fished on the ocean 
have dropped 95 percent, and the number of boats has dropped 97 
percent since 1976. There is a $19 million loss, based on 1976 
levels. This year, the reason we are not harvesting $19 million 
worth of salmon is because somebody other than the fishermen 
screwed up. The total lost in Northwest economies from the 
decline in the Columbia and the Snake Basin has been at least 
$51.7 million annually.
    For the rest of the West Coast, Oregon and California, of 
course, you know it is a 100-percent loss this year. Nobody is 
going to go fishing down there commercially. As you are aware, 
the closure will result in $290 million of economic impact loss 
and an estimated 4,200 total jobs.
    Let me summarize a very grim picture from my industry. We 
have lost 95 to 99 percent of our industry because successive 
administrations have been unwilling to follow the science and 
the law and care about the people affected by their negligence. 
These are staggering and sobering numbers, sober commercial 
fishermen, if you will. Coastwide, the economic loss is 
estimated at $342 million.
    The coastwide salmon crisis is not the mystery the 
administration officials claim. It is not because some big 
monster in the ocean rose up out of the depths and ate the 
fish. Cyclic ocean conditions certainly significantly affect 
these fish over the years, but the catastrophe I am addressing 
is largely a consequence of human management, primarily by 
Federal agencies, of the rivers from which the salmon come, 
management which has ignored and even suppressed science and 
thereby sacrificing the long-term well-being of wild salmon 
fishing families in fishing communities up and down the West 
Coast.
    Federal judges are now involved in managing the Columbia, 
Klamath, and Sacramento Rivers because the Federal government, 
which operates dams and water diversions on all three rivers, 
has repeatedly produced illegal Biological Opinions that have 
cost $9 billion, we have heard earlier, to generate the 95-to-
99-percent loss I just summarized. If this performance occurred 
in the private sector, the company responsible would have been 
liquidated and its managers fired a long time ago. In fact, if 
this was a corporation in Seattle, the CEO would be asking the 
board if we could acquire Yahoo and save the company.
    The fishermen are the workers in this company. The American 
people are the shareholders. The natural resources of this 
nation are held in trust by the government for the beneficial 
use of its citizens. The CEO is the Executive Branch of the 
Federal government, including NOAA Fisheries. The Board, the 
body responsible for reversing and repairing failed management 
when it occurs, is the U.S. Congress, and its executive 
committee on fisheries issues is this Subcommittee.
    I speak as a shareholder and a worker, Madam Chairwoman. I 
suggest that your CEO has failed miserably. In the timeframe of 
one working career, from 1976 to present, NOAA Fisheries has 
overseen a complete collapse of this business, one that still 
markets, one that still has valuable products to offer and high 
demand from customers but is no longer able to function. The 
CEO has failed, and the board must now act. Thank you, Madam 
Chairman. I will be glad to answer any questions.
    [The prepared statement of Mr. Kawahara follows:]

            Statement of Joel Kawahara, Commercial Fisherman

    Chairwoman Bordallo and members of the subcommittee on Fisheries, 
Wildlife, and Oceans, thank you for the opportunity to provide this 
testimony today on ``A Perfect Storm: How Faulty Science, River 
Management, and Ocean Conditions Are Impacting West Coast Salmon 
Fisheries.'' For the record, my name is Joel Kawahara, and I am a 
commercial salmon troller from Quilcene, Washington. I hold salmon 
trolling permits from four states: Alaska, Washington, Oregon, and 
California. I have owned my boat since 1987 and have been fishing 
salmon commercially since 1971 when I crewed for a friend of my dad's 
out of Neah Bay, Washington. In a way, I am a second-generation 
commercial fisherman because my dad sold fish in Seattle and also 
worked in a cannery in Alaska prior to World War II. I am here to tell 
you how the failure of NOAA Fisheries to issue and implement effective, 
legal, and scientifically-sound biological opinions and recovery plans 
for salmon in the Columbia-Snake, Klamath, and Sacramento rivers has 
negatively affected salmon fishermen along the West Coast.
Columbia-Snake River Basin
    The Columbia-Snake River Basin was once the largest salmon-
producing basin in the world. When Lewis and Clark explored the Western 
Territory, upwards of 16 million salmon called the Columbia-Snake Basin 
their home. The Snake River, the largest tributary to the Columbia 
River, produced more than 50 percent of the total salmon within the 
Columbia-Snake River Basin and today still holds more than 70 percent 
of the remaining healthy habitat.
    Over the years, due to several impacts--overfishing, habitat 
destruction, and the construction of dams on the Columbia and Snake 
rivers--salmon populations in the Columbia Basin plummeted. Until the 
mid 1970's, when four federal dams were built on the lower Snake River, 
Snake River salmon were able to hold their own and allowed for a 
relatively robust salmon fishery. In fact, in its 1949 Annual Report, 
the Washington Department of Fisheries stated its strong opposition to 
the construction of these dams noting that the construction of the 
lower Snake River dams was ``not in the best interest of the over-all 
economy of the state. Salmon must be protected from the type of 
unilateral thinking that would harm one major industry to benefit 
another.'' (see attached, ``Department of Fisheries Annual Report for 
1949.'') Over the state's objections, these four dams were built in the 
late 1960s to mid-1970s. Once constructed, the Snake River stocks fell 
into a precipitous decline. Now 13 salmon populations in the Columbia-
Snake Basin are listed for protections under the Endangered Species Act 
(ESA). All Snake River salmon and steelhead are either already extinct 
or are listed under the ESA.
    In the late 1970s and early 1980s, due to concerns around these low 
salmon populations, salmon fishing was seriously curtailed. Sport and 
commercial fishing saw harvest rates decrease by upwards of 70 percent. 
The economies that had been built around the salmon industry in the 
Northwest fell silent. But still, under the circumstances, limiting 
fishing was the right thing to do. The salmon were in trouble and it 
was necessary to restore this remarkable and renewable resource by 
reducing the impacts of harvest.
    At the same time, the federal government and private companies 
built more dams on the Columbia & Snake rivers and their tributaries. 
As the attached map indicates, the Columbia River Basin is now the most 
dammed watershed in the nation, with more than 200 large dams.
    Today our fisheries remain heavily regulated. As the diagram 
attached to this testimony indicates, imperiled salmon from the 
Columbia, Klamath, and Sacramento mix in the ocean environment with 
healthy salmon populations. As ocean fishermen, we need to be careful 
not to harm the weakest and most sensitive of these salmon populations. 
As a result, our fishery is managed to protect the most endangered 
salmon populations in order to ensure that we are doing as little harm 
to the listed salmon stocks as possible. Ocean fishing on Columbia-
Snake River upper river spring chinook, sockeye and steelhead is non-
existent. From the Columbia-Snake Basin, only summer, fall, and lower 
river spring chinook and coho salmon are harvested in the ocean 
fisheries.
Ocean Harvest of Columbia-Snake Basin Salmon
    Starting in the north, the Southeast Alaska Troll Fishery harvests 
chinook salmon originating in Alaska, Canada, Washington, Idaho and 
Oregon. On average, up to 27 percent of the salmon caught in Alaska 
waters come from the Columbia-Snake River Basin. (Pacific Salmon 
Commission Joint Chinook Technical Committee Report, TCCHINOOK(05)-3.) 
Alaska's salmon-bearing rivers are generally in good condition and the 
biggest issue there is trying to protect those healthy rivers from 
development and harm. Consequently, what happens south of Alaska in the 
Columbia-Snake watershed has serious implications for Alaska fishermen.
    The harvest of chinook salmon is managed under the Pacific Salmon 
Treaty, which regulates international catch of salmon from both U.S. 
and Canadian rivers. The Pacific Salmon Treaty harvest levels for 
Southeast Alaska are specifically regulated to meet conservation goals 
for Endangered species Act-listed Columbia and Snake River fall 
chinook. The stated goal of the Pacific Salmon Treaty in 1985 was to 
recover Columbia River chinook stocks to allow for a Southeast Alaska 
troll harvest of 450,000 chinook on an annual basis by 1990.
    The 2008 quota for Southeast Alaska troll chinook is 125,000. Based 
on an average of 14.5 pounds per salmon, and an estimated price of 
$7.00 per pound, the failure to recover chinook stocks in the Columbia 
River to allow the harvest of 450,000 chinook in the Southeast Alaska 
troll fishery reduces the economic value of that fishery by $33 million 
dollars. That's a $33 million loss to the industry and to the economies 
of the Northwest.
    In the state of Washington (north of Cape Falcon, Oregon), the 
total harvest of chinook salmon for the period between1976-1980 was 
206,000. (PFMC 2002 Salmon SAFE.) In 1994, 1995 and 1996, the harvest 
of Chinook salmon was zero; in 2002, the Chinook harvest was 106,000; 
and the harvest will be 57,000 in 2008. Based on a 12.5 pound dressed 
average weight, and an average price of $7.00 per pound, the difference 
in value from 1976 to 2008 to the troll fleet is $13 million.
    The pre-1980 206,000 chinook level does not represent full 
recovery, but it is an indication of the potential for harvest with 
healthy Columbia River fall chinook stocks. $13 million is therefore 
the minimum difference between this year's fishery and the economic 
value of a fishery based on fully recovered chinook stocks in the 
Columbia River.
    Of significant note is the over 90% decrease in coho fishing for 
both the commercial and recreational fleets north of Cape Falcon, 
Oregon. The average annual commercial troll harvest of coho for the 
period 1976-1980 was 717,302. This year, the coho quota for the troll 
fleet is 24,000. The price per pound in 2007 dollars was $1.46, and the 
average size coho is 5.5 pounds. That leaves a loss of $5.7 million in 
ex-vessel value.
    In the period 1976-1980 fishermen in Washington state fished 44,042 
days. In 2007, we worked 2,115 days. In 1978 there were 3,041 boats 
fishing the Washington coast. In 2007, just 79 boats fished the same 
waters.
    To summarize the situation for Washington, since the late 1970's, 
chinook salmon harvest has dropped 70% and coho salmon harvest has 
dropped 97%. The number of fishermen-days worked has dropped 95% and 
the number of independent troll fishing boats has dropped 97%. The 
total loss to Northwest economies from the decline in Columbia-Snake 
River salmon has been at least $51.7 million annually.
    If this were a corporation, the CEO would be asking the board if 
acquiring Yahoo would save the company from going under. Of course the 
CEO, board of directors, employees, and shareholders would be very 
angry that a once-thriving business that still has viable markets 
cannot produce at more than 5% of its potential.
    At the same time, the federal government has not fairly shared the 
burden of salmon restoration in the Columbia-Snake River Basin. The 
federal government owns and operates 26 dams in the basin. Of those, 14 
comprise the federal hydropower system, collectively known as the 
Federal Columbia River Power System. This series of dams exacts a huge 
toll on salmon populations in the basin. In fact, since 1993, soon 
after the first Columbia-Snake River Basin salmon were listed under the 
Endangered Species Act, these federal dams have been the subject a 
series of biological opinions intended to guide their operation to 
ensure that salmon are not further jeopardized and may someday recover. 
Since that time, NOAA has released five biological opinions. Three of 
the last four plans were found illegal by federal courts. The 2004 
biological opinion was so ridiculously flawed and devoid of science 
that it defined the federal dams as immutable parts of the 
environment--like a mountain--that could not be changed. The 9th 
Circuit Court of Appeals called this analysis a ``sleight of hand'' and 
stated that the ESA ``requires a more realistic, common sense 
examination.'' (NWF v. NMFS, 481 F. 3d 1224, 1239 (9th Cir. 2007).)
    I fear that NOAA's newest biological opinion, released just last 
week, offers much of the same and as such will likely face a similar 
fate. This so-called ``new'' biological opinion has very little new in 
it. While it does not state that the federal dams cannot be modified, 
the end result is similar to the 2004 plan and the federal government 
goes as far to actually include rollbacks in the plan from what salmon 
are currently experiencing in the river due to judicial oversight. 
Further, the federal government is still not taking on its fair share 
of the burden in salmon restoration efforts. Let me give you one very 
real example of why I say that.
    In this newest biological opinion--the 2008 biological opinion--the 
federal agencies have allowed the federal dams to take--that is to 
kill--upwards of almost 93 percent of some ESA-listed salmon runs. 
Ninety-three percent. That is a jaw-dropping figure. Certainly, that is 
not the case with all of the listed salmon populations in the Columbia-
Snake River Basin, but it is the case with some, and all of the Snake 
River salmon populations have at least about a 40% allowable take 
associated with the federal dams. That's incredible.
    In contrast, the total impact of sport, commercial and tribal 
salmon harvest on endangered spring chinook, for example, is less than 
10%!
    Last year, only four Snake River sockeye salmon returned to the 
Stanley Basin in Idaho. These fish travel more than 1,900 miles round-
trip and climb higher than 6,500 feet in elevation. That's a distance 
greater than from Washington, DC, to Tucson, Arizona, and higher than 
five Empire State buildings stacked one on top of the other. They are a 
remarkable fish. They spawn in the wildest and best salmon habitat left 
in the lower 48 states--Idaho's Sawtooth Mountains. There is almost no 
habitat that is more intact and yet, we are watching these fish 
disappear before our very eyes. While ocean fishing harvest rates are 
approximately zero for these fish (as it should be under the 
circumstances), the federal dams are allowed to take upwards of 92% of 
them. There is something wrong here.
    The bottom line is that the federal agencies have not followed the 
science in their Columbia-Snake River biological opinions. The courts 
have been clear on this front and have spoken with precise and sharp 
words. Perhaps the most relevant to this hearing is a statement from 
Judge James Redden, federal District Court Judge in Oregon. In 
remanding the 2004 BiOp back to NOAA, Judge Redden said, ``The 
government's inaction appears to some parties to be a strategy intended 
to avoid making hard choices and offending those who favor the status 
quo. Without real action from the Action Agencies, the result will be 
the loss of the wild salmon.'' (National Wildlife Federation v. 
National Marine Fisheries Service, cv-01-640-RE (Oct. 7, 2005) (Opinion 
and Order of Remand) at 8.)
    I am grateful to you, Madam Chairwoman, for beginning the dialogue 
on this important issue. And for recognizing what is at stake here--our 
wild salmon in the Pacific Ocean and the communities that depend upon 
them. Now we need Congress to fully investigate the lack of scientific 
underpinnings in this latest biological opinion. My job, the job of 
hundreds of commercial troll fishermen, and the coastal communities 
that depend on our incomes and our services look forward to that 
Congressional review.
Klamath & Sacramento Rivers
    South of Cape Falcon, Oregon, while Columbia-Snake River salmon are 
found in those waters, most of the salmon off the southern Oregon and 
California coasts come from the Klamath and Sacramento rivers. The 
Sacramento was once the second largest salmon producing river in the 
lower 48 states and the Klamath was number three. Until this year, the 
Sacramento was known as the work-horse of the Pacific Ocean--producing 
a consistent and healthy population of salmon that allowed for a 
sustainable fishery. Those days are gone.
    The Sacramento had actually been recovering until the last two 
years. As is the case with the Columbia and Snake rivers, the 
administration's tendency to develop illegal and unscientific 
biological opinions have sent these more stable fish populations into a 
tailspin. Columbia and Snake salmon have been in a constant and steady 
decline for decades, slowly eroding our fishery; Sacramento salmon have 
disappeared virtually overnight.
    Historically, the Klamath produced an estimated 880,000 returning 
adult salmon. In 2001 and 2002, massive irrigation withdrawals allowed 
by an illegal biological opinion in conjunction with water quality 
degraded by four privately-owned hydropower dams contributed to the 
collapse of Klamath River salmon. Fewer than 35,000 salmon returned to 
their natural spawning areas in 2004, 2005, and 2006. Commercial 
fishermen in Oregon and Northern California lost $50 million in 2005 
and $100 million in 2006 as a result of cancelled fishing seasons 
caused by these low numbers.
    The Sacramento - San Joaquin has been an even bigger salmon 
producer for West Coast fishermen. When salmon fishing began in the 
mid-1800's, the Sacramento - San Joaquin produced about two million 
chinook salmon. From 1997 through 2006, an average of 475,000 adult 
chinook salmon returned to spawn in the Central Valley. In 2004 and 
2005, however, the federal government allowed record amounts of water 
to be pumped from the Sacramento River system. In 2005 alone, more than 
half of the natural river flows were diverted, according to the San 
Francisco Chronicle. In 2007, only 90,000 adult salmon returned to the 
Sacramento River Basin--one of the smallest returns on record. This 
year's run is expected to dip to just 54,000 salmon and as such, has 
lead to ``the worse ever [fishing] season off the West Coast,'' 
according to Don McIsaac, Executive Director, Pacific Fisheries Marine 
Council.
    Because of the federal mismanagement of the Sacramento-San Joaquin 
and the defiance of science in the Sacramento Winter Chinook biological 
opinion, the commercial salmon fishing season from northern Oregon to 
the U.S.-Mexico border has been shut down this year. That closure will 
result in a $290 million economic impact and the loss of an estimated 
4,200 jobs. (see Letter from Governors Arnold Schwarzenegger, Theodore 
R. Kulongoski, & Christine O. Gregoire to The Honorable Nancy Pelosi, 
Speaker, U.S. House of Representatives (April 21, 2008).) That's 
similar to the number of jobs lost in the Enron debacle.
    This year's Sacramento-driven shutdown would have been difficult 
enough on its own, but the collapse of the Klamath a couple of years 
before and the ongoing, decades-long decline of the Columbia-Snake 
salmon make this closure even more difficult to weather. The Sacramento 
River and the fish it produced was my industry's safety-net. We relied 
on it. We built our businesses around it. And we believed that NOAA 
Fisheries' Office of Sustainable Fisheries would manage it to protect 
this economic and natural resource. We were wrong.
    Defying scientists' calls for more water, this administration 
released a plan that allowed far too much water to be withdrawn from 
this river basin. Now, fishermen are paying the price and so are our 
larger communities.
Conclusion
    Let me summarize a very grim picture for my industry. For the 
entire west coast, in the period 1976-1980, commercial chinook harvest 
averaged 1,039,878 fish annually. Coho harvest averaged 1,669,299 
annually. In 2008, due to the largest salmon fishing closure in West 
Coast history, the entire harvest of chinook and coho will occur north 
of Cape Falcon, Oregon. That means only 57,000 and 24,000 of each 
species, respectively, will be harvested. The drop in chinook harvest 
is 95 percent and the drop in coho harvest is 99 percent. Employment 
has obviously also plummeted. For the period between 1976-1980, 
fishermen averaged about 180,972 boat days. In 2008, we have estimated 
that there will be about 2,000 boat days, dropping working days by 99 
percent.
    These are staggering, sobering numbers. We've lost 95-99 percent of 
our industry because successive administrations have been unwilling to 
follow the science, follow the law, and care about the people affected 
by their negligence.
    The coast-wide salmon crisis is not the mystery that administration 
officials claim. It is not because a big monster in the ocean rose from 
its depths and ate these fish up. Cyclic ocean conditions significantly 
affect these fish in up and down directions, but the catastrophe I just 
discussed is largely a consequence of human management, primarily by 
federal agencies, of the rivers from which salmon come: management 
which has ignored and even suppressed science, and thereby sacrificed 
the long-term well-being of wild salmon, fishing families and fishing 
communities.
    Federal judges are now involved in managing the Columbia, Klamath 
and Sacramento rivers because the federal government, which operates 
dams and water diversion projects on all three rivers, has produced 
repetitively illegal biological opinions that have cost literally 
billions of dollars to generate the 95-99% negative impact I just 
summarized.. In short, the federal government has shown that it would 
rather waste money on illegal recovery plans and delay tactics than 
invest in solutions that are vital not only for salmon, but the West 
Coast's economy. If this performance occurred in the private sector, 
the company responsible would have been liquidated and its managers 
fired long ago.
    Who are the workers of this failed company? My industry, for one. 
Who are the shareholders? The American people. The natural resources of 
this nation are held in trust by the government for the beneficial use 
of the citizens. The CEO is the Executive Branch of the federal 
government, including NOAA Fisheries. The Board, the body responsible 
for reversing and repairing failed management when it occurs, is the 
U.S. Congress. and it's executive committee on fisheries issues is this 
Subcommittee.
    I speak as a shareholder and a worker. Madam Chairwoman, I suggest 
that your CEO--in the form of NOAA Fisheries--has failed miserably. In 
the timeframe of one working career, 1976 to 2008, NOAA Fisheries has 
overseen a complete collapse of this business--one that still has 
markets, still has valuable products to offer, still has high demand 
from customers, but is no longer able to function. The CEO has failed, 
and the board must now act.
    As Judge James Redden said in Portland, Oregon, ``[W]ithout real 
action from the Action Agencies, the result will be the loss of the 
wild salmon.'' I ask today for real action.
    Let's require real action from our CEO and his staff. Let's require 
real action to protect our wild salmon. Let's require more than status 
quo in all three of these rivers. And let's require these agencies to 
follow the science to do what is right for these fish.
    The legal and scientific failures of the biological opinions in the 
Columbia, Klamath and Sacramento rivers have been economically 
devastating. On behalf of my industry, I ask the U.S. Congress to 
provide oversight of this disaster, and to begin repairing it.
    I was asked to outline the problem today, not focus on solutions. I 
have tried to comply with that request. But I hope I have made clear 
that without solutions, quickly, you are looking at a former fisherman 
who will need to give up the job he loves because it no longer exists. 
I am one of thousands in all sectors of the salmon economy who is in 
this sinking industry.
    So I will only say that it is clear beyond any plausible challenge 
that the solutions will not come from the management of this company. 
Solutions must come from the board--from the U.S. Congress.
    Madam Chairwoman, I want to thank you again for beginning this 
important discussion. It took courage and foresight. It is only with 
this type of dialogue that we will get to the bottom of the issues in 
each of these basins and create the necessary climate that ensures 
science, not politics, guides our biological opinions.
    Thank you and the Subcommittee for the opportunity to testify 
today. I would be pleased to answer any questions you or other members 
of the Subcommittee may have.
                                 ______
                                 
    Ms. Bordallo. I thank you, Mr. Kawahara, for your 
testimony, and now I recognize Mr. Richard Pool.

          STATEMENT OF RICHARD POOL, PRINCIPAL OWNER, 
                   PRO-TROLL FISHING PRODUCTS

    Mr. Pool. Thank you, Madam Chairman. My name is Richard 
Pool. I am the principal owner of Pro-Troll Fishing Products. 
We are a specialized salmon equipment manufacturer. We have 
been in business 30 years. I am also here representing the 
American Sport Fishing Association, which is the trade 
association of the fishing tackle industry.
    Today, I would like to speak for fishermen and the fishing 
industry. I would like to make some brief comments on the 
current salmon situation, the economic impact, the actions that 
fishermen and the fishing industry are taking, and then what we 
need to have from NOAA.
    First of all, the California disaster, we rank as one of 
the largest, man-made, economic disasters in this country. We 
rank it right alongside disasters, man made, such as the Exxon 
Valdez, the New England cod collapse, and the Atlantic striped 
bass collapse. The economic impact of this total failure of 
salmon in California is staggering. I will refer to some charts 
to that.
    If you have the charts, I would like to talk from the 
charts, and I would like to start with the chart on page 10, if 
you have my testimony.
    Ms. Bordallo. Please proceed.
    Mr. Pool. The chart on page 10 starts in 1990 and shows the 
total returns of salmon for almost a 20-year period, and you 
can see an ascending period there. In 1990, the winter-run fish 
was declared endangered, and, through good management, good 
plans, good implementations by NOAA and the fishery agencies, 
the good project implementation, you will see that, in 2002, we 
hit a modern record of returning salmon of 780,000 fish to the 
Upper Sacramento River.
    Almost parallel to that, you will see immediately a 
collapse down to almost no fish in 2007 and a projected very 
few in 2008. The good news is the ascent. Salmon fishermen were 
cheering. The bad news: The descent parallels the problems of 
the delta, and we certainly rank the excess pumping from the 
delta--there is a number of causes, but, in our minds, that 
excess pumping, which the court has also agreed with, was the 
primary cause. You can see that the cause dropped significantly 
before the 2005 and 2006 ocean disaster.
    Now, if you would flip to page 13, where I would like to 
touch on some economics of sport fishing in California. The 
economics of sport fishing are staggering. There are 2.4 
million fishermen. You can see the annual equipment 
expenditures of sport fishermen are $2.7 billion, $4.8 billion 
in economic impact, and so on.
    For most of the figures on this page, in both boating and 
fishing, California is the second state in the nation, as far 
as the magnitude of these numbers. In boating and marine, the 
impact of the fishing closure not only affects fishing and 
fishing equipment; it is having a staggering impact on the 
boating community. There are 894,000 registered boats in 
California. Seventy percent of them are used for fishing. That 
is a huge number. You see the $1.2 billion in marine sales in 
2002; $16.5 billion economic impact and 300,000 jobs touched by 
the boating and marine industry.
    My message here is that there are huge economics at stake. 
We are already seeing tremendous losses. I know of six tackle 
manufacturers that are out of business already. I know of two 
major boat dealers out of business already. Boat sales from 
some of the major builders have dropped in half. So the 
economic impact is already taking place.
    If you could go to Chart 12, what are fishermen trying to 
do about this? We are trying to do two things. First, the 
fishing industry, in working with the agencies, is trying to 
scope some projects, and I would say we have some scoped that 
can bring a recovery. There is no season in 2008. We think it 
is highly improbable that there will be a season in 2009. There 
are just no fish in the ocean.
    Our target is getting a season back in 2010. We have had 
some very cooperative programs with the agencies in trucking 
hatchery salmon around the delta so they will not be lost, and 
we are hoping to have that season.
    From a fisherman's standpoint, about a year and a half ago, 
we organized what we call ``Water for Fish.org.'' It is a Web 
site where fishermen can go and register their concern about 
water policies. Fishermen had no voice, and, at this point in 
time, it is a grassroots political action. You have all been 
receiving e-mail letters from these. You can see down at the 
bottom, so far, we have 56,000 people that have gone on this 
Web site and sent letters to the California delegation, the 
congressional delegation, and so on.
    I am holding a book here of 800 pages of double-sided, 
small-print that is 50 percent of the people that have gone on 
requesting action by committees like yours, the state, and 
everyone else.
    So I will quit with that. We have laid out, in our written 
testimony, some recommendations that we feel are very important 
for actions that we think NOAA should take. Thank you.
    [The prepared statement of Mr. Pool follows:]

         Statement of Richard Pool, Pro-Troll Fishing Products

    My name is Richard Pool. I appreciate the opportunity to appear 
before this committee to discuss fishery issues. I also want to express 
appreciation for the leadership the committee is demonstrating in 
attempting to find answers to the severe fishery crisis now unfolding 
in California and the states of Oregon, Washington and Alaska.
    I am here today representing my company, Pro-Troll Fishing Products 
which is a large producer of salmon fishing equipment. I am also 
representing The American Sportfishing Association (ASA) which is the 
National Trade Association that represents the sport fishing industry. 
Pro-Troll is headquartered in Concord California and ASA is 
headquartered in Alexandria Virginia.
    I would like to discuss three subjects:
    1.  The collapse of the Central Valley salmon stocks as viewed by 
fishermen and our industry.
    2.  The economics of the West Coast sport fishing industry and the 
impact of the salmon closure.
    3.  The kinds of actions we believe are needed to recover these 
fish.
The Salmon Collapse
    California faces an unprecedented collapse of its Central Valley 
Chinook salmon runs. We rank this as one of the top ten man-made 
fishery disasters in the country. The economic consequences of the loss 
are staggering and reach all the way to Alaska. We believe history will 
rank this disaster in the same category as the Exxon Valdez, the 
collapse of the New England Cod Fishery and the collapse of the 
Atlantic Striped Bass fishery in the 1980's. The steps leading to the 
collapse have been progressing for years but fishermen, biologists and 
environmental groups have been unable to impact the policies that could 
have prevented it. The disaster is now upon us. Unfortunately, now, 
there are no quick and easy fixes.
    I have attached a chart called ``The Rise and Fall of the Central 
Valley Chinook Salmon Returns''. It summarizes the factors we see as 
the major contributors to the collapse. The chart shows the total 
number of Chinook salmon that returned to the Central valley by year. 
It starts in 1990 when the returns of the Winter Run salmon became so 
low it was listed under the Federal Endangered Species Act. The Winter 
Run is one of four separate salmon sub species that return to the 
Sacramento River to spawn. At the time it was listed, it was virtually 
extinct. In 1992 only 191 Winter Run spawners returned to the Upper 
Sacramento River.
    Following the listing, The National Marine Fisheries Service 
supported by the other agencies implemented a highly successful Winter 
Run Recovery Program. Four major projects costing $1 billion were 
implemented in the Sacramento River. The projects not only helped the 
Winter Run but also dramatically improved the other three runs. Salmon 
responded as they will when their habitat is right and by 2002--780,000 
spawners from all four Sacramento runs returned. It appeared we had a 
major success story.
    Unfortunately, after 2002, the delta collapse took over. Increased 
export pumping and river flow management for exports rather than for 
fish along with badly polluted delta waters took a heavy toll on 
salmon. The graph shows the crash starting after 2002 with the final 
poor ocean conditions of 2005 and 2006 wiping out the balance of the 
weakened runs. There are two major conclusions to this graph.
    1.  The rapid rise from 1992 shows that given good habitat 
conditions, salmon can recover quickly. If we do the right things, this 
pattern can be repeated.
    2.  The crash started well before the problem with ocean conditions 
in 2005 and 2006.
    My second chart shows the decline of other species of fish which 
reside in the delta. In every instance the decline is dramatic. Unlike 
salmon, most of these fish do not migrate to the ocean. This is strong 
evidence that the primary fishery problems are associated with the 
delta. Over pumping, harmful water movements and pollution have taken 
their toll.
    Fishermen concur that there were several factors that led to the 
salmon collapse. However, we believe the evidence is overpowering that 
the excess delta pumping is the leading cause of the decline. Heavy 
pumping and the associated detrimental water movements cause many other 
problems with river flows and temperatures that are harmful to salmon. 
We believe the salmon can be recovered but it will not be easy or 
inexpensive. The runs are now so low and the collapse is so complete 
that every run of Central Valley salmon could now be a candidate for 
Endangered Species listing.
The Economics of California Sportfishing
    Fishing is huge in California. There are 2.4 million recreational 
fishermen in the state. Each year they spend $2.7 billion in equipment 
purchases. The full economic impact of the activity is $4.8 billion. 
The industry supports 41,000 jobs and pays $1.6 billion in wages and 
salaries.
    California has been second only to Florida in fishing equipment 
purchases. Salmon and Striped Bass are the top economic generators in 
the bay, coastal and Central Valley regions of the state. The loss of 
these fisheries will bite heavily into these economics. Hardest hit 
will be coastal communities and small river communities that depend on 
income from salmon, steelhead and striped bass. Lodges, camps, 
restaurants, tackle shops, marinas, guides and charter operators will 
all lose substantial income. It is already happening. Scores of 
businesses have already failed and many others are barely hanging on.
    I am aware of six major fishing tackle retailers in Northern 
California who are already calling it quits. Every major city is being 
hit from Sacramento to The Bay Area to San Jose and Santa Cruz. I can 
also speak for my own company. As a major salmon equipment producer we 
are in serious economic distress. We have been in business for 30 years 
and have never seen the kinds of sales drops we are currently 
experiencing.
The Economics of California Boating
    Closely paralleling the economics of fishing is the Boating and 
Marine Industry. There are 894,000 registered boats in California. 70% 
of boat purchases are for fishing. Sales of boats in 2006 were $1.2 
billion and there are 83 boat manufacturers in the state. Salmon 
fishing requires a boat. Manufacturers and boat dealers are already 
reporting dramatic drops in sales. There will be huge economic losses 
in this sector.
    I recently received a report from a sales group representing 
multiple boat lines in the 13 Western states. Two years ago their sales 
were $60 million. In 2008 they expect $32 to $34 million. They 
attribute most of this drop to the salmon closure. Sales of offshore 
boats and river fishing boats are at a near standstill. One major boat 
dealer has already closed its doors and many more are teetering on the 
brink.
    The following tables show the combined economics for California, 
Washington, Oregon and Idaho. The figures show that recreational 
fishing is a huge economic generator in the West.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    If sport fishing in the U.S. were ranked as a corporation, it would 
be #47 on the 2007 Fortune 500 list based on sales. That's well ahead 
of global giants such as Microsoft and Time Warner..

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Water4Fish.org Advocacy Website
    As California moved into the 21st century it became obvious to 
fishing leaders that the politics of water had changed radically. The 
corporate agricultural interests were demanding more and more water and 
they had the political muscle to get it. No costs were spared in 
political contributions, high paid lobbyists and teams of lawyers. The 
state and fishery agencies lost control of their ability to protect and 
enhance fisheries and the water agencies became more aggressive. 
Exceptions to laws were found and biological opinions were overruled to 
allow more water pumping. The largest salmon kill in history took place 
on the Klamath River in 2002 because of a ruling that took the flows 
away from salmon and steelhead.
    In early 2007 a decision was made. The only way fishermen could 
fight back and represent themselves was to get organized politically. A 
website Water4Fish.org was established and petitions were developed 
asking our political leaders to change water policies to protect fish. 
Over 100 major fishing groups and fishing business immediately signed 
on as sponsors of the campaign. When a fisherman or supporter signs 
onto the website, his name, address, email and political 
representatives are captured in a database. He can then send email 
letters to the governor, his Sacramento legislators and to congress
    The campaign has been a success. As of the end of April a total of 
56,574 letters and petitions have been generated.
        15,532 have gone to the Governor
        17,954 have gone to members of the House
        16,022 have gone to Senators Feinstein and Boxer
        17,573 have gone to the California Assembly
        17,205 have gone to the California Senate
    Supporters from all corners of the state have logged into the 
database. It is now the largest database of fishermen in the state. At 
the current rate we will have 100,000 signers by year's end. These 
fishermen are mad as hell and they have every right to be. Through no 
fault of their own, their heritage and rights to a public resource has 
been taken away.
What Fishermen Need from NOAA
    Fishermen look to NOAA and the other fishery agencies for the 
policies and leadership needed to protect and enhance the fisheries. In 
the Central Valley salmon recovery of the 1990's, NOAA led the way. We 
highly commend the agency for its leadership at that time. An excellent 
recovery plan was developed, the proper permit requirements were put in 
place and the right projects were implemented. The payoff to the 
fishery and to the economies of California and the other West Coast 
states was huge.
    The failures of NOAA since that time have been well documented by 
the collapse of the salmon fishery and the court decisions. Fishermen 
now look to NOAA to reverse these disasters and once again lead a 
recovery. We need strong NOAA directives in the Central Valley and we 
also need them on the Klamath River, the Columbia River and The Snake 
River where the runs have also collapsed. We need:
    1.  New biological opinions based on solid science, the full extent 
of the law and the current conditions of the fisheries. They should 
include rigid and enforceable permit requirements that will rebuild the 
stocks and avoid technicalities that would allow other interests to 
avoid compliance.
    2.  The biological opinions should not be shortcut. They need to be 
complete, well reviewed and comprehensive. They must stand up in court. 
If more time is needed to accomplish this, it should be granted.
    3.  The preponderance of science should dictate the actions. Weak 
maybes of secondary causes should not be a basis for no action. We 
believe that NOAA and the other fishery agencies are the proper place 
for fisheries management rather than the courts.
    4.  A strong recovery plan is needed for each watershed that not 
only focuses on endangered species but on all the runs that have 
collapsed. NOAA has the responsibility and obligation to protect all 
marine species.
    We are deeply concerned about the NOAA resource capabilities to do 
this job particularly in the Southwest Region. The rapid and complete 
collapse of the Central Valley salmon and the complex nature of the 
problem have placed a huge burden on this region. We strongly support 
increased staffing and funding for this region. We look to congress to 
help see that the resources needed are made available to the Southwest 
office.
    We are also concerned about the pending biological opinion for the 
Klamath River. We remain optimistic that the four dams currently 
blocking the migration paths will be removed but it may take 10 to 15 
years for this to take place. In the meantime the endangered fish of 
the river must be protected from disease and lethal water conditions. 
We urge a strong opinion from NOAA that will ensure these fish have 
adequate water flows and habitat to survive under normal and drought 
conditions.
Proposed Recovery Actions
    We believe that if a number of immediate steps are taken, a salmon 
fishing season is potentially possible again by 2010. Some of the steps 
are short range and some are longer. Substantial funding will be 
needed. We urge the committee to support these steps and others that 
will emerge as further studies are made. The steps are:
Take Emergency Recovery Steps to allow a salmon fishing season in 2010
    There are so few fish currently in the ocean that no meaningful 
salmon fishing can occur in 2008 or likely in 2009. If several 
emergency steps are taken to get 2008 smolts to the ocean, it may be 
possible to have a season on two-year old fish in 2010.
Emergency Trucking of All Hatchery Salmon around the Delta starting in 
        2008 & 2009
    This project could save the 2010 season. With the losses occurring 
in the delta, if hatchery fish are trucked around the delta to the bay 
and then held in adapting pens, survival rates can be improved by 5 to 
1. This was recently proposed to The Calif. Dept. of Fish and Game and 
the agency agreed. The trucking of all state hatchery fish was started 
the week of April 7th. A parallel plan for the Federal Coleman hatchery 
fish is underway.
Reduce Delta Pumping and Increase Pulse Flows for All Outbound Smolt 
        Migrations. Start in 2008 & 2009
    Pumping schedules need radical changes. Currently, adjustments are 
sometimes made for endangered fish but other runs like the large fall 
run, which has been the backbone of the salmon fishery, suffer from 
poor flows and water conditions. Water managers have access to very 
good real time information as to when endangered and other fish are in 
the delta in large numbers and thus can and should be ordered to reduce 
or stop the pumping until the fish can move by. Secondly: The pumps are 
so powerful that they reverse the natural stream flows of the delta 
which are needed by juvenile salmon to get from the river to the sea. 
Current practice includes releasing small amounts of pulse flow water 
to help flush these young salmon safely out to sea but these pulses are 
too small to get the job done. They need to be longer in duration.
Close The Delta Cross Channel Gates During All Downstream Migrations. 
        Start in 2008 & 2009
    The cross channel is a man-made channel dug into the delta to 
facilitate the flow of water directly to the pumps. Young salmon are 
very susceptible to being pulled off course into the cross channel 
which usually results in their death. Closing the cross channel gates 
has been a major help to endangered species to keep them from being 
sucked out of the Sacramento River into the central delta to perish in 
sterile waters with no protective habitat. Closing the gates during all 
smolt migrations will have an immediate highly beneficial result in 
getting more fish to the ocean.
Install State of the Art Fish Salvage at the Delta Pumps
    Fish of all species that bypass the louvers at the state and 
federal pumps are captured and held in tanks. Periodically the tanks 
are emptied into trucks and are hauled and dumped in the North delta. 
Survival could be dramatically improved with better handling and the 
use of adapting pens at the dumping sites. The small fish are currently 
dumped in a highly stressed and weakened condition. Predator fish and 
birds kill a high percentage. Many of these fish are endangered 
species. The minor costs of doing this job right are insignificant in 
terms of the potential benefits to survival.
Develop a Longer Term Comprehensive Salmon Recovery Plan
    Longer term plans are needed. There are hundreds of projects that 
can repair habitat, open new habitat, improve survival, improve water 
quality and allow better up and down stream migration. The fishery 
groups have a list and so do the fishery agencies. State and federal 
leadership is needed to see that these projects are set in priority, 
funded and implemented. One example is the retirement of the Red Bluff 
diversion dam with screened pumping installed as a replacement. Another 
is the removal of barriers blocking access to 32 miles of spawning 
grounds on Battle Creek on the upper Sacramento River. Early estimates 
indicate that up to a billion dollars will be required to implement the 
critical projects.
Require Full Mitigation for all Direct and Indirect losses at the state 
        and federal pumps
    This action is long overdue. There is no question that the state 
and federal water projects have been destroying millions of game and 
non-game species annually for fifty years. When viewed from a 
cumulative perspective, this impact is a major factor in the decline of 
the Central Valley fisheries. There has been very little successful 
mitigation for the losses they created. The state provided some 
mitigation but only for direct losses of salmon, steelhead and striped 
bass. The federal pumps mitigated for direct losses for a few years but 
then withdrew from their written agreement with California Department 
of Fish and Game. Neither the state nor the federal pumps have ever 
mitigated for indirect losses. Indirect losses are fish that perish 
because they are pulled out of their normal migration paths and perish 
before they get to the pumping plants. Many biologists believe that 
indirect losses far exceed the direct losses. Mitigation funding used 
properly for habitat and water flow improvements, could go a long way 
towards the recovery of many species as was originally intended by the 
Central Valley Project Improvement Act. The California Assembly has a 
bill in process, AB1806, which would require mitigation for direct and 
indirect fishery losses caused by the operation of the by the state and 
federal Water Projects. The bill has passed the Water Parks and 
Wildlife Committee and is now at the Appropriations Committee for 
consideration. This action needs federal support and a possible 
parallel federal bill.
Remove 4 Klamath River Dams
    The Klamath River remains a salmon disaster. The fishery agencies, 
and virtually every fishery and tribal group agree that the best 
fishery solution and economic solution is the removal of four dams on 
the river. Continued state and federal leadership is needed to bring 
this about. In the meantime firm biological opinions are needed to see 
that the endangered fish in the river can survive until the dams are 
gone.
Install State of the Art Screening at the Delta Pumps
    Hundreds of thousands of fish currently perish at the state and 
federal pumps. Some are salvaged and subsequently die and others are 
pulled through the louvers and perish in the canals. These pumps are 
crucial to future California water deliveries with or without a 
peripheral canal. The final answer is to separate the fish from the 
water with modern screens and solve the problem once and for all. Fish 
screens do this all over the world. The current louvers are archaic in 
terms of the current state of the art. They should be replaced with 
state of the art screens like those successfully operating at the GCID 
and Contra Costa water diversions.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
    Ms. Bordallo. I thank you very much, Mr. Richard Pool, for 
your testimony, and I now would like to ask Mr. Jason Peltier 
to proceed with his testimony.

             STATEMENT OF JASON PELTIER, DIRECTOR, 
            SAN LUIS & DELTA-MENDOTA WATER AUTHORITY

    Mr. Peltier. Thank you. It is an honor to testify in 
Congress. While we often talk about farmers and fishermen in 
conflict, I should say that Roger Thomas and Dick Pool are 
people that we share an awful lot with and have worked with 
over the years, and there is no question about their heartfelt 
sincerity and desire to be constructive in addressing and 
resolving problems.
    That is where we find a lot of common ground with the 
fishing community because, for the beneficiaries of water 
projects, the beneficiaries of the dams and the canals and the 
pumping plants that put that water to good use to grow food and 
serve our communities, a healthy fishery is also a part of our 
critical path. An unhealthy fishery leads to big problems for 
us, and that leads to economic dislocation. So we do have a 
very solid basis of common interests. We have some points of 
disagreement also.
    Briefly, I would just like to say I have included a 
National Marine Fisheries Service scientific paper as an 
attachment to my testimony, which identifies primarily ocean 
conditions as a cause here. Certainly, we recognize that the 
large pumping plants in the delta are a factor--there is no 
question--directly and indirectly, in the way they change 
patterns of flow in the delta. They are a factor, but I have 
never seen a credible statistical analysis that shows us what 
is lost at the pumps and how significant of a population-level 
effect that is.
    In fact, I have some comments. I had hoped Mr. Miller would 
be here. I did not want to have to say this behind his back. 
His staff is missing, too, unfortunately. I am sure he might 
want to respond to some of the things he said that I found to 
be inaccurate, or I misheard, that have to do with the impact 
of the pumps and how they are regulated.
    I think an important thing not to lose sight of, as you 
heard on the Columbia, there has also been a tremendous amount 
of change in the last 15 years in the Central Valley of 
California. Investment on the order of a billion dollars-plus 
in ecosystem improvement, primarily aimed at salmon stressors; 
$200 million, easy, spent on science, research, monitoring, 
trying to understand how this ecosystem functions and how the 
fish are affected by that, and how further changes might be put 
in place to help fisheries.
    Forty-six million acre-feet over the last 15 years have 
been reserved, prioritized, for fishery purposes, everything 
from direct curtailment of pumping plants to increased flows in 
rivers to minimum pools and reservoirs to maintain 
temperatures, and half a billion dollars by the customers of 
the Federal Central Valley Project have been spent to improve 
fisheries. Unfortunately, we, like many, are disappointed in 
the results.
    The delta, as you have heard, is undergoing many 
significant changes. There is a lot of planning process because 
there is common recognition that the delta, where the San 
Joaquin and Sacramento Rivers come together before going to the 
ocean, is under stress from a variety of factors and is not 
sustainable.
    I would like to say, in commenting on a couple of things 
that Mr. Miller said, I heard him say that the water users take 
as much water as they can or as possible. That is true, but 
what is possible is severely regulated by the National Marine 
Fisheries Service and the U.S. Fish and Wildlife Service. So we 
have Biological Opinions that control.
    I thought I heard him say that the customers decide what 
the take level is of the fish. Incorrect. We are on the 
endangered, winter-run salmon. If a pair of spawning salmon 
produces, say, 4,000 young salmon, we are permitted to take two 
percent of those at the export pumps and recognize that the 
vast, vast majority of them are lost and die before they even 
make it to maturity in the ocean.
    I would also like to comment on the importance and need to 
engage the fishing community in the development of the Bay 
Delta Conservation Plan. This an open process. They are quite 
welcome. There are a lot of environmentalists that are at the 
table and engaged.
    So, to the extent that the fishing community wants to 
participate in the development of the Bay Delta Conservation 
Plan, come on in, and we can use your expertise. Thank you for 
the opportunity to speak.
    [The prepared statement of Mr. Peltier follows:]

 Statement of Jason Peltier, Director, San Luis & Delta-Mendota Water 
   Authority, Chief Deputy General Manager, Westlands Water District

    Thank you for the opportunity to present testimony on the decline 
of our salmon fisheries on the West Coast. I will also discuss the 
dramatically changed landscape of ecosystem investment and operations 
of the Federal Central Valley Project (CVP) since the last major 
drought to hit California and the Central Valley Project Improvement 
Act was passed by Congress 15 years ago.
    There is no question about the dramatic decline in returning salmon 
spawners in the Sacramento River as determined by the National Marine 
Fisheries Service. There is, however, some uncertainty about the 
driving forces behind the decline. Attached to my testimony is a paper 
prepared by National Marine Fisheries Service scientists that 
identifies ``ocean conditions'' as the primary common factor behind 
this disaster (attachment #1). This widespread disaster that has hit 
the largest river systems to the smallest streams that flow directly in 
to the ocean up and down the West Coast. Some feel passionately that 
water project development and in particular the delta export pumps are 
THE cause for the salmon decline. I respect their right to have an 
opinion, but disagree with their conclusions. The huge body of science 
and data that relates to this tragedy, and the delta in particular, 
simply does not support this conclusion. Attachment 2 is a graph that 
shows the relative quantities of water diverted from the delta system.
    The Sacramento-San Joaquin Delta is the focus of a number of 
significant planning processes that start with the recognition that the 
Delta is broken from many perspectives. Fisheries are in decline, water 
supplies that move through it for the people and farms of California 
are inadequate and unreliable, water quality issues persist, a major 
earthquake induced collapse is quite likely, and the ecosystem has 
become dominated by invasive species--some of which are harmful to the 
food chain and native fisheries.
Ecosystem Investment
    Since 1992, when Congress passed the Central Valley Project 
Improvement Act a significant amount of change has occurred for the 
farmers on 3 million acres of irrigated land served by the project, the 
five million household served by the project and the aquatic ecosystem. 
These changes and investments have coincided with significant 
investments by the CALFED process and significant changes in the 
regulatory environment.
    In the last fifteen years:
    <bullet>  Over $1 billion has been invested in habitat 
improvements--primarily focused on salmon stressors.
    <bullet>  Over $200 million has been spent on scientific research 
and monitoring.
    <bullet>  Over 46,000,000 acre feet of water from the CVP has been 
prioritized for fishery improvements. That is about 3.1 million acre 
feet of water annually that is no longer reliably available to support 
food production or communities.
    <bullet>  Over $200 million has been spent on the Environmental 
Water Account for the benefit of the fisheries.
    <bullet>  CVP water and power contractors have contributed nearly 
$460,000,000 to support these environmental restoration efforts.
    At the same time:
    <bullet>  The 32 water districts from the CVP that receive water 
south from the Delta have regularly faced 40% water supply reductions, 
even in wet years.
    <bullet>  This year the CVP faces a 55% shortage and the State 
Water Project (SWP), which serves 20 million Californians, has a 65% 
shortage.
    In Westlands Water District:
    <bullet>  100,000 acres have been taken out of irrigated 
agriculture.
    <bullet>  Cropping patterns have shifted in response to water 
shortages and higher water costs. Over 100,000 acres of the 600,000 
acres in the district are now in vegetables and nearly 100,000 acres 
are planted to permanent crops-primarily almonds.
    <bullet>  This year our farmers will pay about $100 per acre foot 
for their water from the CVP.
    I provide this detail to demonstrate the commitments of the 
farmers, the agencies and the regulators to be responsive to the 
fishery concerns we have. There is also a widely held belief that we 
have ignored or done much too little to address the ``other stressors'' 
in the Delta impacting our fisheries. Too few resources have been 
focused on invasive species, the changing food chain and declining 
nutrients, and toxics, in particular ammonia from urban sewer 
discharges that surround the Delta, introduced predators, and some 
2,000 unscreened and unmonitored water diversions with a combined 
capacity that exceeds the CVP.
Broken Delta:
    I have attached to my testimony the ``articulation table'' 
(attachment #3) that shows the many processes addressing the challenges 
we face in the Delta. Of these, the Bay Delta Conservation Plan and the 
Governor's Delta Vision process deserve your notice. Two common 
realities pervade all of these processes: 1) A recognition that the 
status quo cannot and will not stand and that we face a choice: either 
we take action to address the ecosystem and water management 
infrastructure problems or the system will collapse and we will move 
directly into an environmental and economic disaster; and 2) The 
existing means of conveying project water through the southern delta 
needs to be changed for a variety of reasons and a canal around the 
Delta should be built to a location that can support an effective 
screen for separating the water for 25 million Californians and 3 
million acres of farm land from the fish in the Delta.
    In the BDCP process, the water and environmental interests are 
working with the Federal and State fishery and Water Project agencies 
to develop a comprehensive habitat conservation plan. This planning 
effort will identify conservation measures that can be counted on to 
put the listed species on the road to recovery. It is a complex and 
intense undertaking, one that is driven by our common needs to address 
our water and environmental problems.
Science in the Delta
    The Delta suffers from complex scientific and historic political 
conflicts. This is an area for which we have a tremendous amount of 
scientific data and completed research. However, just looking at the 
conflict over the causes of the salmon decline, you quickly get the 
picture that different people draw different conclusions from the same 
data. This conflict spills over to the Biological Opinions which guide 
and restrict the operations of the CVP and SWP.
    We must and will live with these conflicts as we attempt to find 
common ground and make decisions that will assure that future 
generations can enjoy a healthy ecosystem and a robust economy.
Conclusion
    The federal interest in sustaining our fisheries, farms, and 
communities is enormous. As usual, we all struggle with the competing 
societal values when it comes to the intersection of our water 
management responsibilities and our desire to promote healthy fisheries 
and ecosystems. As our conflicts will be on-going, it is essential that 
we keep our eyes on and resources properly focused on all of the 
stressors, all the causes of problems and not make the error of a 
narrow minded focus that fails to look at the whole picture-at the 
totality of the problems we face.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Peltier.
    The Committee has heard your stories. Many of them are 
shocking situations that you are in, and most of you, all of 
you, are in the fishing industry. So I have learned a great 
deal from just listening to you, and I know that the Members 
now, some of them are back, and they would like to be allowed 
to ask a few questions. But, first, I ask unanimous consent 
that Mr. Wu, David Wu, be allowed to join the Subcommittee on 
the dais and participate in the hearing. Hearing no objection, 
so ordered.
    Now, I would like to ask the gentlelady from California, 
Mrs. Lois Capps, who is a Member of the Subcommittee, to ask 
her questions.
    Mrs. Capps. Thank you, Madam Chairman, and I want to thank 
the witnesses for their testimony, particularly of the fishers 
and those related to the fishing industry, for your eloquent 
testimony today. I want to ask three of you for your response: 
one a fisherman, a small business owner, and Laura regarding 
the restaurant. So I want your answers to be brief enough that 
we can cover all three areas. Everyone is affected by this.
    Commercial fishers, as I hear you say, are struggling to 
stay afloat. Some shift to other fisheries like, in my area, 
crabbing, but many will have to survive on disaster aid checks 
and hopes that the next season will be better. It is difficult 
to shift gears, as you know and have said. New licenses, gear 
types, and boats are needed.
    So, Mr. Kawahara, how will the salmon closure affect other 
fisheries? What impacts do you expect on the fishing industry 
as a whole?
    Mr. Kawahara. Madam Chairwoman and Congresswoman Capps, I 
think guys will go into other fisheries. Most likely, they will 
concentrate on albacore tuna this year. That is what I hear. 
The other people who have Dungeness crab permits will keep 
their gear in the water longer. That is it quickly.
    Mrs. Capps. It is really hard. As you impact other 
fishermen, there is more competition, and there is less to go 
around. Am I hearing you say that?
    Mr. Kawahara. That is correct. The Pacific Fisheries 
Management Council is currently struggling with competing the 
FMP on albacore, and, right now, we do not have an 
overfishing----
    Mrs. Capps. So this disaster with salmon affects every 
aspect of the fishing industry.
    Mr. Kawahara. That is correct. There is displacement into 
other industries.
    Mrs. Capps. Thank you very much.
    Now, Mr. Pool, as you know, and as you have stated, fishers 
are not the only ones struggling because of the decimation of 
the salmon. It has a ripple effect throughout the whole economy 
of the area that is affected. Boat crews, suppliers, and others 
are hurting, too. They are not getting as much attention, you 
folks, because what little attention there is, is being paid to 
the fishermen, which I know you would have us do, but let us 
know the ways that we could provide, and should be providing, 
relief to other related workers who are also impacted in this 
situation.
    Mr. Pool. Is that a question for me?
    Mrs. Capps. Yes, it is, Mr. Pool.
    Mr. Pool. I would hope that others other than direct 
commercial fishermen can participate in the emergency funding. 
Certainly, my own business, we have been in business 30 years. 
I have never seen more red ink than I have looked at in the 
last year or two. We make salmon equipment, and if there are no 
salmon, there are no sales. So our situation and a lot of 
others--guides, charter operators--they are all terribly 
impacted. Up the Sacramento River, there are a lot of guys who 
no longer have anything to employ them. So if that money can be 
spread somewhat, that would be very helpful.
    Mrs. Capps. So the economy of the whole region, the West 
Coast region, is impacted, I am hearing you say, up and down 
the rivers and all along the shore, and really a lot of this 
feeds into tourism, too, doesn't it?
    Mr. Pool. Actually, it does. Starting all the way from your 
area up through Fort Bragg, Bodega Bay, the coastal communities 
and the river communities and the delta communities are the 
ones that are going to be hit the hardest, along with 
industries like the boat industry that serves all of those 
communities.
    Mrs. Capps. Thank you. That is eloquent. I want to now turn 
to Laura Anderson. I was engaged by your eloquent testimony. 
You know, I have to focus on Morro Bay in my district because 
that is the most poignant for me: a small fishing community 
that I talked about earlier.
    One of the things that people like the best about Morro 
Bay, and they come from far and wide, is that you can still eat 
the catch of the day at some of the restaurants right on the 
waterfront. It is fabulous. But as much as we like to eat the 
fish right off the boat, the opportunities for that are not as 
frequent as they once were. How can we continue to ensure that 
restaurants like yours can provide local, high-quality fish to 
customers?
    The reason I ask you this, as well as Mr. Pool, is because 
we need to ensure that all stakeholders are at the table when 
decisions that impact stocks are made. I am sure the fishers 
would agree with this. Thank you.
    Ms. Anderson. Thank you for the question. Certainly, we 
will be pushing marketing efforts toward underutilized species. 
Black cod, I think, will be a major contributor to our coastal 
economy this year, and it is going to take some work to get 
consumers used to eating that in substitute for salmon.
    In that same vein, I know some restaurateurs will be 
sourcing salmon from Alaska and from other places. There are a 
lot of businesses like mine that that is simply not an option. 
Most high-minded, seafood restaurateurs would not be caught 
with foreign salmon in their restaurant at all. It would be a 
terrible thing, but, for me, even buying Alaskan salmon is 
really a challenge. The name of my business is Local Ocean 
Seafoods. People come there for an authentic experience.
    When Joel and his other skippers come into the restaurant 
and sit down and eat, and they are elbow to elbow with the 
tourists and the visitors, it creates a very unique experience 
that is just irreplaceable. Salmon is integral to that, and it 
is something that we will not be able to re-create without 
having the fishery.
    Mrs. Capps. Thank you very much. That was beautifully said. 
You have to know that you have some allies here. This is a part 
of the American life that we are determined to see preserved. 
Thank you. Thank you, Madam Chairman.
    Ms. Bordallo. I thank the gentlelady from California.
    Now I recognize Mr. Wu. He was here earlier this morning, 
and I have overlooked you, and I am sorry, David. So please 
proceed.
    Mr. Wu. Thank you, Madam Chairwoman. I guess the point of 
my question or statement is really directed at the former 
panel, and I wish they were still here, but some of them are in 
the room. But members of the current panel may have opinions on 
this also.
    What I have observed during my nine or 10 years now in the 
U.S. Congress is a changing cavalcade of crises rotating 
between the major river basins of the West Coast--the 
Sacramento-San Joaquin system, the Klamath system, the Columbia 
River system--and the explanations that we have been given just 
do not seem to make sense. The explanations of fisheries policy 
and the closures and the water management in the river systems 
just do not seem to make sense when you try to focus on the 
data.
    It occurred to me, as I was trying to make sense of this, 
that what locks it into place is, if you stop trying to make 
scientific sense of this, and then just kind of realize that 
there is a political layer between the scientists and the 
regulators and that these decisions are really politically 
driven and that they are driven to help those folks who have 
been helpful to the administration and hurt those folks who 
have not been helpful to the administration. Once you look at 
the changing cavalcade of regulatory approaches, all of a 
sudden, then the picture kind of snaps into focus, and it makes 
sense. At least, that is the way it seems to me.
    I would love to hear from the members of the prior panel 
about the intervening layer, how much input the scientists 
have, as opposed to the folks who are in the political layer, 
but perhaps some members of this panel have some opinions on 
that topic also, and perhaps we could hear from some of the 
fishing folks before we hear from some of the agricultural 
folks.
    Why don't we start at this end and go forward? I think the 
gentleman in the middle had his hand up first.
    Mr. Kawahara. Thank you, Congressman Wu. Concerning high-
level, political interference in the fisheries management of 
the West Coast, in 2006, I believe it was, when the Pacific 
Fisheries Management Council was considering an emergency rule 
to provide for a fishery on robust Sacramento stocks and almost 
nonexistent Klamath stocks, the emergency rule would have 
required us violating our spawning escapement goal for the 
Klamath by 5,000 fish.
    I witnessed the director of NMFS Northwest running around 
the halls with his staff, complaining that the White House 
Council on Environmental Quality was constantly e-mailing him, 
on what topic, I do not really know; however, it does not seem 
to me that the decision was being made locally, having 
overheard that.
    Mr. Wu. Thank you for that very interesting point. Yes, 
sir.
    Mr. Pool. Richard Pool again. I think you are exactly 
right. Our conclusion, a couple of years ago, was that 
fishermen have traditionally been terribly unorganized. They 
are not organized at all, and the political process is against 
us. Our adversaries have plenty of money and have a lot of 
lawyers. They have a lot of lobbyists, and they are after your 
attention daily.
    That is why we organized this Water for Fish political 
campaign. Fishermen now can go on a Web site. They can 
register. We have their e-mail. We can communicate with them. 
We now have the biggest database in California of fishermen, 
and they are madder than hell. We have finally given them 
someplace to go to organize politically so that we can let you 
folks know and, hopefully, make it politically possible to move 
some decisions in our direction.
    Mr. Wu. Thank you very much. Yes, sir?
    Mr. Peltier. I would disagree with you on both counts.
    On the first, that nothing has happened, when I look at 
the----
    Mr. Wu. I did not say nothing has happened. I said there 
has been a cavalcade of disasters and that there has been a set 
of politically driven decisions. That is what I said.
    Mr. Peltier. I will get to the politics second, but, first, 
we have seen dramatic reductions in our water supply, directly 
driven by Biological Opinions. We have lived, since 1992, with 
40-percent cutbacks on a pretty regular basis. This year, we 
have a 55-percent cutback. The State Water Project, which 
serves Southern California, has a 65-percent cutback, fish 
driven.
    So we have seen dramatic changes, in addition to the 
billion dollars that has been spent on ecosystem improvement 
and the science. So there have been dramatic changes.
    On the science question, I have a very different 
perspective. Having been a political appointee in this 
administration, I was amazed at the lack of political 
involvement with scientific issues. There was an aversion and a 
fear in the distance, and you heard Mr. McInnis talk about the 
Biological Opinions were done at the field level, exactly the 
case.
    Our frustration is not political meddling. Our frustration 
is, in a system where a mid-level biologist, working with very 
uncertain information, with wide degrees of opinion in the 
scientific community, can land in a place and say, ``This is 
it,'' and any questioning of that is, ``Oh, you are tampering 
with the science.'' The uncertainty is so dominant that we have 
to live with that I think the arm waving about bending the 
science ignores the fact that the uncertainty and the 
variability of scientific opinion is enormous.
    Mr. Wu. Well, is it true that NOAA requested that the U.S. 
Fish and Wildlife staff be excluded from commenting on the 
BiOps?
    Mr. Peltier. I do not know. I have no knowledge of that, 
what you are referring to.
    Mr. Wu. Uh-huh.
    Mr. Peltier. I am aware that the inspector general of NOAA 
did carry out an investigation and found what they thought were 
problems and suggested that the agency ought to take a new 
approach in developing Biological Opinions. One of those, I 
think, is going to be horribly destructive to the whole 
process, and that is this notion that they should peer review 
the Biological Opinions. There is such a fast pace of new 
Biological Opinions being developed, court decisions. We are in 
a horrible world of uncertainty, and----
    Mr. Wu. Let us engage on that topic just for a second.
    Mr. Peltier. OK.
    Mr. Wu. If peer review slows the process down, doesn't it 
slow the process down even more to have a series of BiOps that 
are subsequently rejected by the courts as inadequate under 
law?
    Mr. Peltier. That is a fair statement, but I do not think 
that peer review of a Biological Opinion is going to result in 
an opinion which is any more safe or more immune from court 
action than the agencies were.
    Mr. Wu. Mr. Kawahara was referring to White House 
biologists e-mailing folks on the West Coast. I thank the 
indulgence of the Chair.
    Mr. Pool. Me, too.
    Ms. Bordallo. Your time is up, the gentleman from 
California, but we will get back to you, if you would like a 
second round.
    I would like to recognize Mr. Miller from California.
    Mr. Miller. Thank you. Jason, that is an interesting 
response, except it just does not jibe with the history of what 
took place in this agency and what the courts found out, what 
the investigations have found out, what this Committee found 
out, and what the Department of the Interior admitted to.
    They had a political appointee trampling all over the 
evidence here, e-mailing her friends, letting her attorneys in 
on decisions and conversations, and it went for an extensive 
period of time. She changed no to yes and yes to no. She was 
not a scientist. She had no authority. I mean, she had 
authority. She had no background here. Huge conflicts of 
interest. That is the public record.
    To suggest that there was not enough meddling, the record 
would also suggest, from the vice president down, people were 
meddling in the Klamath or in the delta or elsewhere. It does 
not seem to be much open for a debate.
    Mr. Peltier. Do you want my disagreement?
    Mr. Miller. Well, you can, but that is sort of the public 
record. That is why we are back. We are back at the beginning 
here. We have blown several years now trying to deal with 
fixing the delta, but the court looked at it, and, you know, 
you look at the language of the court, and you look at the 
underlying actions that were taken, and it is a scandal.
    So now we are back, all over again, starting over, and, you 
know, it would probably be pretty sensible, given the past 
history, unfortunately, of the good work of a lot of scientists 
that probably you are going to have to peer review because the 
system has got its credibility right out on the table here.
    Mr. Peltier. Mr. Miller, unless it was informally, over a 
beer or something, I do not think I would ever take you on by 
trying to argue this issue because you are well prepared. 
However, I have a very different perception and perspective 
on----
    Mr. Miller. I am just talking about the public record. It 
is out there on the public record.
    Mr. Peltier. I agree. I have a different view of the public 
record and what the public record says and what----
    Mr. Miller. That is fine, then. OK. But that is a different 
answer than you gave Mr. Wu, the suggestion that somehow this 
did not take place.
    Mr. Peltier. I do not want to get too specific, but when we 
look at the salmon Biological Opinion that Judge Wanger found 
defective, his focus was on, I believe, the primary focus was 
on the way it dealt with temperature control target points in 
the Upper Sacramento River and the way it failed to deal with 
the climate change, and those are things that are being 
remedied in the development of the new Biological Opinion.
    Very importantly, though, he let stand a very important 
part of that Biological Opinion, which was the adaptive 
management approach that NOAA Fisheries had identified and 
included because, in recognition of all of the variability, all 
of the uncertainty, that was let stand.
    I am not going to argue the big case, but I am happy to 
look and deal with the very specific issues, both in the court 
case and in the process.
    Mr. Miller. Mr. Pool and Mr. Thomas, are you involved in 
the habitat, the Bay Delta Conservation Plan or Habitat 
Conservation Plan? That is what I would know it as.
    Mr. Pool. Is the question to me?
    Mr. Miller. You and Mr. Thomas.
    Mr. Pool. No. In fact, I do not know of any fishermen or 
fishing interests that are involved.
    Mr. Miller. Did you ask--to be involved?
    Mr. Pool. No. I am trying to run a business, for the most 
part.
    Mr. Miller. Well, has anybody in the organization?
    Mr. Pool. No. We have had some very minor interaction. Mr. 
Peltier and I have known each other for some time, and we talk 
from time to time, but that is the limit of it. I do not know 
of anyone else that is involved. I am not sure we have been 
invited formally.
    Mr. Miller. Mr. Thomas, have you been involved?
    Mr. Thomas. Thank you, Congressman Miller. No, I have not 
been. For the last 30 years, I have been deeply involved in the 
Federal end with the Pacific Fishery Management Council, and 
now that I am out of business this year, I will have some time 
to devote to issues like this, and if my association or myself 
was asked, we would certainly get involved with the committees 
and stuff.
    Mr. Miller. But the association has not asked to----
    Mr. Pool. No, no, we have not, sir.
    Mr. Miller. Don't you think you should?
    Mr. Pool. I think we should, yes. I definitely do.
    Mr. Miller. Jason?
    Mr. Peltier. I am deeply involved in the development of the 
Habitat Conservation Plan. The fishermen would certainly be 
welcome. We have a steering committee that is made up of the 
water users, environmentalists, agencies, Farm Bureau, that 
meets every other Friday from nine to noon, about. There are 
about 80 people in the room. That is kind of the main body that 
drives the development of the Habitat Conservation Plan. We 
have a biological working group and various working groups that 
could benefit from the engagement of the fishing community. 
There is no doubt about it.
    Mr. Miller. I would hope, Mr. Pool and Mr. Thomas, that you 
would consider that an invitation----
    Mr. Pool. I sure will.
    Mr. Miller.--and see about engaging them. I am not saying 
you personally, but the association or somebody because, 
obviously, many members of this panel represent communities 
that are impacted by the actions on the fisheries, and I think 
that that group is going to have considerable say in how we 
rethink the operation of the delta. So I think that would be 
important.
    Mr. Pool. Well, I certainly agree with you, Mr. Miller, and 
I will contact Mr. Peltier and get some information on the 
meetings and see what we can come up with to get some 
representation.
    Mr. Miller. Thank you. Thank you. Thank you, Madam Chair, 
for the time.
    Ms. Bordallo. I thank the gentleman from California, Mr. 
Miller, and now I would like to call on Mr. Costa from 
California for any questions he may have.
    Mr. Costa. Thank you very much, Madam Chairwoman.
    Mr. Pool, I was looking with great interest on your 
testimony and the charts that you provided us. You made 
reference to all three of them, but, on page 10, you were 
talking about the recovery, and, of course, what we have here 
is the peaks and the valleys. It almost looks like the housing 
crisis in the country over the last 20 years.
    The year 1992 was really kind of the end of the drought 
that we had in California, if you remember correctly. It was a 
six-year drought, and you cited, in your testimony, the 
recovery that took place, and I will assume that your numbers 
are the right numbers, and, up until 1997, that recovery 
continued, and then there was obviously something happening for 
a time period, for a year and a half, for two years, where 
there was another decline in the rise and the fall of the 
Central Valley Chinook salmon returns.
    Then it began, sometime in 1998, late 1998, to increase 
again, in terms of the returns, and it continued at, actually, 
a very impressive, when you look at the entirety of the 
schedule, increase that went all the way and extended to 2002, 
so for a period of five years, approximately. What do you 
attribute that to?
    Mr. Pool. There are several things. As you can see on the 
chart, the declaration of the winter run as being on the 
endangered list in 1990 triggered a number of actions. We give 
NMFS and the fishery agencies a lot of credit for identifying 
the right projects, for getting in firm permits in the right 
places. They did a good job. And then there are four major 
projects that, in total, accounted for about a billion dollars: 
the temperature curtain at Shasta; the Glen Caloosa fish 
screens; the Iron Mountain Superfund Site, which was poisoning 
the upper river; and opening the Red Bluff Dams. Four major, 
major projects, along----
    Mr. Costa. Do you think that some of that money that we 
provided at the state level with Propositions 96 and the 
Federal dollars helped as well?
    Mr. Pool. All of that helped. Sure. The CVPIA money helped. 
There are a lot of things that helped in here. We were ecstatic 
on the rise of this. Ocean conditions were generally favorable 
in this period of time. So a number of things, and it kind of 
proves to us, if you get conditions right, and particularly the 
freshwater side of things, salmon can respond and will respond.
    Mr. Costa. At the same time, I look at another chart that 
was submitted by Mr. Jason Peltier on the amount of delta 
outflow to the banks and traces the export of water, upstream 
consumptive use, and then delta diversions. What it basically 
shows is that, with some exceptions, from 1975 until 2005, the 
export of water, with some changes, has remained relatively the 
same. I am sure Mr. Peltier will show you his chart, if you are 
interested in looking at that, if you have not seen it.
    It just seems to me that there are a number of contributing 
factors, and I think we need to figure out, and I would urge 
you to participate in the Habitat Conservation Plan, my two 
fishermen friends from California, because I think that would 
be helpful in this dialogue.
    I do not think it does any good, us blaming each other for 
the problems. We can play that game, and, with some of my 
colleagues, we have played that game. I try not to play that 
game. You can blame me, you can blame them, you can blame the 
other guy, but, at the end of the day, we are all in this 
together, and it just seems to me that we all have, you know, 
interests that are compatible at the end of the day.
    I do not want to deprive fishermen of the ability to enjoy 
fishing, whether it is for recreational or commercial purposes, 
and I am one of those recreational boaters in your other graph, 
so I pay my boating license, and, at the same time, I think you 
folks like to eat. So having a viable agricultural economy in 
California, I think, is as important.
    Let me ask Mr. Peltier, do you have any opinion on the 
specific suggestions that were raised by Mr. Thomas and Mr. 
Pool on suggestions for improving fisheries?
    Mr. Peltier. A curious aspect of this hearing is we are not 
really talking about ``So what should we do?'' very much, and 
that is why Mr. Thomas' list of 18 specific items is helpful 
and is worth looking at. I have to say, the 18 specific actions 
that he suggests, I am probably there on 15 of them. Three of 
them, I have a problem or a concern with or question how well 
it work, given the cost.
    Mr. Costa. So let us repeat that for the record. Of the 18 
suggestions that Mr. Thomas suggested, you think that 15 of 
them, you could agree on and implement.
    Mr. Peltier. Exactly.
    Mr. Costa. Well, that is the kind of dialogue and the kind 
of effort I think we need to be pursuing, frankly.
    My time has expired, Madam Chairwoman. I will wait for the 
second round, but I would like unanimous consent to submit for 
the record a letter and documentation for the Modesto 
Irrigation District that has been participating with other 
entities on what is referred to as the studies done on non-
native fish species.
    It is a part of the VEMP overall effort on the Sacramento-
San Joaquin River Bay Delta estuary, and there are some very 
interesting biological efforts that are being taken to maintain 
the winter-run salmon and to make other efforts that would, 
ultimately, we hope, help improve the fisheries in the San 
Joaquin and Sacramento Rivers.
    Mr. Costa. Without objection.
    Ms. Bordallo. Without objection, so ordered.
    Mr. Costa. OK. Thank you.
    Ms. Bordallo. I wish to thank the gentleman from 
California. There is an awful lot going on up here, so please 
excuse me.
    I would like now to recognize the gentlelady from 
California, Mrs. Capps, for further questions.
    Mrs. Capps. Thank you again, Madam Chairwoman, for allowing 
a second round of some more questions to be asked.
    I want to focus my questions to Mr. Thomas, as you are part 
of the Pacific Fishery Management Council. Isn't it true that 
this council has made numerous recommendations to NOAA and to 
the Department of the Interior regarding flows and Biological 
Opinions and salmon protection issues?
    Mr. Thomas. Yes, Congresswoman Capps. I am a former member. 
I completed my last nine-year term as an active council member 
in June of 2006. In my 30 years on advisory panels and 13 and a 
half years as a voting council member from California, through 
our habitat committee, we had many recommendations on 
environmental issues, water and all of the things that affect 
our valuable salmon resource, and we did make many 
recommendations to NOAA and different agencies on the problems 
that we saw.
    Mrs. Capps. Right. During the past few years, just as you 
were leaving, or maybe you have kept in touch with some of the 
proceedings since you were no longer an active member, does the 
council believe that the concerns that the council raised were 
adequately addressed and incorporated into Biological Opinions 
that were developed? In other words, do you feel like you were 
really a partner, at any level, with the decisions that were 
made representing the community.
    Mr. Thomas. Well, I cannot speak for the entire council, 
but, as a very active council member, I think most of us felt 
that we were only there in an advisory capacity, and what we 
recommended was not always initiated to our satisfaction.
    Mrs. Capps. You were left with no recourse. Let me get 
specific. We have on the record a summary of some of the 
council recommendations. For example, the council recommending 
to reinstate ESA, Section VI, consultation, as soon as 
possible. This recommendation was made to DOC and DOI. Do you 
recall if this was ever responded to or acted upon?
    Mr. Thomas. Well, I cannot remember the exact year now, but 
when the ESA listing came about, it was acted on, and we had 
closed seasons and lots of restrictions that came out of it, 
but they were basically all on the fishermen, except what was 
done at the pump level in California, which there is some 
variable where they still can take some winter-run salmon when 
they are outmigrating.
    Mrs. Capps. So you do not believe the ESA----
    Mr. Thomas. Well, it has been productive, as pointed out by 
Mr. Pool's chart showing where there have been increases. The 
winter run, at the time that it got listed, was 191 fish, 
adults, returning. I do not have the figures off the top of my 
head for this year's return, but I think it was somewhere in 
the 4,000 level. It was just a little bit higher prior to that. 
So what they have done has been successful for the winter run.
    Mrs. Capps. OK. When they invoked Section VII, it was 
successful.
    Mr. Thomas. Yes.
    Mrs. Capps. Let me mention about four more, and then either 
you or Mr. Pool might want to respond. I want to find out if 
the council recommendations were taken seriously, if they were 
acted upon, if you felt like you were being listened to. For 
example, ``Reinitiate coho and Chinook salmon EFH 
consultation,'' this request both to DOI and DOC. ``Establish a 
flow management advisory committee as soon as possible. 
Complete the SEIS and implement the Trinity River ROD in a 
timely fashion,'' and, finally, ``To provide the council an 
opportunity to comment on the EIS for the Long-term Operations 
Plan.''
    These were some of the recommendations I have on record 
here that were made by the council to the various agencies, and 
what I want to get from you who are in the water or involved, 
did you feel like you were being listened to? Was there a 
response that you felt was taking you seriously?
    Mr. Thomas. Well, we were certainly listened to, at a 
council level, with their representatives because they heard 
our recommendations.
    Mrs. Capps. But were there actions taken?
    Mr. Thomas. In regards to the actions, the Trinity River, 
with the changes in where some of the water went, is much 
better than it used to be. I cannot comment on the others. I am 
not up to speed on that.
    Mrs. Capps. Does anyone else on the panel wish to do that? 
All right. No one else? All right. Thank you. I was trying to 
get at the purpose of the council, which is to be the 
stakeholders making a difference, and I wanted a reaction to 
see if you felt like this was something--clearly, there is 
something that went wrong in the outcome, and how can we 
strengthen this relationship?
    Mr. Thomas. I think the general belief, if I can make 
another comment----
    Mrs. Capps. Sure.
    Mr. Thomas.--with the stakeholders' group or fishermen, 
myself as well as all of the commercial fishermen and stuff, is 
that if the decisions can be made locally or in the region 
without any political influence coming from someplace, it seems 
to work very well, but some of the things get changed when they 
get back to this venue back here, not Congress, but the 
national level.
    Mrs. Capps. I hear you. Thank you very much, Madam.
    Ms. Bordallo. I thank the gentlelady from California, and I 
would like to recognize Mr. Costa again for further questions.
    Mr. Costa. Thank you very much, Madam Chairwoman. I, once 
again, want to thank you, as we draw--I think this hearing is 
coming to a close--for your time and your efforts and patience 
and the Committee staff for the hard work of both the minority 
and the majority staff on what I think, as I said at the 
outset, is a timely and an important hearing.
    I have some additional questions that I want to raise, but 
I will submit them for the record with the 10-day time period 
for the witnesses, both on the first panel and the second 
panel. But I do have a concluding statement, and it is this, 
and I am going to, once again, refer to Mr. Thomas' chart here 
on page 10. This is yours? Yes.
    That is what this chart tells me is that we can still 
export water south of the delta and provide water for other 
important purposes in the State of California, as we talk about 
the crisis impacting the Sacramento and San Joaquin Rivers, and 
still improve the quality of fisheries. We did it over a period 
from 1992 to 1997. We had a decline, and then from 1998 to the 
year 2002, a little past that, we maintained the increases.
    So it really does no good to blame each other. What we 
really need to do, and, Mr. Peltier, I think your comments 
really, at the end of the question I asked you, were 
instructive for all of us.
    This Subcommittee, and I thank you for allowing me to sit 
in on the Subcommittee that deals with fisheries, and another 
subcommittee that I am a member of, the Subcommittee on Water 
Resources, frankly, ought to look at holding some joint 
hearings out in the affected areas. We ought to look at coming 
together and figuring out how we can, together, look at 
solutions that involve the multiple factors that are impacting 
the decline of the fisheries on the West Coast and get beyond 
and get over it, this sort of political rote that we are just 
accustomed to doing because that is the way we do things, of 
blaming other constituencies that may not be our 
constituencies.
    Frankly, it does us no good, and it does not solve the 
problems that we can solve if we sit down together like, I 
hope, our fishermen friends will take advantage and become a 
part of this Habitat Conservation Plan and meet every other 
Friday in Sacramento with the other group, or wherever you are 
meeting, to work on that.
    I do not know, and I do not pretend to have the expertise 
on the areas of the Klamath and the Columbia. Obviously, there 
is an effort to bring together a settlement agreement on the 
Klamath to make up for the mistakes that were made there, and I 
think we should acknowledge that settlement agreement, just as 
we have done on the San Joaquin River. We had a lawsuit for 18 
years on the San Joaquin River, and we moved legislation last 
week through the U.S. Senate that Senator Feinstein had. We 
moved a bill out of the entire Committee last October that I 
carried.
    We have to find viable, common-sense, cost-effective 
solutions that take into account all of the multiple factors 
and all of the interest groups that are a part of this and get 
past the blame game.
    So, Madam Chairwoman, in closing, I want to thank you 
again. I want to suggest that you and Chairwoman Napolitano, 
two strong, powerful women who chair both of these 
Subcommittees, figure out how we can put our heads together and 
maybe do something out on the West Coast and continue the 
dialogue, but do it on a constructive basis, do it where we are 
asking folks not to point fingers at the past, but how we can 
move forward ahead on constructive solutions that we can all 
agree upon that will restore the fisheries and, at the same 
time, not put various groups at odds with one another. Thank 
you.
    Ms. Bordallo. I thank the gentleman from California, Mr. 
Costa, and I think the gentleman has made some very good 
points. I truly believe in sight hearings. I think this is one 
way you can really learn, and I also thank the gentlelady from 
California also for being with us here today.
    To me, I believe in sight hearings, by the way, and I think 
possibly taking it on with another committee overseeing would 
be good. Joint hearings; these are good. So I am going to look 
very carefully at this, and I want to say, as Chairman of the 
Subcommittee, it has been a very informative hearing today, and 
I thank all of you, as participants.
    I have only been the Chair of this Committee since January 
of this year, so I must say, after listening to all of this, it 
really makes me wonder why it has taken so many, many years, 
and so much money has been spent on both management and 
science, and we still seem to be in the same situation.
    To solve these challenges, it seems to me that rebuilding 
salmon stocks is going to require all sides to take a hit, and 
hard decisions will have to be made, decisions that I am not 
sure NOAA has the political backing to be able to make. It is 
going to be incumbent upon this Committee to continue oversight 
on the issue and to continue pressing NOAA to lead the way in 
rebuilding and protecting our salmon.
    Before I close, I want to say, salmon happens to be my 
favorite food, and I want to thank you all again for 
participating, and the Members of the Subcommittee that may 
have some additional questions for the witnesses; we will ask 
you to respond to these in writing. The hearing record will be 
held open for 10 days for these responses.
    It has been asked that the Members have an ability to 
submit other materials and statements for the record. No 
objection, so ordered on this.
    There is no further business before the Subcommittee. The 
Chairwoman again thanks the Members of the Subcommittee and our 
witnesses, and the Subcommittee stands adjourned.
    [Whereupon, at 2:28 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by The Honorable Anna 
G. Eshoo, a Representative in Congress from the State of 
California, follows:]

Statement of The Honorable Anna G. Eshoo, a Representative in Congress 
                      from the State of California

    Thank you, Chairwoman Bordallo, for holding this important hearing 
and for inviting me to participate in today's hearing about the 
collapse of salmon fishing on the West Coast.
    The complete salmon fishing ban in California recently announced is 
the single largest closure of a fishery on record in our country. It is 
historic and totally unprecedented. We must act now to address this 
critical situation which is estimated to have an economic impact 
between $15 million and $25 million per year in my Congressional 
District alone.
    Pillar Point Harbor is the hub of the fishing industry in my 
District. The parking lots should be full this week for the opening of 
the salmon season but instead they are practically empty. There is even 
discussion about other ways to utilize the space since no one will be 
coming to fish. The losses of docking and mooring fees, launch ramp 
fees, and sales to the fish buyers and concessionaires are expected to 
cost the Harbor between $200,000 and $400,000 in direct revenue this 
year. This is a dire situation with another closure or severely limited 
season predicted next year. The impacts of this closure stretch far 
beyond the fishermen, and I'm pleased that the panels today reflect the 
diverse industries that will absorb the ripple effects of the closure.
    I am deeply concerned about the pattern of NOAA's Biological 
Opinions being thrown out by the courts. It is very disturbing that 
scientific conservation plans have been invalidated and cast aside by 
judges. We must develop and implement robust strategies to enable 
salmon and our other vital natural resources to thrive. Biological 
Opinions with strong recommendations based on the latest scientific 
data are an important element of developing sound policy to protect our 
fisheries, but now we call into question the reliability of those 
scientific studies. We must carefully examine what is wrong with the 
preparation and review process for the Biological Opinions to ensure 
that NOAA is able to adequately protect and restore the salmon and 
their habitat.
    I look forward to today's hearing and once again I thank Chairwoman 
Bordallo for extending the legislative courtesy for me to participate 
in this important hearing.
                                 ______
                                 
    [A statement submitted for the record by The Honorable 
Clifford Lyle Marshall, Chairman, Hoopa Valley Indian Tribe, 
follows:]

  Statement submitted for the record by the Hoopa Valley Indian Tribe 
             Presented by Clifford Lyle Marshall, Chairman

I. Introduction.
    Good morning Madam Chairman and members of the Resources Committee. 
My name is Clifford Lyle Marshall. I am Chairman of the Hoopa Valley 
Tribe, California. I appreciate the opportunity to submit written 
testimony on this important issue.
    We urge this Committee to look beyond the immediate crisis of the 
West Coast fishery closure and examine the institutional problems that 
have produced the crisis. The Klamath/Trinity River Basin is a major 
factor in ocean harvest management. You will find repeated examples of 
under funded restoration efforts and politicized decision-making on the 
actions needed to recover irreplaceable fish runs.
    The Hoopa Valley Tribe is deeply involved in efforts to remove old 
dams, protect stream flows for salmon and other fish, and improve water 
quality in the Klamath/Trinity River Basin, including fishery and 
habitat restoration efforts in the Trinity River. The Trinity River is 
the largest tributary of the Klamath and both rivers flow through our 
Reservation. The Trinity was devastated by the construction and 
operation of the Trinity River Division of the Central Valley Project. 
The Hoopa Valley Tribe also supports the reintroduction of anadromous 
fish to the Upper Basin of the Klamath River, which has been blocked by 
dams since 1917 when Copco Dam was built.
    Our Hoopa Fisheries Department is charged with carrying out the 
Tribe's policy to protect and restore the fish runs upon which our 
survival depends. Our Department employs fisheries scientists and 
managers who are working closely with other fisheries agencies to use 
the ``best science available'' to address fisheries conditions. We urge 
the Committee to instruct the Commerce and Interior Departments to root 
out the political bias that has overwhelmed their fisheries and water 
agencies' activities in the Klamath and Trinity River Basins and 
instead listen to its scientists and other fisheries agencies such as 
ours.
    The people of the Hoopa Valley Tribe have resided at the confluence 
of the Trinity and Klamath Rivers for thousands of years. The Trinity 
River represents the largest tributary to the Klamath and flows through 
the heart of the Hoopa Valley Indian Reservation. The Hoopa Valley 
Indian Reservation, established in the Tribe's ancestral homeland in 
1864, is the largest Indian reservation in California, comprising 
approximately 100,000 acres. The fisheries resources of the Klamath and 
Trinity Rivers have been the mainstay of the life, culture and economy 
of the Hoopa Valley Indian Tribe. Our fishery is ``not much less 
necessary to the existence of the Indians than the atmosphere they 
breathe,'' Blake v. Arnett, 663 F.2d 906, 909 (9th Cir. 1981). Since a 
stretch of the Klamath River flows through the northern part of the 
Reservation and since it is the sole waterway by which salmon, 
steelhead, sturgeon and lamprey migrate to and from the Trinity River, 
this river plays a vital role in the health of the Tribe's socio-
economic and cultural livelihood. The Tribe's adjudicated property 
rights to take these and other fish to sustain a livelihood are held in 
trust by the United States pursuant to the Hoopa Yurok Settlement Act 
(25 U.S.C. Sec. 1300i-1). As explained in a Memorandum from John D. 
Leshy, Solicitor of the Department of the Interior to the Secretary of 
the Interior (Oct. 4, 1993), cited with approval, Parravano v. Babbitt, 
70 F.3d 27 (9th Cir. 1995), ``the tribes are entitled to a sufficient 
quantity of fish to support a moderate standard of living, or 50% of 
the Klamath fishery harvest in a given year, whichever is less.'' Today 
our members continue to follow exacting cultural practices to protect 
individual runs of fish and to celebrate the bounty of the rivers that 
gives life to our people.
    The Klamath River Basin has been plagued by poor federal decisions 
on water quality and other fishery habitat conditions that preclude 
sustainable, robust fish populations. Fishery and habitat improvement 
projects on the Trinity River have fallen far behind schedule. The 
resulting depressed fish runs have made it impossible for our people to 
subsist on fish. The habitat degradations on the Klamath led to the 
well-known events of the 2002 fish kill and related 2005 and 2006 
commercial salmon fishery closures off the coasts of California and 
Oregon. The Hoopa Valley Tribe is firmly convinced that the bulk of 
these problematic habitat conditions could have been remedied, and 
thankfully still can be, but only through water resource management and 
environmental restoration genuinely based on the best available 
science. We thank the Committee for holding a hearing on this subject 
because our rivers and our fisheries have been victimized by the 
political influence of the George W. Bush Administration that has 
distorted agency science and decision-making. This testimony provides 
our perspective on recent subversions and corruption of science and 
funding decisions on the part of apparently biased federal agencies in 
the Klamath Basin. We need decisions on diligently pursued, openly 
shared, and independently reviewed information acquired through best 
available science.
    At present, there are three major federal water management projects 
in the Klamath River Basin that must be addressed to restore fisheries: 
the Trinity River Division of the Central Valley Project, the federal 
Klamath Irrigation Project managed by the Bureau of Reclamation (BOR), 
and the Klamath Hydroelectric Project regulated by the Federal Energy 
Regulatory Commission (FERC). I will now discuss specific examples that 
illustrate how the Administration is failing to manage fisheries:
II. Trinity River and Central Valley Concerns.
    Congress linked the Trinity River to the California Central Valley 
in 1955 with the authorization of the Trinity Division of the Central 
Valley Project (CVP). Act of August 12, 1955, 69 Stat. 719 (1955 Act). 
Construction and operation of the Trinity Division, which diverts water 
from the Trinity River to the Central Valley, devastated the Tribe's 
fishery. Within a decade of the Trinity Division's completion in 1964, 
Trinity River fish populations precipitously declined by 80 percent.
    The landmark CVPIA in 1992 was intended fundamentally to change 
federal policy regarding the use of water resources developed by the 
Central Valley Project. Most significantly, it: (1) established fish 
and wildlife restoration as a co-equal CVP purpose with irrigation and 
other uses; (2) required contracts for CVP water to incorporate that 
policy, and (3) directed that the cost of repairing environmental 
damage caused by the development of the CVP be the financial 
responsibility of CVP contractors, particularly and explicitly with 
respect to Trinity River restoration. Public Law 102-575 
Sec. 3406(b)(23) (``Costs associated with implementation of this 
paragraph shall be reimbursable as operation and maintenance 
expenditures pursuant to existing law.'') Section 3406(b)(23) required 
restoration of the Trinity River fishery to pre-project levels, but 
that directive has yet to be achieved.
    In 2000, the outgoing Clinton Administration adopted the Trinity 
River Mainstem Fishery Restoration Final Environmental Impact Statement 
and Record of Decision (2000) (Trinity ROD). CVP contractors 
immediately sued to block implementation, hoping that the Bush 
Administration would withdraw its support for restoration. Sure enough, 
in 2003, the Department of the Interior and the Department of Justice 
(Interior and Justice) abandoned the defense of the Trinity ROD. 
Interior and Justice made that decision knowing that tribal fishery 
resources held in trust by the United States risked being lost. The 
Tribe was left to defend the ROD by itself.
    Also in 2003, Interior and Justice sided with CVP contractors in 
attempting to set aside decades of peer-reviewed scientific conclusions 
about the scope and detail of Trinity River fishery restoration, 
especially water supply needs, by reopening the decision making process 
to consider providing less water than was minimally determined to be 
necessary for restoration.
    In 2004, the Tribe defeated the CVP contractors' challenge to the 
Trinity ROD largely on its own: the 9th Circuit Court of Appeals ruled 
in the Tribe's favor and stated:
        The number and length of the studies on the Trinity River, 
        including the EIS, are staggering, and bear evidence of the 
        years of thorough scrutiny given by the federal agencies to the 
        question of how best to rehabilitate the Trinity River fishery 
        without unduly compromising the interests of others who have 
        claim on Trinity River water. We acknowledge, as the district 
        court highlighted, concerns that the federal agencies actively 
        subverted the NEPA process, but our review of the EIS shows 
        that the public had adequate opportunity to demand full 
        discussion of issues of concern.

        Twenty years have passed since Congress passed the first major 
        Act calling for restoration of the Trinity River and 
        rehabilitation of its fish populations, and almost another 
        decade has elapsed since Congress set a minimum flow level for 
        the River to force rehabilitative action. Flow increases to the 
        River have been under study by the Department of the Interior 
        since 1981. ``[R]estoration of the Trinity River fishery, and 
        the ESA-listed species that inhabit it...are unlawfully long 
        overdue.''

        As we have disposed of all of the issues ordered to be 
        considered in the SEIS, nothing remains to prevent the full 
        implementation of the ROD, including its complete flow plan for 
        the Trinity River. We remand to the district court for further 
        proceedings not inconsistent with this opinion.
Westlands Water Dist. v. U.S. Dep't of Int., 376 F. 3d 853, 878 (9th 
        Cir. 2004).
    Notwithstanding the Court's recognition that restoration is long 
overdue, the BOR has persisted in under funding CVPIA restoration 
activities, which is causing significant delays in implementing the 
restoration program and exacerbating degraded fishery conditions. BOR 
could apply the CVPIA Restoration Fund to fully carry out Trinity ROD 
activities, but it chooses not to do so. BOR has disregarded the 
Interior Department's own budgeting documents, which were part of the 
formal Record of Decision on restoration issued in 2000, in refusing to 
seek or provide these funds. Just last week, BOR again proposed to 
depart from the Trinity ROD and reduce water flows in the Trinity for 
2008. Only our Tribe's threats to sue got the Department back on track.
    The Bureau of Reclamation has repeatedly refused to implement 
Section 3404(c)(2) of the Central Valley Project Improvement Act that 
requires long-term water service contracts to include environmental 
restoration provisions, particularly the obligation of contractors to 
pay for environmental restoration needed to remedy the damage caused by 
construction and operation of the CVP. In 2004, the Tribe filed an 
administrative appeal of that refusal, but Reclamation has never acted 
on the appeal. That same year NOAA issued a Biological Opinion that 
seemed to bless the long-term water service contracts. It was soundly 
rejected by the U.S. District Court in PCFFA v. Gutierrez, E.D. Cal. 
No. 06-cv-00245-OWW-GSA (May 2, 2008).
    In response to requests from CVP water contractors to reduce 
charges being assessed to generate the Restoration Fund pursuant to 
Section 3407 of the CVPIA, in December 2006, the BOR and FWS 
established the CVPIA Program Activity Review (CPAR). The agencies 
established a workgroup as a forum for more detailed discussions of 
program assessment and performance measures with tribes, agencies, and 
stakeholders. Although an initial review was to be completed in 2006, 
the issuance of the final report continues to be delayed. In the 
meantime, the Agencies continue to conduct private negotiations with 
water contractors and other selected parties to allocate funding and 
water supplies to specific projects without having formal criteria for 
determining impacts on other CVPIA legal mandates. Some of these 
private agreements have put the Agencies in conflict with other CVPIA 
legal mandates and tribal trust obligations.
    Section 3404(c)(2) of the CVPIA provides that, with regard to 
renewed water contracts, ``the Secretary [of the Interior] shall 
incorporate all requirements imposed by existing law, including 
provisions of this title, within such renewed contracts.'' Section 
3404(c)(1) provides similarly for interim renewal contracts pending 
completion of environmental reviews required by the CVPIA. The 
Secretary has consistently refused to include in interim or long-term 
contract renewals provisions consistent with the requirements in the 
CVPIA affecting the restoration of the Trinity River fishery resources 
that the United States holds in trust for the Hoopa Valley Tribe. The 
Bureau of Reclamation's interim renewal contracts and long term 
contracts do not include the cost of Trinity River restoration as a 
reimbursable operation and maintenance (O&M) costs. Nor do the Bureau's 
rate setting policies include this payment obligation as a component of 
the O&M rate.
    The standard definition of O&M in CVP long-term renewal contracts, 
for example section 1.q of the draft contract with the Westlands Water 
District (No. 14-06-200-495A-LTR1), states: ``Operation and Maintenance 
or ``O&M'' shall mean normal and reasonable care, control, operation, 
repair, replacement (other than Capital replacement), and maintenance 
of project facilities.'' Section 7(k) of that contract states further, 
in part, that ``Rates under the respective rate-setting policies will 
be established to recover only reimbursable ``operation and 
maintenance'' (including any deficits) and capital costs of the 
Project, as those terms are used in the then-current Project rate 
setting policies....'' Since enactment in 1992, the Bureau of 
Reclamation has failed or refused to incorporate the costs of Trinity 
River restoration in the CVP O&M and cost of service rate setting 
despite the express language of Sec. 3406(b)(23). By the same token, 
the Bureau has failed or refused explicitly to include general 
environmental restoration obligations established by the CVPIA.
    The Trinity River Division of the CVP made possible the irrigation 
of lands of the San Luis Unit on the west side of the San Joaquin 
Valley. Of that land, 400,000 acres are poorly drained and underlain 
with salts and selenium that have been concentrated in irrigation 
drainage water. The result has been a toxic pollution that accumulated 
in drainage reservoirs, named, ironically, the Kesterson National 
Wildlife Refuge, which became deadly attractions to wildlife. This 
double jeopardy to Trinity River fish and Central Valley wildlife 
remains a devastating impact of the Central Valley Project.
    The CVPIA requires CVP contractors to acknowledge and accept in 
their interim and renewed contracts their environmental restoration 
obligations as a condition to future receipt of CVP water. However, the 
CVP beneficiaries have actively resisted their obligations and 
attempted to short circuit them. By letter of December 6, 2005, for 
example, the Northern California Power Agency and the Central Valley 
Project Water Association (CVPWA) submitted to the Assistant 
Secretary--Water and Science an ``assessment'' of the restoration 
activities under Section 3406 of the CVPIA and represented that 
progress on restoration had proceeded to the extent that a reduction in 
their financial obligation to pay for environmental restoration under 
section 3407 of the CVPIA was justified. They made this request just 
three years after the 2002 fish kill and, as it turned out, just months 
before the Secretary of Commerce declared the fishery resource disaster 
referred to above. The Department of the Interior rejected the request 
but undertook a process to determine how to establish when 
environmental restoration has been completed. The Hoopa Valley Tribe 
intervened in that process and insisted that, consistent with criteria 
established by the Office of Management and Budget (OMB) to evaluate 
the outcome of the CVPIA's environmental restoration programs, the 
review criteria include a quantification of the fish available for 
harvest upon completion of the Trinity River restoration effort. The 
prospect of clear, quantifiable outcomes and measures of restoration 
program accomplishment was not what the contractors had in mind and the 
CVPIA Program Assessment Review (CPAR) remains stalled, two years after 
its inception.
    In the meantime, the Bureau has under-funded Trinity River 
restoration and sought to thwart the use of appropriations supplied by 
Congress above the President's budget requests to advance Trinity 
restoration. When legislation (H.R. 2733) to ensure Trinity River 
restoration funding was considered by this Committee on September 18, 
2007, the Administration testified it would not support it.
    In addition, the Administration continues to undermine the 
scientific standards for fishery restoration established by the Trinity 
ROD. The effects on habitat restoration have proven to be detrimental. 
The Hoopa Valley Tribal Council commissioned a scientific review of one 
of the most recently completed restoration sites and declared it a 
failure. The Tribe adopted resolutions (Nos. 08-02 and 08-03, January 
7, 2008) adopting site design criteria, and rejecting the Vitzhum Gulch 
channel rehabilitation site in the accounting for progress towards the 
channel rehabilitation goals identified in the ROD. We urge the 
Subcommittee to advise the Administration to adopt and adhere to 
protocols for design and implementation of restoration activities that 
will be science-based, fully-funded, and cost-effective.
    The CVPWA, which has a long, unbroken record of hostility toward 
Trinity River restoration, also testified against H.R. 2733. It took 
the position that, even though the Trinity River fishery has a senior 
priority to water that has been violated by diversions for the CVPWA's 
benefit, the CVPWA should not be required to subordinate its access to 
federal appropriations to repair the damage to the senior rights to 
fish and water that the United States holds in trust for the Hoopa 
Valley Tribe. The CVPWA's refusal to recognize its obligation to pay 
its fair share and pay it for so long as water is diverted from the 
Trinity River Basin is unjustifiable. This is particularly so with 
respect to including the cost of fishery restoration, propagation and 
maintenance as required by current federal law. The San Luis Unit water 
districts have the resources to meet this obligation. They just do not 
want to pay it.
    In response to a request from Chairwoman Napolitano, among others, 
the United States General Accountability Office (GAO) reviewed the 
costs of repairing the environmental damage from west side irrigation 
and the outstanding accounts for irrigation development that water 
contractors still owed to the United States Treasury. ``Bureau of 
Reclamation: Reimbursement of California's Central Valley Project 
Capital Construction Costs by San Luis Unit Irrigation Water 
Districts'' (December 18, 2007). The GAO report states:
        According to Reclamation officials, San Luis Unit irrigation 
        water districts have never received ability-to-pay irrigation 
        assistance to reduce their capital repayment obligations. Such 
        assistance can be provided to irrigation water districts when 
        Reclamation determines that they do not have the ability to 
        repay their share of capital costs.
    Notwithstanding the well-documented, favorable financial status of 
the San Luis Unit contractors, the Bureau of Reclamation has refused to 
assess them or any other CVP contractors the full costs--as O&M 
expenses pursuant to CVPIA Section 3406(b)(23) or otherwise--of Trinity 
River restoration, an obligation they have irrespective of their 
financial status.
    The GAO report included an investigation of CVP costs and the 
Bureau of Reclamation's accounting of them. The Hoopa Valley Tribe has 
attempted to do the same. On October 31, 2006, the Tribe forwarded a 
series of questions relating to the Bureau of Reclamation's Mid-Pacific 
Region regarding CVPIA restoration cost accounting. The Bureau has 
refused the Tribe's repeated requests for a response to those 
questions. We believe the responses are necessary to informed decision 
making on remedies to California's salmon fishery crisis, as well as 
the integrity of the Trinity River Restoration Program.
    The Trinity River Restoration Program is based upon the 2000 
Trinity River ROD and represents the best available science; it has 
been peer-reviewed and withstood aggressive challenges to disqualify it 
or substitute alternative programs that could not pass scientific 
muster. Today, all that stands between it and successful implementation 
are a commitment from the Administration and Congress to implement it 
and provide adequate funding for it. If the Trinity River program is 
not permitted to succeed, there is little hope for any serious solution 
to the broader fisheries and associated environmental issues facing 
California. The Trinity River program is like the miner's canary, which 
marks the shift from fresh air to poison gas in the political 
atmosphere of California water policy. Whatever solutions are designed 
for California water service, they should be constructed on the legal 
foundation of the CVPIA and with fidelity to the tribal trust 
responsibilities Congress has established in that law.
III. A Distorted Biological Opinion Helped Produce the Biggest Die-Off 
        of Adult Salmon in Recorded History.
    Recent tragic events on the Klamath River have seriously injured 
and continue to pose a substantial threat to the Tribe's federally 
protected interest in the Klamath and Trinity fishery. Between 
September 19 through 30, 2002, approximately 70,000 fish, over 95% of 
which were adult fall Chinook salmon, died as they began their fall 
spawning migration run up the Klamath River to the Trinity River and 
the Upper Klamath tributaries. See California Department Fish & Game, 
Sept. 2002 Klamath River Fish Kill: Preliminary Analysis of 
Contributing Factors (Jan. 21, 2003). A significant portion of the fish 
that died were previously allocated to fulfill the United States' trust 
obligations to the Tribe. Our Tribe's biologists and the California 
Department of Fish & Game have determined that the salmon mortality was 
primarily caused by low river flows, which provoked a disease outbreak. 
Those flows, in turn, were permitted by a biological opinion of the 
National Marine Fisheries Service which had been distorted through 
political pressure from the Administration.
    The biological opinion at issue, the National Marine Fisheries 
Service's (NMFS) Biological Opinion regarding the Bureau of 
Reclamation's Klamath Project operations from June 1, 2002 through 
March 31, 2012 on Southern Oregon/ Northern California Coasts Coho 
Salmon, was issued May 31, 2002. The 2002 Biological Opinion was not 
the first and its flaws are best understood in context. In 1995, more 
than 20 years after enactment of the Endangered Species Act (ESA), the 
Bureau of Reclamation (BOR) started developing a biological assessment 
of the impact on fish resulting from its water diversions for 
irrigation purposes. In 2000, BOR issued an operating plan for the 
irrigation project, but it failed to seek formal consultation with NMFS 
as required by the ESA. The Pacific Coast Federation of Fishermen's 
Associations (PCFFA) sued to challenge BOR's action, and a federal 
court enjoined further BOR water diversions in violation of the ESA.
    On April 6, 2001, immediately after the court's order in the first 
PCFFA case, NMFS issued the 2001 Biological Opinion concluding that the 
low flows proposed by BOR would jeopardize the continued existence of 
Coho salmon that would otherwise pass through our Reservation. The 
revised 2001 operating plan issued by BOR on the basis of that 
biological opinion was upheld by a federal court in Kandra v. United 
States, 145 F.Supp.2d 1192 (D. Or. 2001). However, at the instigation 
of Vice President Richard Cheney and other members of the 
Administration, the Interior Department sought review of the 2001 NMFS 
Biological Opinion by the National Research Council (NRC), an arm of 
the National Academy of Sciences. The NRC took up the matter with 
alacrity and in early 2002 issued a report saying that the reduction in 
stocks of native Coho salmon resulted from multiple interactive 
factors. The NRC concluded that analysis of recent year water flows 
alone would not support the proposed flows in the 2001 NMFS Biological 
Opinion. While only being narrowly correct, the NMFS relied on this 
representation as one of the factors in formulating a revised 
biological opinion.
    In light of the public protests in southern Oregon surrounding the 
low irrigation water deliveries of 2001 and the narrowly framed NRC 
report criticizing the NMFS 2001 Biological Opinion that had called for 
such low water diversions, BOR initiated another formal consultation 
with NMFS to produce a new biological opinion. PCFFA and other 
environmental groups filed a new suit to challenge BOR's 2002 Interim 
Operating Plan, and the Hoopa Valley Tribe joined as a plaintiff.
    As a result of Administration officials' support of BOR's 
objectives, BOR was able to overrule NMFS federal scientists such as 
Mr. Michael Kelly, former lead biologist on Klamath River coho, and 
dominate the agency process leading up to the NMFS 2002 Biological 
Opinion. Specifically, in April 2002, NMFS and BOR regional managers 
met concerning Mr. Kelly's draft biological opinion, which had again 
proposed specific river flow rates higher than those desired by BOR. 
BOR's manager persuaded NMFS that BOR should be responsible for 
providing only 57% of the flows proposed in the biological opinion 
under the theory that some irrigation in the Upper Klamath Basin is 
outside BOR's project. BOR claimed that a ``working group'' would 
develop the other 43% of the water flows needed by the fish. Moreover, 
BOR persuaded NMFS to divide the biological opinion into three phases 
so that BOR water diversions could continue at a high rate; thus 
achieving even 57% of the river flows needed by fish was postponed 
until years 2010-2011.
    The U.S. District Court struck down NMFS' 2002 Biological Opinion 
as in violation of the ESA. The district court found that NMFS relied 
upon private actions that were not reasonably certain to occur. (Not 
coincidentally, that was the same flaw the courts had found in the 
biological opinion for the Federal Columbia River Power System. See 
National Wildlife Fed. v. National Marine Fisheries Serv., 9th Cir. No. 
06-35011 (April 24, 2008).) On appeal in the Klamath case, the Ninth 
Circuit Court of Appeals upheld the finding of an ESA violation, PCFFA 
v. BOR and NMFS, 426 F.3d 1082 (9th Cir. 2005), and the Court remanded 
the matter to the District Court to issue an injunction.
    After the District Court granted injunctive relief as directed, the 
federal agencies and irrigation interests again appealed, but the Court 
of Appeals upheld the injunction, PCFFA v. BOR, 9th Cir. No. 06-16296 
(unpub. Mar. 26, 2007). The Court of Appeals rulings forced BOR to 
release the long-term flows to the Klamath River required by the 2002 
BiOp. However, they also reinitiated consultation under the ESA with an 
eye to creating a new Biological Opinion with less rigorous measures to 
protect threatened salmon runs. As a result, the parties wait with 
apprehension for release of a new biological opinion, one which may not 
demand recovery for damaged fish stocks.
    In summary, as the Washington Post writers showed in 2007, this 
Administration's politically-motivated support for southern Oregon 
irrigation interests and the BOR has distorted the scientific analysis 
of NMFS, created the biggest adult fish kill in recorded history, and 
ignored the United States' fundamental tribal trust obligations to our 
Tribe by depriving fish runs essential to our livelihood of needed 
water throughout the lengthy litigation battles necessary to prove the 
violations of the ESA. Unfortunately, distorted science similar to what 
led to the 2002 fish kill has since continued to affect the Klamath 
Basin.
    The Interior Department has persisted in siding with Oregon 
irrigation interests and against tribal trust responsibilities in the 
FERC proceedings regarding Klamath River fisheries. The Department even 
employed promises of restoration and economic development funds to 
induce some of the affected tribes (but not the Hoopa Valley Tribe) to 
offer water rights concessions. Only by agreeing to embark upon years 
of expensive and thus far inconclusive negotiations with the Upper 
Klamath Basin irrigation interests, were the tribes able to obtain the 
support of the Interior Department and NOAA for fish passage conditions 
and prescriptions in the Klamath Hydroelectric dam relicensing 
proceeding.
    In 2006, agency scientists and attorneys, assisted by the tribes, 
defended those conditions and prescriptions successfully against a 
challenge brought by PacifiCorp in The Matter of Klamath Hydroelectric 
Project, Dkt. No. 2006-NMFS 0001 (ruling of Honorable Parlen L. 
McKenna, Administrative Law Judge). After Judge McKenna upheld the 
science underlying the conditions and prescriptions in September 2006, 
Interior Department managers again threatened to withhold filing the 
final documents unless the tribes agreed to a specific allowable 
allocation of water to be diverted to farming interests in the upper 
Klamath River Basin. The tribes reached the outlines of an agreement on 
January 20, 2007, and four days later the Interior and Commerce 
Departments filed their final modified terms, conditions and 
prescriptions with FERC. However, the Department representatives 
continue to warn the tribes that they may withdraw or weaken those fish 
protection measures.
    The Hoopa Valley Tribe entered the related PacifiCorp Klamath 
Settlement Negotiations optimistic to achieve three critical goals: to 
support dam removal for water quality improvement and reintroduction of 
anadromous fish to historic spawning habitat; to effect firm, science-
based assurance that future Klamath River stream flows will be 
sufficient to support thriving salmon populations; and to ensure vital 
fisheries habitat restoration, including ample stream flows, balanced 
against non-tribal social needs such as power consumption and 
irrigation. The Tribe maintains that best available science should 
continuously inform us and enable the responsible resource agencies, 
including the tribe, to protect the water necessary to support thriving 
fish populations to make meaningful the tribal and public trust fishery 
resources.
IV. Continuing Agency Bias in Scientific Matters of Fisheries 
        Protection and Restoration
    The United States is responsible for protecting the Hoopa Valley 
Tribe's property rights. As a trustee, the Interior and Commerce 
Departments have a duty to make these rights productive. The 
Departments also owe a trust duty to the public to protect threatened 
and endangered species. Unfortunately, in the tribe's role as co-
manager with these agencies in the Klamath Basin, we are frequently 
faced with a lack of funding, a lack of necessary scientific 
information, or a steering away from or distortion of existing 
information. For example, the federal Klamath Irrigation Project (KIP) 
at present diverts roughly 300,000 acre feet of water annually from the 
Klamath River. The Project also blocks springtime runoff and pumps 
water away from historical marshes that would otherwise naturally 
improve water quality. At other locations, chemically affected 
irrigation return flows are pumped into the river. To this day, very 
little, if any, information exists on the impacts of these KIP 
activities on Klamath River water quality and fisheries production.
    Since 2002, a water bank has provided millions of federal dollars 
to KIP irrigators who reduced their surface (river) water use. Much of 
the water ``savings,'' however, have actually been ``created'' by 
intensive groundwater pumping that began years prior to the completion 
of an ongoing USGS/Oregon Water Resources Department study on the 
impacts of groundwater pumping to down river stream flows. The 
information thus far tells us that there is a significant connection 
between river flows and groundwater. While a water bank could make good 
sense for Klamath River restoration, the study preliminarily indicates 
that the ``bank'' should not rely so heavily on groundwater. 
Nonetheless, hundreds of thousands of acre-feet of water have already 
been pumped from the ground in the Upper Basin at taxpayer's cost.
    The BOR has, ironically, nonetheless been responsible for 
administering the lion's share of fisheries and environmental 
restoration funding on both the Trinity and Klamath Rivers that are 
appropriated by Congress to restore fish populations and habitat that 
has been devastated by its water projects. This dynamic has resulted in 
an inherent conflict of interest that has failed to produce the 
restored fishery populations that both federal and tribal scientists 
anticipated. As noted above, in the Trinity River Restoration Program, 
scientists from the FWS, NMFS and tribes are typically controlled by 
BOR's funding, policies and personnel priorities. The usual results are 
frustration among scientists because of incomplete designs, breakdowns 
in communications and coordination, and a lack of monitoring and 
evaluations of fish restoration and performance without any means of 
recourse or correction.
    In 2006, the Evaluation of Instream Flow Needs in the Lower Klamath 
River Phase II Final Report, prepared for the U.S. Department of the 
Interior by Dr. Thomas B. Hardy and others, determined flow 
requirements for the River. FWS policy officials have characterized the 
Report's recommended flows as ``unreasonable'' or ``unrealistic.'' 
Recently and without any scientific rationale, FWS regional managers 
have expressed to tribes that they expect the upcoming Klamath River 
Biological Opinion flows to be lower than the current mandatory river 
flows needed to protect endangered Coho salmon. The Tribe views the 
Hardy Flow Report as representing the best available science for 
preserving and restoring fish populations. No scientific evidence has 
yet been provided to support the reduced flows that are apparently 
being supported by DOI. The BOR has contracted with the National 
Academy of Science to review the Hardy II Report and another report 
that is generally described as the ``Undepleted Flow Study''. The Tribe 
may seek the Committee's intervention in this effort if it becomes 
apparent that the Administration is attempting to use the outcome of 
NAS' analysis for political purposes.
    It is clear to us that the Klamath and Trinity problems can be 
fixed--as long as they are approached in an honest, truthful and 
scientifically-based manner. We respectfully suggest the following 
options for consideration:
    <bullet>  We urge the Committee to take whatever actions in its 
power to break, or root out, the DOC's and DOI's non-fishery agency 
(i.e. BOR) bias in the implementation of environmental restoration and 
related science.
    <bullet>  The Trinity River Restoration Program must be fully 
funded in accordance with the Trinity ROD and consistent with Section 
3406 (b)(23) of the CVPIA. The administrative structure must also be 
re-designed to function more consistent with a scientifically-based 
program with coordination and cooperation between program partners.
    <bullet>  The requirements contained in Section 3404(c)(2) must be 
incorporated into all CVP water service contracts. Furthermore, 
negotiations between private water contractors and federal agencies 
must directly include all parties that may be impacted by such 
agreements, especially Indian tribes. CVPIA environmental and fishery 
protections measures contained in the CVPIA, as well as federal tribal 
trust obligations, should never be set aside in favor of convenience 
when trying to secure agreements with water contractors.
    <bullet>  Funding for environmental and fishery restoration 
programs should not be administered by agencies who also administer 
activities that caused the problems in the first place.
    <bullet>  We urge the Committee to facilitate the establishment of 
a comprehensive basin-wide management program for the Klamath Basin 
governed by federal, state and tribal agencies. We support the general 
structure of the most recent draft of the Conservation Implementation 
Program, but any BOR-funded fishery restoration program must be 
accompanied with proper checks and balances in both the decision making 
and program implementation arenas.
    The Tribe feels our testimony clearly describes what abuses of 
authority can occur when adequate checks and balances are not 
integrated into ongoing activities when water, money and politics are 
involved. The unique relationships between Indian tribes and the United 
States is supposed to be based on the most fundamental applications of 
trust and honor--and which have been clearly lacking in the management 
of Klamath and Trinity River fishery and water resources. Defending 
against the onslaught of politics and abuse of discretion by federal 
officials has cost the Hoopa Valley Tribe hundreds of thousands of 
dollars each year, which has not stopped the actions that have led to 
now seriously damaged, if not endangered, fish populations. Perhaps it 
would be more acceptable if these situations were the result of 
misunderstandings and misinterpretations between federal agencies and 
tribes, but all evidence points toward them being deliberate and 
planned actions by federal officials. Without our Tribe having to spend 
thousands of dollars of our limited funds in probably endless 
litigation trying to hold the Executive Branch accountable, only 
Congress has the power to intervene and help us fix these problems. 
Again, I appreciate the opportunity to submit testimony on these 
important matters. If you have any questions, please contact me at the 
Hoopa Tribal Office (530) 625-4211.
                                 ______
                                 
    [A statement submitted for the record by The Honorable Jim 
McDermott, a Representative in Congress from the State of 
Washington, follows:]

Statement of The Honorable Jim McDermott, a Representative in Congress 
                      from the State of Washington

    Madam Chairwoman Madeleine Bordallo (D-GU), let me first thank you 
for holding today's hearing. Let me also thank you for the opportunity 
to join the subcommittee on the dais and represent my constituents in 
Washington's 7th Congressional District on this important issue.
    I believe that unless we act quickly and responsibly, and rely on 
science and not fiction, we will witness and share in the 
responsibility for what will become an extinction event for native, 
wild salmon. That would be a needless and senseless travesty.
    The preservation and restoration of wild salmon is one of the most 
important environmental and economic issues facing the Pacific 
Northwest and California. Yet, for all the science; for all the damage 
already done to the salmon runs, commercial fishermen, and hundreds of 
local economies and thousands of jobs; for all the court decisions over 
decades, our government is paralyzed to act.
    There are those in the current Administration who deny there is a 
crisis, deny objective data that has been collected for decades, and 
deny federal court orders to produce a plan. The Administration's 
preferred alternative is what I call the politics of extinction--to 
postpone action long enough until there is nothing left to do.
    The facts support this assertion: A federal court has already 
thrown out three biological opinions submitted by the Administration, 
and it appears all but certain that the latest plan released earlier 
this month is destined for the trash. Time and again, the 
Administration has produced plans of neglect, inadequate in scope, 
ineffective in action, insufficient in outcome, and indifferent by 
design.
    Just as we are beginning to do in addressing global warming, I 
believe that we must demand and apply scientific rigor to the 
preservation and restoration of salmon runs. The truth is, without a 
coherent, scientifically-defensible federal plan for protecting salmon 
in-river, we run a much greater risk of having to take drastic actions 
like closing ocean fisheries, which would have drastic economic 
consequences.
    We need look no further than the recent closures and disaster 
declarations covering commercial fishing off our western coastlines to 
see inaction lead to a $300 million economic calamity. Real people have 
been hurt badly and it will happen again so long as indifference 
continues to eradicate the resource.
    Along the Columbia and Snake River basins, there have been sharp 
declines in harvest, including Native Americans with federally-
recognized treaty rights to fish.
    Instead of faithfully analyzing the data, federal agencies under 
the current Administration cooked the books to arrive at a foregone 
conclusion, and this has been the Administration's policy to address 
the crisis.
    While the facts tell us that the hydro system kills over 90% of 
some stock of young salmon migrating to the ocean, and 25% returning to 
spawn, Administration surrogates offer proposals like reducing spill 
and river flows that will only make matters worse. Yet, any serious 
scientific study of the impact of the numerous dams in the Pacific 
Northwest gets about as much attention from this Administration as 
global warming--and will produce the same outcome unless we intercede.
    That is why today's hearing is so important. A journey of 1,000 
miles begins with a first step, the proverb says. Let us hope and work 
to make today the first step in saving and restoring salmon runs.
    Thank you.
                                 ______
                                 
    [A statement submitted for the record by Peter B. Moyle, 
Center for Watershed Sciences and Department of Wildlife, Fish 
& Conservation Biology, University of California, Davis, 
California, follows:]

     Statement submitted for the record by Peter B. Moyle, Center 
      for Watershed Sciences and Department of Wildlife, Fish and 
   Conservation Biology, University of California, Davis, California 
                         (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2151434c4e584d4461544245405748520f444554">[email&#160;protected]</a>)

    Ever since Gold Rush hit the Central Valley, Chinook salmon 
populations have been in decline. Historic populations probably 
averaged 1.5-2.0 million (or more) adult fish per year. The high 
populations resulted from four distinct runs of Chinook salmon (fall, 
late-fall, winter, and spring runs) that took advantage of the diverse 
and productive freshwater habitats created by the cold rivers flowing 
from the Sierra Nevada. When the juveniles moved seaward, they found 
abundant food and good growing conditions in the wide valley 
floodplains and complex San Francisco Estuary, including the 
Sacramento-San Joaquin Delta. The sleek salmon smolts then reached the 
ocean, where the southward flowing, cold, California Current and 
coastal upwelling together create one of the richest marine ecosystems 
in the world, full of the small shrimp and fish that salmon require to 
grow rapidly to large size. In the past, salmon populations no doubt 
varied as droughts reduced stream habitats and as the ocean varied in 
its productivity, but it is highly unlikely the numbers ever even 
approached the low numbers we are seeing now.
    Unregulated fisheries, hydraulic mining, logging, levees, dams, and 
other factors caused precipitous population declines in the 19th 
century, to the point where the salmon canneries were forced to shut 
down (all were gone by 1919). Minimal regulation of fisheries and the 
end of hydraulic mining allowed some recovery to occur in the early 
20th century but the numbers of harvested salmon steadily declined 
through the 1930s. There was a brief resurgence in the 1940s but then 
the effects of the large rim dams on major tributaries began to be 
severely felt. The dams cut off access to 70% or more of historic 
spawning areas and basically drove the spring and winter runs to near-
extinction. In the late 20th century, thanks to hatcheries, special 
flow releases from dams, and other improvements, salmon numbers (mainly 
fall-run Chinook) averaged over 400,000 fish per year, with wide 
fluctuations from year to year, around 10-25% of historic abundance 
(Figure 1). In 2006, numbers of spawners dropped to about 200,000, 
despite closure of the fishery. In 2007, the number of spawners fell 
further to about 90,000 fish, among the lowest numbers experienced in 
the past 60 years, with expectations of even lower numbers in fall 2008 
(probably <64,000 fish). The evidence suggests that these runs are 
largely supported by hatchery production, so numbers of fish from 
natural spawning are much lower.
    So, what caused this precipitous decline in salmon? Unfortunately, 
the causes are not easy to understand because they are historic, 
multiple and interacting. The first thing to recognize is that Chinook 
salmon are beautifully adapted for living in a region where conditions 
in both fresh water and salt water can alternate between being highly 
favorable for growth and survival and being comparatively unfavorable. 
Usually, conditions in both environments are not overwhelmingly bad 
together, so when survival of juveniles in fresh water is low, those 
that make it to salt water do exceptionally well, and vice versa. This 
ability of the two environments to compensate for one another's 
failings, combined with the ability of adult salmon to swim long 
distances and disperse widely to find suitable ocean habitat, 
historically meant salmon populations fluctuated around some high 
number. Unfortunately, when conditions are bad in both environments, 
populations crash, especially when the heavy hand of humans is 
involved.
    The recent crash has been blamed largely on ``ocean conditions.'' 
Generally what this means is that the upwelling of cold, nutrient-rich 
water has slowed or ceased, so less food is available, causing the 
salmon to starve or move away. Upwelling is the result of strong steady 
alongshore winds which cause surface waters to move off shore, allowing 
cold, nutrient-rich, deep waters to rise to the surface. The winds rise 
and fall in response to movements of the Jet Stream and other factors, 
with both seasonal and longer-term variation. El Nino events can affect 
local productivity as well, as can other ``anomalies'' in weather 
patterns. And Chinook salmon populations fluctuate accordingly.
    The 2006 and 2007 year classes of returning salmon mostly entered 
the ocean in the spring of 2004 and 2005, respectively (most spawn at 
age 3). Although upwelling should have been steady in this period, 
conditions unexpectedly changed and ocean upwelling declined in the 
spring months, so there were fewer shrimp and small fish for salmon to 
feed on. According to an analysis by an interdisciplinary group of 
scientists, conditions were particularly bad for a few weeks in spring 
of 2005 in the ocean off Central California, resulting in abnormally 
warm water and low concentrations of zooplankton, which form the basis 
for the food webs which include salmon. All this could have caused wide 
scale starvation of the salmon. Note the emphasis on could. While the 
negative impact of ocean anomalies is likely, monitoring programs in 
ocean are too limited to make direct links between salmon and local 
ocean conditions.
    ``Ocean conditions'' can also refer to other factors which can be 
directly affected by human actions, especially fisheries. For example, 
fisheries for rockfish and anchovies can directly or indirectly affect 
salmon food supplies (salmon eat small fish). Likewise, fisheries for 
sharks and large predators may have allowed Humboldt squid (which grow 
to 1-2m long) to become extremely abundant and move north into cool 
water, where they could conceivably prey on salmon. These kinds of 
effects, however, are largely unstudied.
    Meanwhile, what has been going on in fresh water, in the Sacramento 
and San Joaquin rivers? On the plus side, dozens of stream and flow 
improvement projects have increased habitat for spawning and rearing 
salmon. Removal of small dams on Butte Creek and Clear Creek, for 
example, has increased upstream run sizes dramatically. Salmon 
hatcheries also continue to produce millions of fry and smolts to go to 
the ocean. On the contrary side:
    <bullet>  The giant pumps in the South Delta have diverted 
increasingly large amounts of water in the past decades, altering 
hydraulic and temperature patterns in the Delta as well as capturing 
fish directly.
    <bullet>  The Delta continues to be an unfavorable habitat for 
salmon, especially on the San Joaquin side where the inflowing river 
water is warm and polluted with salt and toxic materials. Most of the 
rest of the Delta lacks the edge habitat juvenile salmon need for 
refuge from predators and foraging.
    <bullet>  Hatchery fry and smolts are released in large numbers but 
their survivorship is poor, compared to wild fish, although they 
contribute significantly to the fishery. Nevertheless, they are 
competitors with better-adapted wild fish that can survive better in 
both fresh water and the ocean. Most hatchery-raised juvenile salmon 
are planted below the Delta, to avoid the heavy mortality there.
    <bullet>  Numbers of salmon produced by tributaries to the San 
Joaquin River (Merced, Tuolumne, Stanislaus) continue to be 
exceptionally low, in the hundreds, and the promised restoration of the 
San Joaquin River has been stalled for lack of federal funds.
    <bullet>  The ESA-listed winter and spring runs continue to barely 
scrape by in small numbers.
Thus reduced survival of wild fish in fresh water, especially in the 
Delta, combined with the naturally low survival rates of hatchery fish, 
could make for plummeting numbers of adult spawners. This is especially 
likely to happen if young salmon also hit adverse conditions in the 
ocean, particularly as they enter the Gulf of the Farrallons. The 
growing salmon can also hit periods when food is scarce in the ocean, 
along with abundant predators and stressful temperatures, at any time 
in the ocean phase of their life cycle.
    The overall message here is that indeed ``ocean conditions'' have 
had a lot to do with the recent crash of salmon populations in the 
Central Valley. However, they are superimposed on populations that have 
been declining in the long run (with hatchery-supported increases in 
recent decades). The salmon still face severe problems before they 
reach the ocean, especially in the Delta. In the short run, there are 
only a few ``levers'' we can pull to improve things for salmon which 
include shutting down the commercial and recreational fisheries, 
reducing the impact of the big pumps in the South Delta, and perhaps 
changing the operation of dams (increasing outflows at critical times), 
and altering hatchery operations. For example, all hatchery fish could 
be marked with both adipose fin clips and coded-wire tags; this would 
allow experimentation with mark-selective fisheries, where all unmarked 
fish are released.
    In the longer run (10-20 years) we need to be engaged in improving 
the Delta and San Francisco Estuary as habitat for salmon, reducing 
inputs into the estuary of toxic materials, continuing with 
improvements of upstream habitats, managing floodplain areas such as 
the Yolo Bypass for salmon, restoring the San Joaquin River, and 
generally addressing the multiplicity of factors that affect salmon 
populations. There is also a huge need to improve monitoring of salmon 
in the ocean as well as the coastal ocean ecosystem off California. 
Right now, our understanding of how ocean conditions affect salmon is 
largely educated guesswork with guesses made long (sometimes years) 
after an event affecting the fish has happened. An investment in better 
knowledge should have large pay-offs for better salmon management.
    Overall, blaming ``ocean conditions'' for salmon declines is a lot 
like blaming Hurricane Katrina for flooding New Orleans, while ignoring 
the long accumulation human errors that made the disaster inevitable, 
such as poor construction of levees or destruction of protective salt 
marshes. Californians have optimistically assumed that salmon 
populations were well managed, needing only occasional policy 
modifications such as hatcheries or removal of small dams, to continue 
to go upward. The listings of the winter and spring runs of Central 
Valley Chinook as endangered species were warnings of likely declines 
on an even larger scale. ``Ocean conditions'' may seem like a 
destructive hurricane to those wanting to avoid responsibility but 
salmon populations are in fact being regulated by us humans, directly 
or indirectly. Continuing on our present course will result in the 
permanent loss of a valuable and iconic fishery unless we start taking 
corrective action soon.
    On a final somewhat more optimistic note, there is a reasonably 
good chance that fall run Chinook salmon populations will once again 
return to higher levels as they have in the past. However, the lower 
the population goes and the more the environment changes in unfavorable 
ways, the more difficult recovery becomes. A poor environment for 
salmon also increases the likelihood of extinction of the already 
endangered winter and spring runs.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Note: Recovery of Central Valley Chinook salmon is officially 
defined by goals set by the Anadromous Fish Restoration Program under 
the Central Valley Project Improvement Act of 1992. The AFRP has 
pledged to use ``all reasonable efforts to at least double natural 
production of anadromous fish in California's Central Valley streams on 
a long-term, sustainable basis''. The final doubling goal is 990,000 
fish for all four runs combined.
Barth, J. A. and 9 others. 2007. Delayed upwelling alters nearshore 
        coastal ocean ecosystems in the northern California Current. 
        Proceedings National Academy of Sciences 104:3719-3724.
Moyle, P.B. 2002. Inland Fishes of California University of California 
        Press.
Yoshiyama, R. M., F. W. Fisher, and P. B. Moyle. 1998. Historical 
        abundance and decline of chinook salmon in the Central Valley 
        region of California. North American Journal of Fisheries 
        Management 18: 487-521.
                                 ______
                                 
    [A statement submitted for the record by The Honorable 
Thomas E. Petri, a Representative in Congress from the State of 
Wisconsin, follows:]

Statement submitted for the record by The Honorable Thomas E. Petri, a 
         Representative in Congress from the State of Wisconsin

    Chairwoman Bordallo and Ranking Member Brown,
    I would like to thank you for holding this important hearing today. 
I'm particularly pleased that you included the Snake River and Columbia 
Basin salmon in the scope of your hearing.
    In the 1970s, four dams were added to the lower Snake River in 
Eastern Washington. Since that time, the population of wild salmon in 
this river system has dropped nearly 90 percent. Today, most of the 
Columbia River salmon stocks and all the Snake River stocks are either 
already extinct or listed as threatened and endangered.
    Since the 1990s, the federal government has attempted to address 
this situation through a series of biological opinions to guide the 
management of the river system. However, these opinions have 
continually been ruled illegal and the failed recovery efforts have 
cost taxpayers nearly $6 billion dollars.
    Furthermore, the most recent recovery plan that was just released 
earlier this month will require a $7 billion dollar expenditure over 
the next decade, and it fails to even consider the one option that 
scientists believe will restore the salmon population--dam removal.
    This is truly an environmental and economic crisis. It is time for 
Congress to ensure that sound science and fiscal responsibility are 
guiding the salmon recovery process.
    That is why this Congress, Congressman McDermott and I once again 
introduced the Salmon Economic Analysis and Planning Act (SEAPA). The 
legislation requires the Government Accountability Office (GAO) and the 
National Academy of Sciences to review all options for salmon recovery 
and provide needed information on what should be done to restore salmon 
runs in a fiscally responsible manner.
    By undertaking the economic and scientific studies called for in 
SEAPA, the federal government will be better prepared to determine the 
best way to meet its treaty obligations to Native Americans tribes and 
its legal obligations under the Endangered Species Act and the Clean 
Water Act.
    I hope this hearing is the first step this Congress will take to 
address this longstanding crisis.
                                 ______
                                 
    [A statement submitted for the record by The Honorable 
David Wu, a Representative in Congress from the State of 
Oregon, follows:]

Statement of The Honorable David Wu, a Representative in Congress from 
                          the State of Oregon

    Thank you Madam Chairwoman for offering those of us who represent 
the Pacific Coast who have been most affected by this most recent 
fishery collapse the opportunity to weigh in. The effort to restore 
Columbia Basin salmon and steelhead is one of the most urgent 
endangered species challenges of our time. Preserving this resource as 
an economic and environmental asset is a national responsibility.
    I am concerned about the most recent biological opinion for the 
Federal Columbia River Power System. It was my hope that this 
biological opinion would reflect the best science and economic analysis 
available. Unfortunately, the opinion released May 5, 2008 has met with 
a great deal of scrutiny by officials, stakeholders and concerned 
citizens from every arena.
    Further, I am troubled by the politicization of science in this 
administration in general and specifically with regard to this issue. 
The Pacific Northwest has witnessed a rotating series of failures on 
the Columbia, Klamath and Sacramento rivers. Explanations given by 
federal agencies charged with management of these river systems have 
not made adequate use of the best science available. Moreover, I have 
heard from several sources that federal fish and wildlife experts have 
been shut out of the biological opinion process entirely. If true, the 
validity of this biological opinion must be questioned, and I 
appreciate the opportunity to address some of these issues at this 
hearing.
    Our nation has made a commitment to its citizens, the native 
peoples of the Northwest and to the government of Canada to ensure the 
protection and restoration of these species. I look forward to working 
with my colleagues in Congress, and the responsible federal agencies, 
to develop a scientifically based plan for restoring this essential 
environmental and economic asset.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
